<html>
<title> - DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT EFFORTS AT U.S. PORTS OF ENTRY</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



 DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT EFFORTS AT U.S. PORTS 
                                OF ENTRY

=======================================================================

                                HEARING

                               BEFORE THE

                   SUBCOMMITTEE ON CRIME, TERRORISM,
                         AND HOMELAND SECURITY

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 15, 2005

                               __________

                           Serial No. 109-38

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
20-016                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Crime, Terrorism, and Homeland Security

                 HOWARD COBLE, North Carolina, Chairman

DANIEL E. LUNGREN, California        ROBERT C. SCOTT, Virginia
MARK GREEN, Wisconsin                SHEILA JACKSON LEE, Texas
TOM FEENEY, Florida                  MAXINE WATERS, California
STEVE CHABOT, Ohio                   MARTIN T. MEEHAN, Massachusetts
RIC KELLER, Florida                  WILLIAM D. DELAHUNT, Massachusetts
JEFF FLAKE, Arizona                  ANTHONY D. WEINER, New York
MIKE PENCE, Indiana
J. RANDY FORBES, Virginia
LOUIE GOHMERT, Texas

                      Jay Apperson, Chief Counsel

                  Michael Volkov, Deputy Chief Counsel

                        Elizabeth Sokul, Counsel

                          Katy Crooks, Counsel

                 Jason Cervenak, Full Committee Counsel

                     Bobby Vassar, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 15, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable Howard Coble, a Representative in Congress from the 
  State of North Carolina, and Chairman, Subcommittee on Crime, 
  Terrorism, and Homeland Security...............................     1
The Honorable Robert C. Scott, a Representative in Congress from 
  the State of Virginia, and Ranking Member, Subcommittee on 
  Crime, Terrorism, and Homeland Security........................     3

                               WITNESSES

Mr. Jayson P. Ahern, Assistant Commissioner, U.S. Customs and 
  Border Protection
  Oral Testimony.................................................     6
  Prepared Statement.............................................     7
Rear Admiral Larry Hereth, Director of Port Security, United 
  States Coast Guard
  Oral Testimony.................................................    12
  Prepared Statement.............................................    14
Mr. Peter J. Scrobe, Vice President, American International 
  Marine Agency, on behalf of the International Cargo Security 
  Council
  Oral Testimony.................................................    20
  Prepared Statement.............................................    21
Mr. Jeff Keever, Deputy Executive Director, Virginia Port 
  Authority
  Oral Testimony.................................................    23
  Prepared Statement.............................................    24

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Robert C. Scott, a 
  Representative in Congress from the State of Virginia, and 
  Ranking Member, Subcommittee on Crime, Terrorism, and Homeland 
  Security.......................................................    47
Response to Questions for the Record submitted by Commissioner 
  Jayson Ahern, U.S. Customs and Border Protection...............    48
Response to Questions for the Record submitted by Rear Admiral 
  Larry Hereth, Director of Port Security, U.S. Coast Guard......    58
Response to Questions for the Record submitted by Peter Scrobe, 
  Member of International Cargo Security Council.................    70
Response to Questions for the Record submitted by Jeff Keever, 
  Deputy Executive Director, Virginia Port Authority.............    72
Statement submitted by the Retail Industry Leaders Association 
  (RILA).........................................................    79

 
 DEPARTMENT OF HOMELAND SECURITY LAW ENFORCEMENT EFFORTS AT U.S. PORTS 
                                OF ENTRY

                              ----------                              


                        TUESDAY, MARCH 15, 2005

                  House of Representatives,
                  Subcommittee on Crime, Terrorism,
                              and Homeland Security
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 3:02 p.m., in 
Room 2141, Rayburn House Office Building, Hon. Howard Coble 
(Chair of the Subcommittee) presiding.
    Mr. Coble. Good afternoon, ladies and gentlemen. The 
Subcommittee will come to order.
    Today, the Committee on the Judiciary, Subcommittee on 
Crime, Terrorism, and Homeland Security, convenes a very 
important oversight hearing of the Department of Homeland 
Security to examine the security of the nation's seaports and 
the cargo entering these ports.
    I have long contended that protecting our nation's seaports 
is a vital aspect of the overall war on terror. Press reports 
have indicated there's a lack of cargo inspections taking place 
at our ports of entry. This Subcommittee is concerned about 
these reports and looks forward to hearing the Department's 
response to these accounts and the plans to assure adequate 
inspections to protect our ports and the cargo entering the 
United States are taking place.
    Today's hearing will focus on the efforts of three vital 
entities charged with protecting our nation's seaports from 
hostile threats. First, we will hear from the two primary 
agencies within the Department of Homeland Security charged 
with protecting our ports, that is the United States Coast 
Guard and the United States Customs and Border Protection.
    The United States Coast Guard is the nation's leading 
maritime law enforcement agency and has broad multifaceted 
jurisdictional authority. As part of Operation Noble Eagle, the 
Coast Guard is at a heightened state of alert, protecting more 
than 361 ports and 95,000 miles of coastline, which is 
America's longest border. The Coast Guard utilizes both 
Maritime Safety and Security Teams as well as Port Security 
Units to protect our seaports.
    Maritime Safety and Security Teams were created in direct 
response to the terrorist attacks on September 11, 2001, and 
are a part of the Department of Homeland Security's layered 
strategy directed at protecting our seaports and waterways. 
MSSTs provide waterborne and a modest level of shoreside anti-
terrorism force protection for strategic shipping, high-
interest vessels, and critical infrastructure. MSSTs are a 
quick response force capable of rapid nationwide deployment via 
air, ground, or sea transportation in response to changing 
threat conditions and evolving maritime homeland security 
mission requirements.
    The Coast Guard Port Security Units, the PSUs, are Coast 
Guard units staffed primarily with selected Reservists. They 
provide waterborne and limited land-based protection for 
shipping and critical port facilities, both within the 
continental United States and in other theaters.
    We will also hear from Customs and Border Protection. The 
CBP anti-terrorism mission is not limited to the physical 
examination of cargo when it arrives in United States ports. 
The CBP, or the Customs and Border Protection, is also using 
intelligence from a number of sources to identify high-risk 
shipments in order to concentrate its inspection resources on 
them. For example, under bilateral agreements as part of the 
Container Security Initiative, CBP inspectors work in nearly 20 
foreign ports to help ensure the security of U.S.-bound cargo 
before it disembarks.
    Additionally, in November of 2001, the CBP established the 
National Targeting Center to serve as the national 
clearinghouse for targeting imported cargo for inspection. 
Among other tasks, the NTC interacts with law enforcement and 
the intelligence community to disseminate intelligence alerts 
to the ports. NTC, furthermore assists, in conducting research 
on incoming cargo, attempts to improve the targeting of cargo, 
and manages a National Targeting Training Program for CBP 
targeters.
    Next, we will hear testimony from a local port authority, 
the Virginia Port Authority. The VPA has led the nation in 
radiological testing at its seaports and has successfully 
employed radiological monitoring equipment since December of 
2002. In just this past year, in cooperation with Customs and 
Border Protection, VPA deployed some of its equipment to 
national security events, including the Presidential 
inauguration.
    Finally, we will hear testimony from a representative from 
the International Cargo Security Council. The International 
Cargo Security Council is a professional association of cargo 
transportation and security professionals from the entire 
spectrum of cargo security. One of ICSC's goals is to improve 
cargo transportation security through voluntary Government/
industry efforts.
    In order to further this effort, ICSC is a leading 
proponent of encouraging industry to partake in CBP's Customs-
Trade Partnership Against Terrorism. C-TPAT is a joint 
Government/business partnership where companies agree to 
improve the security in their supply chain in return for fast-
lane border crossings and other important incentives. It is 
important to recognize that cargo and port security require the 
multi-layered approach in order to deter and detect all 
vulnerabilities and hostile cargo.
    I am pleased that we have this representation here before 
us today and I look forward to their testimony, and I apologize 
to all of you. I normally don't give an opening statement this 
lengthy, but I think the subject matter at hand requires some 
detail.
    And prior to introducing our distinguished witnesses, I am 
pleased to recognize the distinguished gentleman from Virginia, 
the Ranking Member of this Subcommittee, Mr. Bobby Scott.
    Mr. Scott. Thank you, Mr. Chairman. I'm pleased to join you 
in this hearing on law enforcement efforts at our ports. The 
development of the Department of Homeland Security in the wake 
of the 9/11 tragedies brought about a shift of several law 
enforcement agencies from one Department to another with 
changes and reorganizations of their responsibilities in some 
cases.
    There has been a significant change in responsibilities of 
the Federal law enforcement entities to communicate, 
coordinate, and cooperate with State and local law enforcement 
entities. As a result, some confusion exists in the public and 
Congress and among the various Federal and State agencies as to 
where the oversight responsibilities for these operations 
reside.
    I am of the opinion that we should seek to clarify any such 
confusion by first asserting our jurisdiction over all Federal 
law enforcement entities and then working with those entities 
to insist their coordination and cooperation with each other 
and with State and local law enforcement entities.
    So I'm pleased to join you in this first of a series of 
hearings that we'll be conducting in this regard and commend 
you for your foresight and leadership in this matter.
    I'm particularly pleased to have Jeff Keever, the Deputy 
Director of our Virginia Port Authority, as one of our 
witnesses today. Our ports are a vital part of the nation's 
economy, handling over two billion tons of freight each year, 
and the Port of Virginia is the seventh-largest U.S. port in 
terms of general tonnage, handling annually--in terms of 
general tonnage handled annually and the second largest on the 
East Coast.
    Operating alongside the nation's largest Naval base, 
assisting missions of the Defense Logistics Agency and the U.S. 
Transportation Command, security has always been a big job for 
the Port of Virginia. Secure, smooth, and efficient operations 
are not only critical to the deployment of our troops around 
the globe, but is also why the port has maintained a robust 
annual growth rate of more than 9 percent over the past few 
years.
    As part of its focus on security, the Port of Virginia 
checks 100 percent of the containers leaving the port for 
radiation detection and monitoring equipment before they leave 
the port on trucks. And as a result of its successful 
cooperation with the U.S. Customs agencies, there has not been 
a theft at the port for about 8 years. That's quite a record in 
security when you consider that estimates of thefts from other 
ports across the U.S. range as high as $30 billion annually.
    Yet despite the fact that our ports have risen to the 
challenges, their ability to continue to meet them in a world 
of changing threats and circumstances will depend in large 
measure on our assistance and support. I'm concerned, Mr. 
Chairman, that we have not been as diligent in supporting our 
seaports as we have with our airports and our other border 
crossings. It appears that we have left much of the 
responsibility to the ports themselves compared to what we have 
done to assist our airport and border crossing operations.
    I expect that we'll hear about details of what we can do 
from our witnesses, so I look forward to their testimony and to 
working with you, Mr. Chairman, in clarifying our oversight 
responsibilities for the various law enforcement entities and 
strengthening our ports so that they can do their vital job in 
securing and sufficiently moving cargo and people. Again, I 
appreciate your leadership in this manner.
    Mr. Coble. I thank the gentleman from Virginia.
    I ask unanimous consent that all Members of the 
Subcommittee be allowed to introduce their opening statements 
and be made a part of the record, and we're pleased to have the 
distinguished gentleman from Arizona, Mr. Flake, joining us, as 
well.
    Gentlemen, it's the practice of the Subcommittee to swear 
in all witnesses appearing before it, so if you all would 
please stand and raise your right hands.
    Do each of you solemnly swear that the testimony you are 
about to give this Subcommittee shall be the truth, the whole 
truth, and nothing but the truth, so help you, God?
    Mr. Ahern. I do.
    Admiral Hereth. I do.
    Mr. Scrobe. I do.
    Mr. Keever. I do.
    Mr. Coble. Let the record show that each of the witnesses 
has answered in the affirmative.
    You may be seated, and I am now pleased to introduce our 
distinguished panel. We do, indeed, have four distinguished 
witnesses with us today.
    Our first witness is Mr. Jayson P. Ahern, Assistant 
Commissioner at the Office of Field Operations of the U.S. 
Customs and Border Protection. As Assistant Commissioner, Mr. 
Ahern manages an operating budget of $2.2 billion and directs 
activities of more than 25,000 employees. Moreover, he oversees 
the programs and operations of 20 field operation offices, 317 
ports of entry, and 14 pre-clearance stations in Canada and the 
Caribbean. Prior to this position, Mr. Ahern served as Director 
of Field Operations for the Southern California Customs 
Management Center. Mr. Ahern is a graduate of Northeastern 
University and has completed the intensive program at Harvard 
University.
    Our second witness is Rear Admiral Larry Hereth. Rear 
Admiral Hereth is currently serving as the Director of Port 
Security in the Marine Safety, Security, and Environmental 
Protection Directorate at the United States Coast Guard 
Headquarters. As Director of Port Security, he oversees all 
aspects of the Coast Guard port security mission and has 
directed the development of the maritime security regulations. 
Previously, he served as Commanding Officer of the Coast Guard 
Marine Safety Office in San Francisco Bay, as well as commanded 
a unit in Turkey. He is also a recipient of the Department of 
Transportation Security's Gold Medal Award. Rear Admiral Hereth 
is a graduate of the United States Coast Guard Academy and 
earned his M.B.A. from the Florida Institute of Technology.
    Mr. Peter Scrobe is our third witness, who is a member of 
the International Cargo Security Council and former Chairman of 
Government Affairs Committee at ICSC. Mr. Scrobe has been in 
the marine insurance industry for 30 years. He is currently an 
Advisory Board Member of the U.S. Merchant Marine Academy and 
Vice President of the American International Marine Agency Loss 
Control Services Worldwide. Additionally, Mr. Scrobe is an 
active consultant to the Department of Homeland Security 
through the Homeland Security Institute. Previously, Mr. Scrobe 
has worked to develop the marine loss control operations for 
American International Marine Agency. Mr. Scrobe received his 
undergraduate degree at the Herbert H. Lehman College.
    I'm going to confess my geographic ignorance, Mr. Scrobe. 
Where is that?
    Mr. Scrobe. In New York.
    Mr. Coble. It's in New York. And Admiral, if I may ask, I 
didn't know we had an installation in Turkey. Was that----
    Admiral Hereth. It was a long time ago.
    Mr. Coble. It's good to know I'm up to speed now, and I'm 
now pleased to recognize Mr. Bobby Scott, who has requested 
permission to introduce our fourth distinguished witness.
    Mr. Scott. Well, thank you, Mr. Chairman.
    Jeff Keever has served at the Port of Hampton Roads since 
1977, when he joined the staff at the Hampton Roads Maritime 
Association and the Hampton Roads Shipping Association. After a 
brief absence, he returned to those associations and was named 
Executive Vice President of the Hampton Roads Maritime 
Association and the Hampton Roads Shipping Association. In 
November of last year, he joined the Virginia Port Authority as 
Deputy Executive Director, the agency's number two position. He 
frequently represents the VPA's interests in the Virginia 
General Assembly as well as the port's customer base around the 
world.
    He is a former President of the Hampton Roads Foreign 
Commerce Club, the Hampton Roads Traffic Club, and the 
Propeller Club. He is past Chairman of the Virginia Conference 
on World Trade. He serves as a member of the Board of Directors 
of the Virginians for Better Transportation, Virginia District 
Export Council, and served on the board of the Virginia Chamber 
of Commerce.
    He was honored in 2001 by the Hampton Roads Maritime 
Association when he received the prestigious Distinguished 
Service Award, and he also received the Society of Maritime 
Industry's Distinguished Service Award in February 2004.
    He received his B.A. in political science at the University 
of Richmond and has two children, a daughter and a son, who 
attend Norfolk Academy.
    Mr. Coble. I thank you, Mr. Scott.
    Gentlemen, it's good to have you all with us. Now, I am 
advised that we will have a House floor vote in approximately 1 
hour. We try to operate here, gentlemen, under the 5-minute 
rule. We impose that rule against ourselves, as well, and so 
when we question you all, if you could be terse in your 
response, that will help speed things along.
    When you see the amber light illuminate in your face, you 
will know that you're running out of time. That will be about--
I'll give you about a minute to go from that. So if you could, 
confine your statements to the 5 minutes. We have your written 
statements. They've been examined. They will be reexamined.
    Mr. Ahern, we will start with you.

  TESTIMONY OF JAYSON P. AHERN, ASSISTANT COMMISSIONER, U.S. 
                 CUSTOMS AND BORDER PROTECTION

    Mr. Ahern. Good afternoon, Mr. Chairman, Congressman Scott. 
Thank you very much for the opportunity to testify and update 
you on the advancements the U.S. Customs and Border Protection 
continues to make in the areas of targeting and inspecting 
cargo.
    Automation, electronic information, and technology are 
critical tools to facilitate the progress we have and will 
continue to make with regards to securing the nation's 
seaports. These tools help push our borders outward and 
reinforce the components of CBP's layered defense.
    CBP continues to develop its layered risk management 
approach to safeguarding U.S. borders from threat by land, air, 
and sea. Automated manifest information allows us to screen 
shipments through our targeting systems and 100 percent of 
identified high-risk shipments are inspected. CBP's multi-
layered strategy incorporates legislative and regulatory 
initiatives, international and trade organizational priorities 
and partnerships, improved automation support, new detection 
technologies, and enhanced personnel training, and a 
combination of local and national targeting expertise.
    CBP recognizes that no single strategy is 100 percent 
effective, so the focus is on layering multiple initiatives and 
partnerships together to accomplish its mission. Although these 
layers are closely interwoven and no one layer is more 
important than the others, I would like to focus on those most 
closely associated with the targeting and inspection of sea 
cargo. An adversary may circumvent any single defense, so CBP 
does not rely on one enforcement strategy, facilitation 
program, or inspection process or technology. We employ these 
layers in combination to substantially increase the likelihood 
of a nuclear or radiologic weapon and a weapon-grade material 
will be detected.
    CBP is committed to collecting the most reliable data 
possible. We demonstrate this commitment by working hard on new 
legislation and regulations and establishing a proactive 
manifest compliance program. The Trade Act requires manifest 
data to be transmitted to CBP before the arrival of shipments 
to facilitate the advance targeting so necessary. In the sea 
cargo environment, manifest data is required 24 hours prior to 
lading on a vessel overseas. The scope and the reliability of 
this data is reinforced by the publication of the Trade Act 
final rule on December 5 of 2003 that mandates the trade to 
provide advance electronic cargo information for all modes of 
transportation.
    The Automated Targeting System, known as ATS, is a 
flexible, constantly evolving system that integrates 
enforcement and commercial databases. It is a targeting tool 
that helps CBP focus its inspectional efforts on the high-risk 
cargo. ATS analyzes electronic data related to individual 
shipments prior to arrival and ranks them in order of risk 
based on the application of algorithms and rules. The scores 
are then divided into thresholds associated with further action 
that CBP must take relative to documentation review, use of 
technology, or physical inspection.
    The National Targeting Center, the NTC, has made 
significant progress since it began around-the-clock operations 
on November 10 of 2001 and began the task of reorienting our 
narcotics-based targeting methodologies and technologies for 
anti-terrorism and national security missions. By January of 
2003, NTC staff relocated to a state-of-the-art facility in 
Northern Virginia that accommodates representatives from all of 
CBP. We broadened the scope of CBP targeting and NTC now has 
on-site liaison officers from the United States Coast Guard, 
the Transportation Security Administration, Immigration and 
Customs Enforcement, the Federal Air Marshals, the Department 
of Agriculture, and the NTC has also provided targeting 
expertise to the Department of Homeland Security Operations 
Center, the Terrorist Screening Center, and the National 
Counterterrorism Center to support the timely and accurate flow 
of information pertaining to national security and terrorist 
activity.
    The Customs-Trade Partnership Against Terrorism, known as 
C-TPAT, also came into being as a result of the tragic events 
of September 11. CBP began to work with the trade to devise a 
strategy to protect the global trading network or supply chain 
against the exploitation by terrorists from loading docks in 
foreign environments to the ultimate destinations here in the 
United States.
    Participation in C-TPAT has grown exponentially, and today, 
membership stands at 8,816 members, 4,600 of those that are 
certified members. Currently, we have enrollment from the 
importing community, carrier community, broker and freight 
forwarders community, consolidators, marine port authorities, 
and terminal operators.
    The Container Security Initiative is an effort by CBP to 
secure ocean-borne traffic by placing CBP officers alongside 
host country customs officers to ensure that all shipments that 
pose a risk are identified in inspection at foreign ports of 
lading. Currently, CSI is in 34 ports in Canada, Europe, Asia, 
and Africa.
    Non-intrusive inspection technology is another cornerstone 
of our layered strategy, and technologies deployed in our air 
and seaports include large-scale gamma imaging devices and also 
radiation detection capabilities, and I'll speak more of that 
when we get into the question and answer period.
    In conclusion, CBP's targeting and inspection programs 
depend upon one another to operate at full potential. We're 
constantly looking at ways to improve and make them stronger. 
CBP works very aggressively with the trade and other Government 
partners to legislate improvements regarding data timeliness 
and quality, which augments the abilities of highly-trained 
personnel to use cutting-edge technology for targeting, 
detecting and securing terrorists and implements of terrorism 
destined for the United States.
    Thank you very much, Mr. Chairman. I would be happy to 
answer your questions later.
    Mr. Coble. Thank you, Mr. Ahern.
    [The prepared statement of Mr. Ahern follows:]

                 Prepared Statement of Jayson P. Ahern

    Good afternoon Chairman Coble, members of the Subcommittee. Thank 
you for this opportunity to testify and update you on the advancements 
U.S. Customs and Border Protection (CBP) continues to make in the areas 
of targeting and inspecting cargo.
    Automation, electronic information and technology are critical 
tools that facilitate the progress we have, and will continue to make, 
with regards to securing the nation's seaports and the cargo that 
traverses them. These tools help CBP push our borders outward and 
reinforce the components of CBP's layered defense.
    DHS continues to develop its layered, risk management strategy for 
safeguarding U.S. borders from threat by land, air and sea. CBP's 
multi-layered responsibilities under this strategy incorporate 
legislative and regulatory initiatives, international and trade-
organization partnerships, improved automation support, new detection 
technologies, enhanced personnel training, and a combination of local 
and national targeting expertise. DHS recognizes that no single 
solution is 100% effective, so the focus is on layering multiple 
initiatives and partnerships together to accomplish its mission. Today 
I would like to focus on CBP activities associated with the targeting 
and inspection of sea cargo.

        <bullet>  National Strategy for Maritime Security--Policy 
        directive to integrate and align all U.S. Government maritime 
        security programs.

        <bullet>  Trade Act--Legislation that requires advance, 
        detailed, and accurate information for targeting shipments 
        before arrival to the United States.

        <bullet>  Advanced Trade Data Initiative (ATDI)--CBP effort to 
        gather and analyze specific information already available from 
        commercial supply chain participants.

        <bullet>  Smart Box Initiative--Test and Evaluation effort to 
        assess commercially available container security devices.

        <bullet>  Non-Intrusive Inspection Technology--Advanced 
        inspection equipment to screen shipments rapidly for WMD, 
        nuclear or radiological materials, terrorist weapons, and other 
        contraband.

        <bullet>  The Customs-Trade Partnership Against Terrorism (C-
        TPAT)--A public-private partnership program for securing global 
        supply chains.

        <bullet>  The Automated Targeting System (ATS)--The premier 
        tool employed by CBP personnel to identify high-risk targets in 
        the cargo environments; targeting rule sets are in production 
        for sea, truck, and rail cargo. CBP anticipates deployment of 
        ATS Air Cargo Targeting during the second quarter of the 2005 
        calendar year.

        <bullet>  The Container Security Initiative (CSI)--Cooperative 
        arrangements with trading partners to push our borders outward 
        by inspecting high risk containers prior to loading, and;

        <bullet>  The National Targeting Center (NTC)--A single 
        location for targeting technology and subject matter expertise.

An adversary may circumvent any single defense, so CBP does not rely on 
any one enforcement method, facilitation program, inspection process, 
or technology. CBP employs these ``layers'' in combination to 
substantially increase the likelihood that potential terrorist threats, 
including a nuclear or radiological weapon or weapons grade material, 
will be detected.

                               TRADE ACT

    CBP is committed to collecting the most reliable data possible. We 
demonstrate this commitment by establishing a proactive manifest 
compliance program. The Trade Act requires manifest data to be 
transmitted to CBP before the arrival of certain shipments to 
facilitate advance targeting. In the sea cargo environment, manifest 
data is required 24 hours prior to lading on the vessel overseas. The 
24 Hour Manifest Rule, along with proactive monitoring of the manifest 
data by CBP, is improving the timeliness and quality of the data which, 
in turn, increases CBP's early detection capabilities. This improvement 
is key to CBP's targeting success in the sea environment at both 
domestic and foreign locations.
    The scope and reliability of this data is reinforced by the 
publication of the Trade Act Final Rule on December 5, 2003, that 
mandates the trade to provide advance electronic cargo information for 
all modes.
    Additionally, when entry information is provided later in the 
supply chain, ATS is able to factor this information into the risk 
assessment. Entry data supplements manifest data, and is some of the 
most detailed and accurate information available for targeting.
    CBP continues enhancing its data quality by testing additional data 
sources such as booking and stow plan data through our ATDI. We are 
also collaborating with our Trade Support Network to identify 
additional data sources that can be effectively and efficiently 
integrated into our targeting and research process.

                 ADVANCED TRADE DATA INITIATIVE (ATDI)

    The goal of the ATDI is to gather and analyze specific information 
already available from commercial supply chain participants in advance 
of, and in addition to, the 24-Hour Rule and entry data currently 
collected.
    The ATDI has four ultimate goals:

        <bullet>  Identify the true port of origin and all stops along 
        a shipment's transit to the United States

        <bullet>  Identify all parties associated with the shipment

        <bullet>  Determine the veracity of commodity descriptions

        <bullet>  Improve CBP risk management and targeting

    Recently we completed Phase I of the ATDI, which demonstrated the 
ability to capture, analyze, and evaluate advance trade data provided 
by consenting U.S. importers via an ocean carrier portal (i.e., ocean 
carrier data contained in bills of lading, booking confirmations, and 
shipment status messages). In Phase II, which runs through April 2005, 
we plan to add additional data sources.

                          SMART BOX INITIATIVE

    In January of 2004, CBP began Phase 1 of the CBP Smart Box 
Initiative. This initiative, which is one of a number of DHS Research, 
Development, Testing and Evaluation programs for container security,\1\ 
involves five C-TPAT partners both large and small. These partners have 
agreed to incorporate enhanced container security measures to evaluate 
the efficacy of off-the-shelf technologies with an added electronic 
Container Security Device as well as an International Standards 
Organization compliant mechanical seal affixed to each container.
---------------------------------------------------------------------------
    \1\ Other efforts include the Advanced Container Security Device 
program in the Science and Technology Directorate and Operation Safe 
Commerce in the Office of State and Local Government Coordination and 
Preparedness.
---------------------------------------------------------------------------
    Securing containers is essential in achieving DHS's vision of a 
comprehensive supply chain security program. A terrorist must not be 
able to open a container in transit to introduce a weapon of mass 
destruction or other threat without DHS being aware of the attempt.
    Results of Phase 1 will further allow CBP to define design and 
performance standards for the operational use of such technology, an 
effort we will undertake cooperatively with the Science and Technology 
Directorate's Container Security Program, including the Advanced 
Container Security Device (ACSD) program. The Department's goal in the 
Smart Box Initiative and the ACSD effort is to identify viable and cost 
effective container security devices that detect tampering and alert 
government and the trade when tampering does occur so we can initiate 
appropriate response mechanisms to determine whether a potential threat 
may have been introduced.

     NON-INTRUSIVE INSPECTION AND RADIATION DETECTION TECHNOLOGIES

    Non-Intrusive Inspection Technology (NII) is another cornerstone in 
our layered strategy. Technologies deployed to our nation's sea, air, 
and land border Ports of Entry that focus on radiation technology 
include large-scale X-ray and gamma-imaging systems, as well as a 
variety of portable and hand-held technologies.
    NII technologies are viewed as force multipliers that enable us to 
screen or examine a larger portion of the stream of commercial traffic 
while facilitating the flow of legitimate trade, cargo, and passengers.
    As of February 2005, 164 large-scale NII systems have been deployed 
to Ports of Entry. These include Vehicle and Cargo Inspection Systems 
(VACIS), Mobile VACIS, Rail VACIS, Truck X-ray, Mobile Truck X-ray, 
Mobile Sea Container Systems, and Pallet Gamma-ray Systems.
    As noted above, CBP is also deploying nuclear and radiological 
detection equipment, including Personal Radiation Detectors (PRD's), 
Radiation Portal Monitors (RPM's) and Radiation-Isotope Identifiers 
(RIID's).

        <bullet>  CBP has deployed 441 RPMs nationwide. 54 are deployed 
        to International Mail and Express Consignment Courier 
        Facilities, 215 are deployed to Northern border land crossings, 
        54 are deployed to seaports, and 118 are deployed to the 
        Southwest border.

        <bullet>  Additionally, CBP has deployed 10,534 PRDs and 418 
        RIIDs nation-wide. Used in combination with our layered 
        enforcement strategy, these tools provide CBP with a 
        significant capacity to detect nuclear or radiological 
        materials. Equally as important, NII technology has been 
        instrumental in increasing the number of containers that are 
        inspected by CBP.

CBP is actively engaged in the establishment of the Domestic Nuclear 
Detection Office, a jointly-staffed, national office established to 
develop a global nuclear detection system and acquire and support the 
deployment of the domestic portion of that system to detect and report 
attempts to import or transport a nuclear device or fissile or 
radiological material intended for illicit use. This office will 
integrate the research, development testing and evaluation of next-
generation detection capabilities with the acquisition and deployment 
of these technologies to the field to ensure the most advanced 
capabilities are being used to protect our borders.

          CUSTOMS-TRADE PARTNERSHIP AGAINST TERRORISM (C-TPAT)

    The Customs-Trade Partnership Against Terrorism (C-TPAT) also came 
into being as a result of events of September 11th. CBP began to work 
with the trade to protect the global trading network or supply chain 
voluntarily and cooperatively. It was built upon the successful 
experience of U.S. Customs in promoting industry partnerships to 
improve security and deter narcotics smuggling.
    The program began in November 2001, working with industry to 
develop reasonable guidelines that reflected the consensus (at that 
time) of what good security practices entailed. C-TPAT has provided a 
forum for the business community and CBP to exchange anti-terrorism 
ideas, concepts, and information to further secure the entire supply 
chain. This has been a learning experience for both industry and 
government.
    Participation in C-TPAT has grown exponentially. In the first year 
C-TPAT enrolled 1000 members. As of March 10, 2005, C-TPAT membership 
stands at over 8,800 members, with 4,775 of those being certified 
partners (approved security profile and vetted by CBP) and 455 having 
been validated (physical verification by CBP Officers of security 
measures and practices in place) by CBP. Another 493 validations are 
underway. Current C-TPAT enrollment sectors include importers, 
carriers, brokers/freight forwarders/consolidators, marine port 
authorities and terminal operators, and Mexican foreign manufacturers
    CBP seeks to ensure that its partners are honoring their 
commitments through a validation process. CBP cannot afford to offer 
the expedited commercial processing benefits that are part of C-TPAT 
for partners who are not holding up their end of the bargain. As a 
result, we are now sending specially trained CBP teams of C-TPAT Supply 
Chain Specialists all over the globe to visit the partners, their 
vendors, and their plants to verify that these steps have been taken.
    C-TPAT is now moving to the next level and will be transitioning 
from its current set of recommended practices to minimum requirements 
that participants must meet for membership. As part of this program, 
CBP will further leverage the role of the importer to extend these 
supply chain security requirements throughout their supply chains. 
Specific enhancements to the security of the container, various 
facility and access controls, and requirements that business partners 
of importers adhere to similar requirements are also proposed. Through 
the natural evolution of the program, C-TPAT will be significantly 
strengthened, and, when combined with other security layers, will 
greatly enhance the confidence we have in the security of the oversees 
component of C-TPAT supply chains.

                                  ATS

    The Automated Targeting System (ATS) is a flexible, constantly 
evolving system that integrates enforcement and commercial databases. 
It is a targeting tool that helps CBP focus its inspection efforts on 
high-risk cargo. ATS analyzes electronic data related to individual 
shipments prior to arrival and ranks them in order of risk, based on 
the application of algorithms and rules. The scores are divided into 
thresholds associated with further action by CBP, such as document 
review and inspection.
    CBP works constantly to enhance and refine the ATS. The data that 
feeds the ATS is substantial, and the scope and reliability of this 
data is reinforced by the Trade Act Final Rule that mandates advance 
electronic cargo data inbound and outbound for all modes of 
transportation.
    Although advance manifest data is a major component of what is 
analyzed, ATS also sorts through intelligence and data contained in 
Government law enforcement and trade databases. ATS is also able to 
access and analyze entry data when it is available. Entry data is some 
of the most detailed and accurate information available for targeting. 
CBP will continue to look for ways to improve the quality of the data 
that feeds the ATS; however, it should be noted that the ATS can detect 
anomalies in both accurate and false data. Such anomalies are strong 
indicators of deception.
    Although constantly evolving, ATS is a proven targeting tool. Using 
advance manifest data, CBP has made several seizures overseas under the 
CSI initiative that included gas masks, tank periscopes and firearms.

                  CONTAINER SECURITY INITIATIVE (CSI)

    The Container Security Initiative (CSI) came into being as a direct 
result of the events of 9-11. CSI is another layer in CBP's defense, 
the purpose of which is to push our nation's borders outward. 34 CSI 
ports are currently operational. These 34 operational ports are made up 
of ports from the original 20 largest ports, shipping the greatest 
volume of containers to the United States, and expansion ports added 
after the initial 20 ports were identified. These original 20 ports are 
points of passage for approximately two-thirds of the containers 
shipped to the U.S.
    CSI fosters greater security via:

        <bullet>  Enhanced targeting through foreign government and 
        trade partnerships and better data;

        <bullet>  Potential Department of Energy (DOE) involvement in 
        radiation detection at overseas ports, and;

        <bullet>  Interdiction of threats before they reach the U.S.;

CSI also uses both automation and advanced inspection technology as 
force multipliers. For example, CSI has requisitioned Personal 
Radiation Devices (PRD's) to be deployed as CSI locations become 
operational. Additionally, CSI has requisitioned Radio-Isotope 
Identifier Devices (RIID's) for deployment to operational CSI ports 
with host country approval.

                    NATIONAL TARGETING CENTER (NTC)

    The National Targeting Center (NTC) has made significant progress 
since it began round the clock operations on November 10, 2001 and 
began the task of re-orienting narcotics based targeting methods and 
technologies for anti-terrorist and national security concerns. By 
January of 2003, NTC staff relocated to a state of the art facility in 
Northern Virginia that accommodates representatives from all CBP legacy 
disciplines, agriculture, customs, and immigration, as well as 
personnel from the Office of Border Patrol, the Office of Intelligence, 
and the Office of Information Technology.
    Broadening the scope of CBP targeting, NTC has developed on-site 
liaison officers from the U.S. Coast Guard, the Transportation Security 
Administration, Immigration and Customs Enforcement, Federal Air 
Marshals, Federal Bureau of Investigation, Food and Drug 
Administration, and the U.S. Department of Agriculture. The NTC has 
also provided targeting expertise to the Department of Homeland 
Security Operations Center, the Terrorism Screening Center, and the 
National Counter-Terrorism Center to support the timely and accurate 
flow of information pertaining to national security and terrorist 
activity.

                               CONCLUSION

    CBP's targeting and inspection programs depend on each other to 
operate at full potential, and we are constantly looking for ways to 
make them stronger. CBP works aggressively with trade and government 
partners to legislate improvements regarding data timeliness and 
quality, which augments the abilities of highly trained personnel to 
using cutting edge technology for targeting, detecting and securing 
terrorists, or implements of terrorism destined to the U.S. Thank you 
again, Chairman Coble, and the members of the Subcommittee for this 
opportunity to testify. I would be happy to answer any questions you 
may have.

    Mr. Coble. Gentlemen, I gave you all some faulty 
information. Our amber light is not working, and I'm told the 
amber light is now working. Okay. Admiral, we'll put you on 
notice. You won't be keelhauled if you violate, but that'll at 
least let you know the ice is getting thin on which you're 
skating.
    Admiral Hereth. Yes, sir, I understand.
    Mr. Coble. It's good to have you, Admiral.

   TESTIMONY OF REAR ADMIRAL LARRY HERETH, DIRECTOR OF PORT 
              SECURITY, UNITED STATES COAST GUARD

    Admiral Hereth. Good afternoon, Mr. Chairman, Mr. Scott. I 
look forward to discussing the Coast Guard's role to secure our 
ports and cargo chain today.
    The marine transportation system, as you know, is a key 
asset that annually handles about 50,000 port calls from 
vessels, over 8,000 foreign vessels. This system contributes 
greatly to the U.S. gross domestic product, with nearly $750 
billion worth of goods moving across our docks annually. A 
variety of reports have underscored the value of the marine 
transportation system to our economy and quality of life in the 
United States. The consequences of an attack shutting down our 
ports would be significant, so clearly, this is a system we 
must protect.
    This, however, is a big challenge. Our underlying 
assumption has been that since trade is global and terrorism is 
global, we need a global solution to the problem. Our intention 
is to identify and intercept threats beginning as far from our 
shores as possible with additional protective measures added as 
vessels get closer to our homeland. Therefore, it's imperative 
that our efforts involve both domestic and international 
security regimes.
    We have made excellent progress, both domestically and 
internationally, so far, but realize that there is much more to 
do. Internationally, we built a coalition of 148 countries 
under the auspices of the International Maritime Organization 
that have all adopted and implemented a security regime similar 
to MTSA in record time. This multilateral approach gives us 
more consistency among our trading partners and ensures that 
security must become a standard practice or a vessel operator 
will be faced with serious and costly delays.
    To complement these new security standards, we worked in 
parallel with the International Standards Organization to 
develop an implementation guide to eight companies as they put 
into practice this major change. I am pleased to report an 
excellent initial success. Presently, only one out of 100 
vessels that we board and inspect require us to take major port 
State control actions.
    Cargo security is one of the principal components of 
maritime security. Customs and Border Protection has had a lead 
role in cargo security and the Coast Guard works to align our 
respective agency roles and responsibilities regarding 
international trade.
    When cargo is moved on the waterborne leg of the trade 
route, the has oversight of the cargo's carriage requirements 
and the care needed for that cargo while it's on the vessel or 
within the port facility. CBP has authority over the cargo 
contents and container improvements. Using the information 
provided through the Coast Guard's 96-hour notice of arrival 
rule and CBP's 24-hour cargo loading rule, we can act to 
control vessels, and thus their cargoes, that pose an 
unacceptable risk to our ports. With Coast Guard officers 
posted at CBP's National Targeting Center, we have improved 
agency coordination and our collective ability to take 
appropriate action when notified of a cargo problem.
    The Coast Guard has worked hard to coordinate all our 
regulatory and policy developments with CBP. We meet regularly 
to discuss policy. We participate in interagency regulation 
development teams and sit on various other interagency 
committees. We also coordinate the work of our various Federal 
advisory committees so that we all understand the trade 
community's concerns and priorities.
    The Coast Guard has fully supported CBP's initiatives. We 
also agree with CBP's view that international compliance and 
the establishment of international standards are needed to help 
gain global compliance and applaud their leadership to engage 
the World Customs Organization and the International Standards 
Organizations to leverage their efforts.
    We thank you for the opportunity to testify and answer 
questions today. I'd be happy to engage in a discussion at the 
appropriate time, sir.
    Mr. Coble. Admiral, you set a record. Rarely do people beat 
the red bell. You walk off with the gold medal. [Laughter.]
    [The prepared statement of Admiral Hereth follows:]

            Prepared Statement of Rear Admiral Larry Hereth

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Coble. Mr. Scrobe.
    Mr. Scrobe. Do I get his excess time, sir? [Laughter.]
    Admiral Hereth. I just wanted to listen to your counsel.

    TESTIMONY OF PETER J. SCROBE, VICE PRESIDENT, AMERICAN 
  INTERNATIONAL MARINE AGENCY, ON BEHALF OF THE INTERNATIONAL 
                     CARGO SECURITY COUNCIL

    Mr. Scrobe. Good afternoon, Mr. Chairman, Mr. Scott. I'm 
Vice President of AIMA, American International Marine Agency, 
which is a managing general agent for member companies of 
American International Group. On behalf of the International 
Cargo Security Council, ICSC, and myself, I'd like to thank you 
for giving us the opportunity to speak here today. Although we 
have several minutes, we could spend hours discussing this 
subject matter. I'd also like to thank John Hyde of Maersk Line 
and Randall Mullet of CNC for their input.
    For many years, we have worked with Congress, particularly 
on what was the original Crime Bill of 2000, which ultimately 
became the MTSA of 2002. It was long, hard work with Government 
and law enforcement to prevent cargo crime and protect the 
supply chain to this country by criminals and terrorists that 
would seek us harm.
    Annual cargo crime losses are estimated domestically at $10 
to $20 billion per year, $30 to $50 billion internationally, 
and therein lies the problem since there is no accurate 
recording of loss data. Although many believe the numbers to be 
much higher, this lack of a true data system contributes to our 
inability to properly analyze the magnitude of the problem, 
which impacts local businesses, jobs, and the economy at large, 
as well as to correctly allocate resources and identify 
anomalies that may indicate terrorist activity. We truly 
believe that cargo crime is the equivalent of economic 
terrorism.
    Over the past several years, and since September 11, 
Customs and Border Protection have instituted the C-TPAT and 
CSI, and additionally, the port authorities have undertaken the 
public-private partnership with OSC, Operation Safe Commerce. 
Under the MTSA, the ISPS Code, which is a global initiative 
directly supervised by the Coast Guard, has, according to many 
carriers and port personnel, tightened port security due to 
reporting requirements, particularly here in the States.
    C-TPAT was a tremendous start and raised awareness with 
importers and exporters by helping them and their providers to 
better understand the actual workings of the global supply 
chain and the effort involved with the entire process. Although 
voluntary in nature, the desired result was to allow for fast 
and secure movement of cargo. It has, in my opinion, enhanced 
the quality and security of the supply chain, but according to 
many has not yet shown the speed and fast tracking which would 
allow cargo to move into the country, and it's not due to C-
TPAT itself but to congestion at many of the ports, such as 
Long Beach. This congestion, according to many experts, will 
worsen with expectation to double in the next 10 to 20 years. 
This also has to do with the fact that larger ships of 8,000 to 
12,000 tons will be built and coming into the States soon.
    It is important to note that, with regard to cargo crime, 
ports have been less of a problem for theft of containers and 
trailers that we have seen. The majority of thefts and 
hijackings occur during the inland transit phase and usually 
prior to reaching final destination within the country. Mr. 
Chairman, I believe that various law enforcement agencies, in 
particular the multi-jurisdictional Cargo Task Forces, would 
also echo these same comments.
    During consideration of the original Crime Bill of 2000, 
language to address intermodal aspects, enhance sentencing 
guidelines, creation of multi-jurisdictional Cargo Task Forces, 
and creation of a separate category for cargo crime in the 
Uniform Crime Reporting System, UCR, database was, 
unfortunately, not ever considered. To that end, Congressman 
Stearns has introduced bill H.R. 785, which the ICSC and the 
AIMU, American Institute of Marine Underwriters, strongly 
supports. This bill has also been considered as part of a 
National Strategy as adopted in February 2005 by the Cargo 
Summit in Tallahassee, Florida. The summit consisted of private 
sector, law enforcement, and government representation from 
around the country. We ask that the Committee carefully review 
and act on this responsible and worthwhile legislation this 
year.
    Over the past 5 years, there have been many studies, 
including ``Best Practices'' by the Volpe Center, and 
``Contraband, Organized Crime, and the Threat to Transportation 
and Supply Chain Function,'' an FIA study sponsored by ICSC and 
Brown Williamson. Each were produced prior to September 11, but 
they are still viable in order to protect the supply chain. I 
urge you, Mr. Chairman and all Members of the Committee, to 
review these important documents.
    As I mentioned earlier, discussion on this topic could go 
on and on. This past December, at the Department of Homeland 
Security Cargo Summit, Secretary Loy indicated he has heard the 
various industries' concerns. Many of these concerns voiced 
were the potential for over-reaction, over-legislation by 
Government that might actually threaten the supply chain more 
than a terrorist attack. Further, although there have been 
discussions on a private sector-Government partnership, it has 
not become a reality of true sharing but appears to be more of 
a one-way street.
    Problems will also be inherent in a Government that is 
looking for one critical magic bullet in solutions in devices 
and technology. We don't believe there is a magic bullet, but 
do believe that a working and proven process with the 
enhancement of these devices will work.
    Thank you for your time. I'll answer questions later.
    Mr. Coble. Thank you, Mr. Scrobe.
    [The prepared statement of Mr. Scrobe follows:]

                 Prepared Statement of Peter J. Scrobe

    Mr. Chairman and Members of the Committee,
    Good afternoon, I'm Peter J. Scrobe, Vice President of American 
International Marine Agency, a Managing General Agent for Member 
companies of the American International Group, Inc.
    On behalf of the International Cargo Security Council (ICSC) and 
myself, I would like to thank you for giving us the opportunity to 
speak today. I would say that although we only have several minutes to 
present, we could discuss this extremely important subject matter for 
hours. I would also like to thank Mr. John J. Hyde, Maersk Line and C. 
Randall Mullet, CNF, for their input.
    For over 10 years, we have worked with Congress on what was 
originally the Crime bill of 2000, and ultimately became the Maritime 
Transportation Act (MTSA) of 2002. The private sector has worked long 
and hard with government and law enforcement to prevent cargo crime and 
protect the supply chain to this country by these criminals and 
terrorists that would seek to harm us.
    Annual cargo crime losses are estimated at $10-20 billion 
domestically and $30-50 billion internationally. Therein lies the 
problem, since there is no accurate recording of cargo loss data. 
Although many believe the numbers to be much higher, this lack of a 
true data system contributes to our inability to properly analyze the 
magnitude of the problem, which impacts local businesses, jobs, and the 
economy at large, as well as to correctly allocate resources, and 
identify anomalies that may indicate terrorist activity.

          CARGO CRIME IS THE EQUIVALENT OF ECONOMIC TERRORISM!

    Over the past several years and since Sept. 11th, 2001, Customs & 
Border Protection have instituted: C-TPAT (Customs-Trade Partnership 
Against Terrorism), and the CSI (Container Security Initiative). 
Additionally, the Ports Authority have undertaken the public/private 
partnership with OSC (Operation Safe Commerce). Under the MTSA, the 
ISPS Code which is a global initiative directly supervised by the USCG 
has, according to carriers and port personnel, tightened port security, 
due to reporting requirements, particularly here in the US.
    C-TPAT was a tremendous start, and has raised awareness with 
Importers/Exporters, by helping them and their providers to better 
understand the actual workings of the global Supply Chain, and the 
effort involved with the entire process. Although voluntary in nature, 
the desired result was to allow for fast and secure movement of cargo. 
It has, in my opinion, enhanced the quality and security of the Supply 
Chain but according to many has not yet shown the speed in which cargo 
would move into the country, primarily, due to the heavy congestion at 
the ports. This congestion, according to experts, will probably worsen 
with an expectation to double in the next 10-20 years.
    It is important to note that, with regard to cargo crime, the ports 
have been less of a problem for theft of containers and trailers. The 
majority of thefts and hijackings occur during the inland transit phase 
and usually prior to reaching final destination. Mr. Chairman, I 
believe that various law enforcement agencies, in particular, the 
Multi-Jurisdictional Cargo Task Forces would also echo these same 
comments.
    During consideration of the original Crime Bill of 2000, language 
to address inter-modal aspects, enhanced sentencing guidelines, 
creation of Multi-Jurisdictional Cargo Task Forces and creation of a 
separate category for Cargo Crime in the Uniform Crime Reporting System 
(UCR) data base, was unfortunately not ever considered. To that end, 
Congressman Stearns (R-FL) has introduced Bill HR 785, which the ICSC, 
and the AIMU (American International Marine Underwriters) strongly 
supports. This bill has also been considered as part of the ``National 
Strategy'' as adopted in February, 2005 by the ``Cargo Summit'', in 
Tallahassee, FL. The Summit consisted of the private sector, law 
enforcement and government representation from around the country. We 
ask that the Committee carefully review and act on this responsible and 
worthwhile legislation, this year.
    Over the past five years, there have been many studies, including, 
``Best Practices'' (Volpe Center) and ``Contraband, Organized Crime and 
the Threat to the Transportation and Supply Chain Function'' (FIA 
Study-ICSC and Brown Williamson). Each were produced prior to Sept. 11, 
and they are still current in their content and viability to protect 
the Supply Chain. I urge you Mr. Chairman, and all members of the 
Committee to review these important documents.
    As I mentioned earlier, discussion on this topic could go on and 
on. This past December at the Department of Homeland Security Cargo 
Summit, Secretary Loy indicated--``he has heard the various industries' 
concerns''. The concerns voiced significantly were the potential for 
over reaction and legislation by government that might actually 
threaten the Supply Chain more so than a terrorist attack. Further, 
although there have been discussions on a private sector government 
partnership, it has still not become a reality of true sharing, but 
more of a one way street.
    Also, problems will be inherent in a government that is looking for 
one ``magic bullet'' solution in devices.
    The ICSC doesn't believe that there is such a ``magic bullet'' 
device. In the end, we believe that any number of devices, working in 
an established and proven process will enhance the securing of the 
Supply Chain and further protect it from terrorists and criminals 
alike.
    And the ever present question--who will be footing the bill?
    I would leave the Committee with one final thought. We are here to 
assist and work with the public sector and we are asking for you to 
assist us in making the Supply Chain as secure as possible. It is only 
through true partnership that success can be met.
    Once again, thank you for allowing me to attend and speak on
    this extremely important subject matter.

    Mr. Coble. Mr. Keever.

 TESTIMONY OF JEFF KEEVER, DEPUTY EXECUTIVE DIRECTOR, VIRGINIA 
                         PORT AUTHORITY

    Mr. Keever. Good afternoon, and thank you, Mr. Chairman and 
Congressman Scott. It's a privilege to appear before you today 
to discuss the Virginia Port Authority's experience with port 
security.
    The Port of Virginia is the seventh-largest container 
facility in the United States and the second-largest facility 
on the East Coast in terms of general tonnage. The Port of 
Virginia is designated as a strategic port by the U.S. Maritime 
Administration, and as such, must be ready to support wartime 
mobilization and onload of military equipment for deployment 
overseas. In addition to the three Virginia Port Authority 
marine terminals, the Port of Virginia contains over 80 private 
port facilities covered by the Maritime Transportation Security 
Act, including coal and petrochemical terminals, commercial 
shipyards, and a wide range of other facilities.
    To date, VPA has received $11.4 million in port security 
grants. VPA has contributed an additional $11 million of its 
own funds to complete the required security enhancements. The 
$11.4 million in port security grants received by VPA to date 
fall far short of what is needed. VPA has identified three 
high-priority projects that are necessary to mitigate serious 
shortfalls in our security posture. These three projects 
require at least an additional $12.5 million.
    The Port of Virginia has been successfully employing 
radiation monitoring equipment since December 2002 and has led 
the nation in radiation monitoring at seaports. The radiation 
detection equipment ensures that 100 percent of all import 
containers leaving the terminal by truck are monitored and any 
detection of radiation is resolved before the container leaves 
the VPA terminal. There is no Federal policy or regulation 
requiring any marine terminal or operator to conduct radiation 
monitoring. VPA's current program was self-initiated well 
before there was a national program and no other port in the 
nation has done likewise. CBP is responsible for monitoring 
inbound cargo for radiation and has a multi-year program to 
deploy radiation monitoring equipment at all land, sea, and air 
ports of entry.
    The Port of Virginia has enjoyed a longstanding, productive 
relationship with the Federal agencies on the front line of 
port security, the Coast Guard and CBP. Both are still 
stretched thin and coping with significant equipment 
challenges. For example, the Coast Guard does not have the 
proper equipment to board and inspect vessels in all weather 
conditions. CBP also faces personnel and equipment challenges. 
CBP is forced to rotate its limited number of vacuous cargo 
inspection systems among multiple ports and facilities. A 
suspect container that must wait for days to be inspected is a 
latent threat to homeland security.
    The solution is to ensure that CBP has the the resources it 
needs. Congress must ensure that adequate resources are 
dedicated to guaranteeing the security of the nation's 
seaports. MTSA-mandated security measures are far beyond what 
the port industry would need to implement for the security of 
their own facilities. In short, the port industry has been 
mandated by Federal law to protect the nation against terrorist 
attacks.
    Although Federal law placed significant responsibility for 
homeland security on the shoulders of the port industry, the 
Federal Government has not provided the funding stream 
commensurate with the financial burden the port industry must 
bear to implement MTSA, which is unique in all of U.S. homeland 
security. The aviation and ground transportation industries 
have not been required to meet similar mandates. The safety of 
commercial aviation has been federalized, the burden taken off 
the aviation industry, and over $11 billion spent for airline 
passenger screening and security.
    Similarly, CBP bears full responsibility at land ports of 
entry. For example, the Ambassador Bridge connecting Detroit, 
Michigan, with Windsor, Ontario, is a major land port of entry 
and a critical link in the supply chain for the cluster of 
automobile factories around Detroit, yet neither the auto 
industry nor the trucking industry has been addled with the 
cost of providing security for this port of entry. Only the 
maritime port industry has been compelled, under threat of 
fines and Coast Guard sanctions, to bear the high cost of 
protecting the nation against terrorists.
    The port industry is doing the best it can with the 
resources it has. The American Association of Port Authorities 
has recommended that funding for the Port Security Grant 
Program be increased to $400 million per year, which we 
support. Security funding could be earmarked from the over $25 
billion collected in Customs revenue from duties and 
importation fees each year.
    The Virginia Port Authority's experience with port security 
and radiation monitoring offers important lessons for enhancing 
U.S. homeland security. Much progress has been made, but much 
more remains to be done. America's ports take their 
responsibilities seriously and are dedicated to doing the best 
they can to protect the nation. They have earned your respect.
    Thank you, and I'll be happy to answer any questions you 
may have.
    Mr. Coble. Thank you, Mr. Keever.
    [The prepared statement of Mr. Keever follows:]

                   Prepared Statement of Jeff Keever

    Good Afternoon Mr. Chairman and distinguished members of the 
Committee. It is an honor and a privilege to appear before you today to 
discuss the Virginia Port Authority's experience with port security and 
radiation monitoring.
    As you have heard from Commissioner Bonner, combating the smuggling 
of illegal and potentially dangerous cargo into the United States is a 
daunting task due to the sheer magnitude of cargo entering the country 
every year; however, it is critical to the success of America's 
homeland security strategy. But just as important is the protection of 
America's ports against terrorist attacks. About 8,100 foreign flag 
ships and 9,200 U.S. flag vessels make almost 60,000 arrivals in the 
361 U.S. commercial ports annually. These ports contain approximately 
3,200 maritime facilities that could be targeted. Despite the 
magnitude, they must remain national priorities if our country is to be 
protected from devastating loss in terrorist attacks.

                    OVERVIEW OF THE PORT OF VIRGINIA

    The Virginia Port Authority (VPA) is an agency of the Commonwealth 
of Virginia, reporting to the Secretary of Transportation. VPA's state-
owned port facilities are known collectively as The Port of Virginia 
and include three marine terminals in Hampton Roads: Norfolk 
International Terminals (NIT), Portsmouth Marine Terminal (PMT), and 
Newport News Marine Terminal (NNMT). VPA also owns the Virginia Inland 
Port (VIP), an intermodal rail facility located near Front Royal, 
Virginia. These terminals are operated by Virginia International 
Terminals (VIT), the non-profit, non-stock corporate operating 
affiliate of VPA. Additionally, VPA hosts a number of private 
corporations on its terminals.
    The Port of Virginia is the seventh largest container facility in 
the United States and the second largest facility on the East Coast in 
terms of general tonnage. In 2004, VPA handled 1.81 million TEUs of 
containerized cargo, an increase of 9.9% from 2003. Containerized cargo 
handling at The Port is projected, conservatively, to grow by 9% in 
2005. Additionally, VPA handled 14 million tons of general (non-
containerized) cargo in 2004, a 6.25% increase over 2003. Also in 2004, 
The Port of Virginia received calls from more than 2,000 ships 
delivering or picking up containers and other general cargo.
    The Port of Virginia functions as a major economic engine. In 
Hampton Roads, only the military rivals The Port in employment and 
contribution to the regional economy. But The Port does not only 
benefit the Hampton Roads region--over eighty businesses have located 
distribution centers throughout the state to take advantage of 
proximity to The Port, benefiting many local economies. According to a 
1999 economic impact study by Martin Associates, overall activity at 
The Port translates into 165,000 port and port-related jobs, $762.5 
million in business revenues, and $60.7 million in state and local 
taxes throughout the Commonwealth. In 2003, the Bureau of Economic 
Statistics reported that The Port of Virginia plays a part in over 
180,000 jobs, with salary and wages in excess of $5 billion.
    The Port of Virginia is designated as a Strategic Port by the U.S. 
Maritime Administration (MARAD) and as such, must be ready to support 
wartime mobilization and on-load of military equipment for deployment 
overseas. Because Hampton Roads is a major logistics node for the U.S. 
Armed Forces, the Defense Logistics Agency and U.S. Transportation 
Command move a substantial amount of containerized cargo and military 
vehicles through the VPA Terminals to and from Europe and the Middle 
East every week.
    In addition to the three VPA marine terminals, The Port of Hampton 
Roads contains over eighty private port facilities covered by the 
Maritime Transportation Security Act (MTSA), including coal terminals, 
petrochemical terminals, commercial shipyards and a wide range of other 
facilities. The City of Norfolk has become a burgeoning cruise ship 
destination and has recently launched construction of a $40 million 
terminal that will greatly increase the number of cruise ships and 
passengers visiting Hampton Roads. The cruise ship business is growing 
rapidly. About 50,000 passengers visited Norfolk in 2003, around 
100,000 visited in 2004, and another 114,000 are expected in 2005. The 
number of passengers could increase to 200,000 or more after the new 
terminal is complete.
    Hampton Roads is not only a major commercial port, but also home to 
the largest concentration of U.S. Naval forces in the world. Two of 
VPA's marine terminals are located near major U.S. Navy facilities--NIT 
shares a fence line with Naval Station Norfolk, home to 5 aircraft 
carriers, 11 submarines and about 50 other naval vessels. PMT is 
adjacent to Norfolk Naval Shipyard and Norfolk Naval Hospital. The 
headquarters of the U.S. Atlantic Fleet, U.S. Joint Forces Command and 
NATO Allied Command Transformation are located across the street from 
NIT. NNMT is located near Northrop Grumman Newport News Shipbuilding, 
the only shipyard in the nation capable of building nuclear powered 
aircraft carriers. Northrop Grumman also overhauls aircraft carriers 
and other naval vessels. The Hampton Roads region is also home to eight 
other Navy bases, three Army bases, and a major Air Force base.
    Hampton Roads is also a major urban area. Its 16 cities and 
counties have a total population exceeding 1.574 million, making it the 
6th largest urban area in the nation.

      THE VIRGINIA PORT AUTHORITY'S EXPERIENCE WITH PORT SECURITY

    VPA's guiding principle for security is that a state port authority 
has a higher level of responsibility than a private port facility 
operator. That is VPA has a moral obligation to maintain high standards 
of security in order to protect the citizens of the Commonwealth of 
Virginia--and the American people in general--from the threat of 
terrorism. VPA must also be mindful of the importance of its 
contribution to the economy of the Commonwealth. We have a duty to 
foster commerce, trade and economic development in the Commonwealth of 
Virginia by promoting maritime commerce and freight shipment. This 
means that VPA must be competitive with other ports and strive to 
achieve the highest possible levels of productivity and efficiency. 
Thus, like every port authority, VPA is confronted with the challenge 
of reconciling its security responsibilities with its economic 
responsibilities.
    Port Security After September 11, 2001. VPA had an aggressive 
security program well before the September 11, 2001 terrorist attacks. 
The Port Authority Police, sworn law enforcement officers of the 
Commonwealth of Virginia, have been highly effective at preventing 
crime on VPA's three marine terminals. Indeed, VPA has not had an 
incident of cargo theft in well over eight years. This is mostly due to 
the fact that the Port Authority Police verify that U.S. Customs and 
Border Protection (CBP) have properly cleared all cargo departing the 
terminals by truck and released for delivery. Police verification 
provides typical cargo processing operations with an additional and 
independent layer of anti-theft protection.
    As Hampton Roads is home to the largest concentration of U.S. Naval 
forces in the world, VPA understood that its security efforts were 
integral to Navy and Coast Guard efforts to keep The Port secure. The 
Port of Virginia is a designated Strategic Port and therefore, is 
required to meet Federal security requirements related to mobilization 
and deployment of the U.S. Armed Forces and has had years of experience 
working with various Federal agencies on port security matters. 
Following the al-Qaeda attack on the USS Cole in October 2000, VPA 
worked closely with the U.S. Navy to ensure that our security measures 
and operations complemented and supported enhanced Navy force 
protection efforts. The result was a close working relationship with 
the Coast Guard Captain of The Port and the Navy's regional program 
managers for port operations and security.
    VPA redoubled its security efforts from September 11, 2001 onward. 
VPA coordinated with the local U.S. Coast Guard Captain of The Port to 
increase security procedures at its terminals immediately after the 
terrorist attacks. In addition, a comprehensive security assessment was 
immediately undertaken and completed by the end of the year. This 
security assessment was published in February 2002--nine months before 
the Maritime Transportation Security Act (MTSA) enacted legislation 
requiring such assessments. This assessment identified priority 
security enhancements for which VPA began requesting Port Security 
Grants when that program was established in 2002. This initial security 
assessment was refined in a second Facility Security Assessment 
conducted in 2003 based on MTSA requirements and the Coast Guard 
Maritime Facility Security Regulations (33 CFR, Chapter 1, Subchapter 
H, Part 105).
    For port authorities, fulfilling their responsibilities for 
homeland security is much more complicated than merely being in 
compliance with MTSA and the International Ship and Port Facility 
Security Code (ISPS). A number of other Federal and state policies, 
programs and guidelines related to homeland security and emergency 
preparedness impact them as well.
    VPA Participation in the Customs-Trade Partnership Against 
Terrorism. VPA is a certified participant in the Customs-Trade 
Partnership Against Terrorism (C-TPAT). VPA signed a Memorandum of 
Understanding with CBP on March 11, 2003 to participate in C-TPAT as a 
Port/Terminal Operator. The required Security Profile was submitted to 
CBP on April 8, 2003, and in April 2004, a CBP Validation Team met with 
the VPA Director of Police and surveyed NIT. Based on the findings of 
the Validation Team and documentation provided by VPA outlining 
security enhancements then in progress, CBP validated VPA compliance 
with C-TPAT security standards on July 1, 2004.
    Personnel Identification Programs. VPA anticipates that its 
security program will be impacted by and have to adapt to three 
emerging personnel identification programs: the Transportation Security 
Administration (TSA) Transportation Workers Identification Credential 
(TWIC), the CBP US-VISIT Program, and the International Labor 
Organization (ILO) revised Seafarers' Identity Documents Convention.
    The TWIC program entails the development of a secure, uniform 
credential for transportation workers, including longshoreman, truck 
drivers and all marine terminal personnel, potentially including all 
persons with access to cargo shipping data. TSA has not published a 
timeline for TWIC implementation, but the program will likely commence 
in 2005. The technology required by TWIC may include significant access 
control upgrades as well as the installation of 2-stage gates. These 
enhancements will require a major capital outlay commitment on the part 
of VPA, and may also negatively impact operating efficiency while 
upgrades are being made.
    The US-VISIT program uses biometrics--digital fingerprint scans and 
digital photographs--to check visitors entering the U.S. against a 
database of known criminals and suspected terrorists. In 2004, CBP 
began implementing US-VISIT entry procedures at 115 airports, 14 
seaports and the 50 busiest land ports in the nation. CBP has indicated 
that US-VISIT will be expanded to all air, land and maritime ports of 
entry as well. Although CBP is responsible for implementing US-VISIT, 
CBP will require support from Port Authority Police and modifications 
to VIT terminal operating procedures to ensure that crew and passengers 
aboard ships arriving at VPA terminals cannot circumvent CBP 
procedures.
    The ILO Seafarers' Identity Documents Convention significantly 
upgrades the identification documents that seafarers are required to 
carry and includes the use of biometric technology similar to that used 
by TWIC and the US-VISIT program. Although CBP has not explained how 
the new Seafarers' Identity Documents will relate to the US-VISIT 
program, VPA anticipates that its procedures for controlling the 
movements of ships' crewmembers on its terminals will be impacted by 
the manner in which CBP elects to use the Seafarers' Identity 
Documents.
    Emergency Preparedness Guidelines. VPA, and all port authorities, 
must also support state homeland security and emergency preparedness 
policies and guidelines, which are in turn driven by Federal policies 
and guidelines. VPA's emergency response plans and procedures must be 
compliant with the recently-published National Incident Management 
System (NIMS) and National Response Plan (NRP), and our training 
program must be consistent with the Homeland Security Exercise and 
Evaluation Program (HSEEP) published by the Office for Domestic 
Preparedness (ODP). Implementation of NIMS, NRP and HSEEP requires 
additional VPA funds. It is important to note that, for port 
authorities, implementation of these state security programs is 
separate from compliance with Federal programs such as MTSA and the 
Coast Guard security emergency response training and readiness 
requirements.
    VPA must also comply with rapidly changing Federal and state 
programs related to public safety and emergency preparedness 
communications interoperability. Federal initiatives, guided by Project 
SAFECOM, are being implemented in the Commonwealth of Virginia by the 
Office of Commonwealth Interoperability and the State Agency Radio 
System (STARS) project. The existing Port Authority Police 
communications and information systems predate these emerging Federal 
and state interoperability requirements and will require significant 
upgrades to ensure that VPA can coordinate effectively with Federal, 
state, and local agencies in Hampton Roads during a significant port or 
regional emergency.
    Federal Port Security Grants. The initial security assessment 
conducted in 2001 identified approximately $40 million in security 
enhancements for the VPA terminals. These recommendations were modified 
in the 2003 Facility Security Assessment to ensure that VPA security 
investments and requests for Port Security Grants would be focused on 
compliance with MTSA and the Coast Guard Maritime Facility Security 
Regulations.
    To date, VPA has received $11.4 million in Port Security Grants, as 
follows:

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    These funds have supported upgrades to fences and gates, 
installation of a closed circuit television perimeter surveillance 
system, enhanced access control for gates and critical buildings, 
command center enhancements, and other upgrades. In addition to funds 
received as Port Security Grants, VPA has contributed an additional $11 
million of its own funds to complete the required security 
enhancements.
    The $11.4 million in Port Security Grants received by VPA to date 
falls far short of what is needed. VPA has identified three high 
priority projects that are necessary to mitigate serious shortfalls in 
VPA's security posture. These three projects require at least an 
additional $12.5 million:

        <bullet>  Upgrades to Port Authority Police Communications 
        System. Upgrades are required to comply with Federal SAFECOM 
        interoperability standards. These standards are being 
        implemented in Virginia by the Office of Commonwealth 
        Interoperability and the STARS program, and are required for 
        completion of The Port's Integrated Security System. The 
        enhanced communications suite, which uses digital trunking 
        technology and dedicated frequencies, will ensure that the Port 
        Authority Police can effectively coordinate with Federal, state 
        and local law enforcement and emergency response agencies in 
        the event of an emergency. Total system cost is estimated at 
        $1.5 million.

        <bullet>  Command and Control Architecture. A system must be 
        developed which will integrate internal and external voice/
        data/video communications, police dispatch and radio systems 
        with the command center alert and display system. This 
        integrated system is required for compliance with MTSA and 
        Coast Guard Maritime Facility Security Regulations, emergency 
        response, real-time information exchange for maritime domain 
        awareness, mandatory implementation of the National Incident 
        management System (NIMS) and National Response Plan (NRP), 
        credentialing and implementation of the Transportation Worker 
        Identification Credential (TWIC) and US-VISIT Program, 
        compliance with the Customs-Trade Partnership Against Terrorism 
        (C-TPAT), and implementation of Federal and Commonwealth of 
        Virginia continuity of operations requirements. Total cost is 
        estimated at $10 million.

        <bullet>  Cyber Security.  VPA and VIT information technology 
        (IT) systems are vulnerable to a range of cyber threats that 
        could defeat terminal and cargo security efforts. The threat is 
        much more than just viruses and worms. Terrorists or other 
        criminals could use cyber attacks to forge shipping documents 
        to facilitate smuggling, circumvent CBP by releasing containers 
        designated for inspection, divert delivery of containers from 
        legitimate businesses to terrorist or criminal front companies, 
        identify container contents for theft or pilferage, forge 
        visitor passes or other identity documents to gain access to 
        terminals, or disrupt security systems and port facility 
        operations. VPA must implement a cyber security system that 
        will thwart such cyber threats while avoiding unnecessary 
        interference with business processes. Additionally, the system 
        must allow VPA to identify attempted cyber attacks for 
        reporting to CBP (to help detect smuggling) and other Federal 
        agencies. Total cost is estimated at $1 million for 2006, and 
        considerable additional funding required to maintain the 
        system's effectiveness in the future.

      THE VIRGINIA PORT AUTHORITY RADIOLOGICAL MONITORING PROGRAM

    Immediately after the September 11, 2001 terrorist attacks, VPA 
identified radiological and nuclear devices as a significant potential 
threat to its terminals, adjacent naval bases, The Port and the Hampton 
Roads region. VPA initiated planning for a radiological monitoring 
system and began meeting with radiation detection equipment vendors in 
November 2001 to identify appropriate systems for testing at the VPA 
terminals. The Department of Energy provided technical advice on 
radiological monitoring for VPA.
    VPA also consulted with the U.S. Navy at Naval Station Norfolk, 
which had extensive experience with radiological monitoring and 
response procedures, and which was the first defense installation 
assessed in the Sandia National Laboratory's study of ``unconventional 
nuclear threats'' to U.S. military bases. Sandia's assessment of 
terrorist options for carrying out a radiological or nuclear attack in 
Hampton Roads provided valuable insight for VPA's planning.
    Initial Goals, Research and Testing. VPA's initial goal was to 
protect The Port against radiological or nuclear attack. Placing 
radiation sensors at the entrance to the harbor was considered but 
quickly rejected because the technology available at the time would not 
provide reliable detection and the Port Authority Police lacked 
jurisdiction in the areas of the harbor where the sensors would be 
placed. The second alternative considered was a radiation monitoring 
system that would detect radiological or nuclear devices before they 
were offloaded from ships. This system included an initial test of 
radiation sensors placed on the spreader bars used to lift containers 
off vessels.
    Testing of radiation sensors on spreader bars commenced in January 
2002 and continued through June 2002. Those tests revealed that 
attempting to detect radiation in containers using sensors on the 
spreader bars of cranes was not feasible for three reasons:

        1.  Background radiation varied widely over land, water and 
        vessels, making it difficult to set the system's sensitivity 
        alarm threshold at a level that ensured reliable detection 
        while avoiding excessive false alarms. Additionally, when 
        radiation was detected, it was not possible to readily 
        determine if the radiation source was in the container to be 
        lifted or in an adjacent container.

        2.  None of the sensors tested proved capable of standing up to 
        the shock and vibration of container handling operations. 
        Excessive sensor failure rate made the cost of placing sensors 
        on spreader bars prohibitive.

        3.  The development protocols for responding to the detection 
        of radiation involved numerous operational issues that could 
        not be easily resolved at the port level. Thus, even if the 
        radiation monitoring equipment functioned properly, it was 
        extremely difficult for VPA to develop effective procedures for 
        dealing with detection of radiation in a container that was 
        still on a vessel, especially since the Port Authority Police 
        lacked jurisdiction over the vessel.

    By October 2002, the Port of Virginia received a $1 million Port 
Security Grant and had already invested approximately $660,000 of its 
own funds to test and install radiation detection equipment. Because it 
was VPA's goal to deploy an operational system rather than conduct a 
long-term research and testing program, the failure of the tests of 
radiation sensors on spreader bars led VPA to initiate an alternative 
approach that could be implemented near-term.
    Testing and Implementation of a Workable Solution. VPA determined 
that a viable alternative was to provide protection to the rest of the 
nation by monitoring containers for radiation before they departed the 
VPA terminals for shipment to their destinations around the country. A 
disadvantage of this approach was a lack of protection at the terminal 
itself. A container housing a radiological or nuclear device would 
arrive at a VPA terminal and not be detected until it passed through 
radiation monitoring equipment at terminal exits. However, it was 
determined that it was unlikely that terrorists would attack a 
container terminal with a radiological device. Given the enormous 
effort required to acquire the radioactive material, ship it to the 
United States undetected, and assemble a radiological dispersal device, 
such an attack probably would be reserved for higher priority targets 
guaranteed to cause a large number of casualties and psychological, 
economic and symbolic damage. The greatest risk was believed to be from 
inadvertent detonation of such a device at the terminal, or the 
terrorist group electing to ``use it rather than lose it'' upon 
learning that CBP had intercepted their attempt to smuggle it into the 
country. Hence, emphasis was placed on developing effective response 
protocols to these situations.
    In November 2002, VPA began testing a radiation detection portal at 
one of its exit gates. This test was successful and VPA decided to 
deploy truck portals at all three of its marine terminals.
    Concurrent with testing radiation detection equipment, in February 
2002 VPA began working with U.S. Customs and Border Protection, the 
Department of Energy's Radiological Assistance Program, the Federal 
Bureau of Investigation and the Maritime Administration to develop 
effective response protocols. These discussions developed answers to 
questions such as who VPA should notify when radiation was detected, 
what agencies would respond, and who was responsible for placing a 
radiological or nuclear device in a safe condition and removing it for 
proper disposal. These discussions were later expanded to include 
state, regional and local agencies that would be involved in a 
radiological emergency. This was pioneering work--at the time, there 
was no Federal program in existence such as that being implemented by 
VPA, and thus there were no existing response protocols that VPA could 
turn to for guidance.
    VPA's effort to develop response protocols culminated in CBP and 
VPA signing a Standard Operating Procedure (SOP) for response to 
detection of radiation--the first of its kind in any U.S. seaport. The 
SOP was developed with support from CBP's Laboratory Support Services 
(LSS) and the Department of Energy's Pacific Northwest National 
Laboratory. Initially developed only for the truck portals, the SOP was 
amended in November 2003 to include the rail portals as well.
    Training and Practice Exercises. VPA recognized early on that 
extensive training and frequent practice exercises would be essential 
for effective implementation of the radiation monitoring program. Port 
Authority Police were trained in the use of the radiation detection 
equipment and procedures for responding to detection of radiation. This 
training was required to meet CBP standards in order for the VPA 
radiation monitoring program to be certified by CBP and placed in 
operation. VPA held its first radiological emergency field exercise 
(FTX, also referred to as an ``operations-based'' exercise) on November 
19, 2003. It exercised Federal, state and local first responders in the 
Hampton Roads region in basic procedures for responding to the 
detonation of a radiological dispersal device in a shipping container 
on a VPA terminal. It was an invaluable exercise for identifying 
equipment, training, procedural and communications deficiencies that 
needed to be addressed by the participating agencies. However, it did 
not fully exercise the VPA-CBP radiological SOP.
    In December 2003, VPA pointed out the need for a follow-on exercise 
in a presentation on its radiological monitoring program to Federal 
officials from TSA and CBP, and state officials including the 
Governor's Assistant for Commonwealth Preparedness and his deputy. In 
January 2004, TSA proposed a tabletop exercise to familiarize Federal, 
state and local emergency management personnel and first responders 
with the VPA-CBP radiological SOP and to exercise the national response 
to detection of a radiological device in a seaport. Planning for this 
critically important exercise commenced in February 2004 but had to be 
suspended in June 2004 due to lack of funds.
    On March 1, 2005, VPA received an ODP State Homeland Security Grant 
from the Virginia Department of Emergency Management to conduct the 
long-delayed tabletop exercise (discussion-based exercise) later this 
year. It will be held in conjunction with the Radiation Pilot Program 
Office (RPPO) multi-port radiological exercise so that national 
radiological defense efforts benefit from the VPA exercise as well.
    The original plan for the VPA radiological exercise had envisioned 
a tabletop exercise in the Fall of 2004, followed by a major field 
exercise (operations-based exercise) in the Spring or Fall of 2005. The 
major field exercise will involve significant participation by Federal, 
state and local emergency management personnel and first responders. 
Because the tabletop exercise was postponed, the major field exercise 
has not been scheduled, but remains a high priority for the Hampton 
Roads region.
    Documented Success. The Port of Virginia has been successfully 
employing radiological monitoring equipment since December 2002 and has 
led the nation in radiological monitoring at seaports. The radiation 
detection equipment ensures that 100% of all import containers leaving 
the terminal by truck are monitored and any detection of radiation is 
resolved before the container leaves the VPA terminal. In 2004, the VPA 
truck portals detected radiation in containers and trucks on over 1,000 
occasions. All were resolved in cooperation with the CBP Port Director. 
VPA is currently in the final stages of testing and gaining CBP 
certification for a rail portal that will monitor containers departing 
NIT by train. In cooperation with CBP, the Port Authority Police has 
deployed radiation detection equipment to National Special Security 
Events such as the 2004 Republican National Convention and the 2005 
Presidential Inauguration.
    There is no Federal policy or regulation requiring any marine 
terminal operator to conduct radiation monitoring. VPA's current 
program was self-initiated well before there was a national program and 
no other port in the nation has done likewise. CBP is responsible for 
monitoring inbound cargo for radiation, and has a multi-year program to 
deploy radiation monitoring equipment at all land, sea and air ports of 
entry. Currently, VPA remains the only seaport in the country 
performing radiation monitoring on cargo entering the nation's 
interior.

      LESSONS LEARNED FROM THE VIRGINIA PORT AUTHORITY EXPERIENCE

    The Port of Virginia has enjoyed a long-standing, productive 
relationship with the Federal agencies on the front lines of port 
security--the Coast Guard and CBP. Both agencies are represented by 
outstanding, dedicated leaders in Hampton Roads--leaders who make a 
concerted effort to understand port and shipping industry concerns and 
constraints. This spirit of partnership and cooperation is vital for 
the success of the nation's port and cargo security efforts. CBP's C-
TPAT program and the Coast Guard's Area Maritime Security Committees 
are prime examples of partnerships that work.
    Inter-Agency Cooperation. Both CBP and the Coast Guard have 
recognized that measures to enhance port and cargo security must 
facilitate commerce, not hinder it. Unreasonably impeding the flow of 
cargo or increasing the cost of moving it through America's ports would 
cause unacceptable losses for America's factories and retailers in an 
era of just-in-time delivery. The thousands of containers entering the 
United States every day have replaced the warehouses of yesteryear. In 
fact, the stream of containers across the world's oceans could be 
viewed as warehouses in motion. Security measures that impede their 
flow or raise shipping costs would quickly destroy the spirit of 
partnership and replace it with an adversarial relationship detrimental 
to both sides. Rather than support CBP and the Coast Guard, the port 
and shipping industries would be forced by economic pressure into a 
minimal compliance posture that could potentially make it much easier 
for terrorists to circumvent port and cargo security efforts.
    CBP and the Coast Guard face additional challenges as well. 
Although both have received significant increases in funding and 
personnel since the September 11, 2001 terrorist attacks, they are 
still stretched thin and coping with significant equipment challenges. 
For example, the Coast Guard does not have the proper equipment to 
board and inspect vessels in all weather conditions, day or night. The 
result is that vessels must wait for conditions to improve before the 
Coast Guard can conduct its inspections. This delays vessel arrivals, 
disrupts the flow of cargo, and causes backlogs of ships awaiting 
berths at terminals. Like most ports, VPA relies on the Coast Guard for 
waterside security and it is essential that the Coast Guard be properly 
equipped to carry out that mission.
    CBP also faces personnel and equipment challenges. One such 
challenge that has negatively impacted VPA is that CBP is forced to 
rotate its limited number of VACIS(r) cargo inspection systems among 
multiple ports and facilities. Although VACIS(r) is vehicle-mounted, it 
is not easily and quickly moved, causing cargo to back up on marine 
terminals awaiting the VACIS(r) machine for inspection of flagged 
containers. This delay not only threatens to degrade CBP cargo security 
efforts, but also negatively impacts ports, which must cope with the 
resulting congestion. A suspect container that must wait for days to be 
inspected is a latent threat to homeland security, which could 
potentially escape CBP's notice. The solution is to ensure that CBP has 
the resources it needs to conduct inspections in a timely manner 
without impeding the flow of cargo through America's ports. Congress 
must consider earmarking part of CBP's budget to ensure that adequate 
resources are dedicated to guaranteeing the security of the nation's 
seaports.
    Port Security Funding Issues. With regard to the security of 
maritime facilities, the most obvious and important lesson that VPA can 
offer is that effective port security does not come cheaply. MTSA 
created a mandate for port authorities and port facility operators to 
implement extraordinary security measures. The Coast Guard Maritime 
Facility Security Regulations require stringent security measures for 
port facilities, with emphasis on perimeter security and surveillance, 
credentials and access control, and training and exercises. 
Implementing these security measures and meeting these mandates 
requires a significant financial commitment. In addition, failure to 
meet MTSA and Coast Guard standards can result in considerable fines or 
a ban on vessels calling on a non-compliant facility.
    MTSA-mandated security measures are far beyond what the port 
industry would need to implement for the security of their own 
facilities based on a risk management approach. Clearly, the intent of 
MTSA is to protect the nation from terrorist attacks--both attacks 
facilitated by smuggling weapons of mass destruction through seaports 
and attacks intended to cripple the American economy by forcing large-
scale closure of seaports. In short, the port industry has been 
mandated by Federal law to protect the nation against terrorist 
attacks.
    Although Federal law placed significant responsibility for homeland 
security on the shoulders of the port industry, the Federal government 
has not provided the funding stream commensurate with the financial 
burden the port industry must bear to implement MTSA. VPA, like the 
rest of the port industry, has shouldered the financial burden to 
comply with the Federal mandate; however, this results in negative 
impacts for both the economy and the security of the United States.
    The MTSA mandate and the financial burden it places on the port 
industry is unique in all of U.S. homeland security. The aviation and 
ground transportation industries have not been required to meet similar 
mandates. The safety of commercial aviation has been Federalized--the 
burden taken off the aviation industry--and over $11 billion spent for 
airline passenger screening and security. Unlike America's seaports, an 
international airport does not have to shoulder the financial burden of 
Federally-mandated security standards. Similarly, CBP bears full 
responsibility at land ports of entry for keeping terrorists and their 
weapons out of the United States. Private transportation operators--
trucking and rail companies--have not been forced to bear this cost. 
For example, the Ambassador Bridge connecting Detroit Michigan with 
Windsor, Ontario is a major land port of entry and a critical link in 
the supply chain for the cluster of automobile factories around 
Detroit. Yet neither the auto industry nor the trucking industry has 
been saddled with the cost of providing security for this port of 
entry. Only the maritime port industry has been compelled, under threat 
of fines and Coast Guard sanctions, to bear the high cost of protecting 
the nation against terrorists.
    This is not good for the port industry, the American economy or 
homeland security. The port industry is doing the best it can with the 
resources it has, but much more remains to be done and it simply cannot 
be accomplished in a timely manner unless the Federal government is 
willing to fund a greater portion of the port security financial 
burden. The American Association of Port Authorities has recommended 
that funding for the Port Security Grant Program be increased to $400 
million per year. VPA wholeheartedly supports this position. Security 
funding must be earmarked from the over $25 billion collected in 
customs revenues from duties and importation fees each year. These fees 
come largely from our nation's seaport operations. In Virginia alone, 
it is estimated that over one-half billion dollars in customs revenues 
were collected in 2004.
    If the Federal government is not willing to pay for the level of 
security that it has mandated for the nation's ports, then it should 
rethink the security requirements imposed under that mandate. The 
current approach sets blanket standards and requirements for all port 
facilities, regardless of size, type, likelihood of being attacked or 
potential consequences of an attack. For example, a container terminal 
and a pier for loading or unloading cement must both implement the same 
measures as a liquefied natural gas (LNG) terminal. This blanket 
approach can only be justified by asserting that each and every port 
facility is equally likely to be attacked by terrorists and would 
generate the same consequences in terms of loss of life and loss to the 
American economy. The result of the blanket approach is that efforts 
are being made and costs are being incurred which contribute very 
little to homeland security.
    There is an alternative approach that would enhance homeland 
security at much less cost than the current approach. Congress should 
direct the Department of Homeland Security (DHS) and the Coast Guard, 
by amending MTSA if necessary, to adopt a focused approach to port 
facility security. Under this approach, port facilities would be 
differentiated based on size, type, likelihood of being attacked and 
potential consequences of an attack, and the security standards they 
must meet would be tailored to their status based on these factors. 
Smaller facilities (those less likely to be attacked and those that 
would not result in catastrophic loss if attacked) would have less 
stringent--and less costly--security requirements. For container 
terminals, the emphasis would be on security measures that prevent 
smugglers from being able to circumvent CBP efforts to keep terrorist 
weapons out of the country. Port facilities that handle large 
quantities of explosive or hazardous materials, such as LNG, petroleum 
and chemical terminals, would focus on measures to prevent terrorists 
from gaining access to the terminals in order to cause catastrophic 
damage to storage and piping systems.
    By permitting limited Federal funding to be focused on specific 
measures that will do the most to improve port security and relieve the 
port industry of having to implement--at great cost--measures that 
accomplish very little, this focused approach would achieve a greater 
level of homeland security at much less cost than the current approach.
    Funding Sources for Security Operating Expenses.  A second serious 
funding issue is that Port Security Grants can only be used to fund the 
procurement and installation costs of new security equipment and 
systems. Port Security Grants cannot be used to cover the increased 
cost of personnel, operations, maintenance and training resulting from 
compliance with MTSA and Coast Guard regulations. These costs must be 
borne solely by port authorities and port facility operators.
    VPA's security program costs $6 million per year, which includes 
almost $1 million in overtime for the Port Authority Police--a cost 
difficult to avoid given the manpower-intensive security procedures 
mandated by the Coast Guard regulations. Prior to the MTSA mandate, VPA 
spent well under $4 million per year and enjoyed a decade without an 
incident of cargo theft on any of its terminals. This clearly 
illustrates the difference in cost between a security program designed 
to meet a port's crime prevention requirements, and a homeland security 
program designed to protect the security of the American people.
    VPA is developing a long-range security budget that seeks to 
sustain compliance with MTSA and Coast Guard requirements in a cost-
effective manner. VPA is also making an effort to meet MTSA exercise 
requirements at the least cost, such as by participation in Federal 
exercises and seeking State Homeland Security Grant Program funds for 
exercises that contribute to Commonwealth emergency preparedness as 
well as meeting MTSA requirements. However, despite these efforts to 
carefully manage security costs, VPA will still face increased costs 
for meeting Federally-mandated security requirements over the long 
term.
    Currently, the only Federal support for annual operating expenses 
is compensation for overtime incurred when DHS sets Homeland Security 
alert Level Orange or higher; however, this compensation is not 
sufficient. Compliance with MTSA has significantly increased annual 
operating expenses, including maintenance of the high technology 
security systems required for effective compliance with MTSA, training 
and exercise expenses, and all the personnel and other operating 
expenses incurred by ports for security.
    Congress should work with DHS to amend the Port Security Grant 
Program to permit a portion of those funds to be applied to annual 
operating expenses for security. This is particularly important for 
port authorities like VPA, which are public agencies. Most port 
authorities, including VPA, require funding from tax revenues to 
supplement income from port revenues. This means that the added cost of 
MTSA requirements is a tax burden on states hosting ports--which are 
hard pressed to meet those costs--even though the enhanced security 
benefits all states.
    A formula could easily be developed that permits port authorities 
to apply for grants to cover a portion of their annual operating 
expenses for security, based on the security enhancements they have 
been required to make in order to comply with MTSA.
    In the near term, funds for capital investments in enhanced 
security equipment and systems should not be reduced to provide funds 
for annual security operating expenses: the vulnerabilities that must 
be corrected are too great. The best solution would be to determine the 
funds that port authorities need to help defray the annual cost of MTSA 
compliance and increase funds appropriated for the Port Security Grant 
Program. Over time, as capital investments in enhanced security systems 
and equipment begin to meet requirements, a larger portion of Port 
Security Grant Funds can be shifted to cover annual operating expenses 
for security.
    Distribution of Security Grant Funds. The third major Port Security 
Grant Program issue arises from the manner in which available funds are 
distributed. As described above, VPA has only received about a third of 
the funds it needs to implement the security upgrades required for 
effective MTSA compliance. As a result, VPA has been forced to spend 
more of its own funds on port security than it has received from the 
Federal government. This is harmful for The Port of Virginia and the 
economy of the Commonwealth of Virginia. VPA has been required to 
divert funds to port security, which would otherwise have been invested 
in port development--bringing additional business to the port and 
increased employment in Hampton Roads and throughout Virginia.
    The DHS Inspector General recently released a report that addresses 
the types of projects in other ports for which Port Security Grants 
have been provided. While not wishing to critique these projects, VPA 
is without question one of the Strategic Ports that has suffered from a 
lack of port security grant funds, or stated differently, a lack of 
Federal appropriations for our nation's security.
    Consolidation of the Port Security Grant Program into the much 
larger Targeted Infrastructure Protection (TIP) Grant Program as 
proposed by DHS in its Fiscal Year 2006 budget request will not 
alleviate any of these problems. If anything, the TIP Grant Program 
will make it more difficult to receive grant funds because ports will 
be competing will all forms of ground transportation--rail, trucking 
and mass transit--as well as with other critical infrastructures such 
as the energy industry and chemical plants. Additionally, if DHS 
distributes TIP grant funds via the states, there is little likelihood 
that the formula used to allocate grants among the states will reflect 
port security requirements. This scenario would serve only to shift the 
competition for grant funds from the Federal to the state level, 
forcing port authorities and other port facility operators to compete 
with state agencies and local governments seeking TIP grant funds as a 
means of compensating for the overall 37% reduction in homeland 
security grants proposed by DHS in Fiscal Year 2006.
    Radiological Monitoring. VPA has been conscientiously sharing its 
lessons with Federal agencies and other ports. VPA submitted a report 
to TSA in March 2003 covering the outcome of its extensive testing of 
radiation sensors and the operational issues identified during those 
tests. That report was followed by several briefings to various Federal 
and state officials in 2003 and 2004. The DHS RPPO was briefed on the 
VPA radiation monitoring program, response protocols and lessons 
learned in May 2004, providing RPPO with valuable insight for their two 
pilot programs in New York and Charleston. RPPO members and other 
Federal officials have visited NIT to inspect VPA radiation monitoring 
equipment.
    Three lessons learned by VPA during its three and one-half years of 
testing and operational experience with radiological monitoring are 
particularly important. First, radiation monitoring is particularly 
difficult in the port and maritime environment. Despite the claims of 
suppliers, radiation equipment does not perform well in harsh 
environments when background radiation is highly variable, when 
radiological and nuclear devices must be distinguished from the 
numerous legitimate sources of radiation encountered every day, and 
when the manner in which cargo is shipped today--in sealed containers 
carried in large numbers on large vessels--offers ample opportunity for 
terrorists to shield and mask a radioactive shipment. Careful research 
and testing is required to make sure the right radiation detection 
equipment is procured and that it is deployed and employed properly. 
Even the best equipment will fail if not placed in the right location 
or if not used properly for its intended purpose.
    Second, effective protocols for responding to detection of 
radiation are critically important but difficult to develop. Response 
procedures are complex, involving a large number of Federal, state and 
local agencies. Additionally, the procedures for responding to 
detection of radiation in a shipping container are much different from 
other radiological emergencies because authorities have time to plan 
and execute precautionary measures in case efforts to disarm the 
radiological device fail and it detonates. For example, state and local 
authorities must decide whether a precautionary evacuation of residents 
near the terminal is warranted.
    Third, radiological emergency exercises are crucial for protecting 
America's ports and port communities. If national strategy is to make 
every effort to halt terrorist radiological or nuclear devices in 
America's ports, then those ports should be given high priority in 
national exercise plans. For Hampton Roads, the VPA radiological 
monitoring program potentially increases risk to the Port's local 
communities. Port communities are literally on the front lines in the 
effort to protect America's heartland against the threat of 
radiological and nuclear terrorism. These communities must be ready for 
that threat, which can only be achieved through demanding training and 
exercises.
    All of these lessons are applicable to every U.S. land, air and sea 
port of entry in which CBP will be monitoring inbound containers and 
cargo for radiological and nuclear devices. They also shed light on the 
challenges that DHS will face as it establishes the newly created 
Domestic Nuclear Detection Office to better coordinate the national 
effort to protect America against radiological and nuclear devices.

                               CONCLUSION

    Security is clearly one of the most important issues facing U.S. 
ports now and in the future. Striking the right balance between the 
pursuit of commercial interests and the need to ensure the public's 
safety presents an enormous challenge to all stakeholders in the 
maritime industry--from citizens to businesses, shippers, railroads, 
truck lines, and ultimately to ports.
    We believe that The Port of Virginia is among the ports that lead 
the nation in facilitating safe trade, but we are also aware that 
future ongoing security programs and needs will become a financial 
burden and will compete with expansion and development expenditures 
that are crucial to keeping commerce moving through the Port.
    Security costs will certainly continue to rise, and it is critical 
that we work toward a common framework to address the issue of 
security-related expenses and ensure that security does not become a 
competitive issue between ports. The ship lines argue, and rightfully 
so, that charging them for security is unfair because the cost should 
be shared by cargo owners, truckers, rail carriers, stevedores and 
others who use ports. If you extend that logic, you see that the entire 
nation benefits from ports, even people who live thousands of miles 
away from the coast.
    Federal Port Security Grants have certainly helped to improve port 
security, and we feel that additional funding in the future is 
appropriate and essential. Nonetheless, the fact is that Federal 
security grants will never cover all security costs incurred by ports, 
and until this issue is resolved, ports will continue to be put in an 
untenable position.
    The Virginia Port Authority's experience with port security and 
radiation monitoring offers important lessons for enhancing U.S. 
homeland security. Much progress has been made enhancing the security 
of America's ports since September 11, 2001, but much more remains to 
be done. Now is not the time for complacency. As the leaders of the 
U.S. intelligence community testified before Congress last month, the 
terrorist threat to America is growing and it is not a matter of if, 
but when, they attempt to attack our nation with weapons of mass 
effect. America's ports are on the front line of the efforts to protect 
the United States against that threat. They take their responsibility 
seriously and are dedicated to doing the best they can to protect 
America. They have earned your support. I urge you not to let them 
down.
    Thank you for the opportunity to testify before you today. I will 
be happy to answer any questions you may have.

    Mr. Coble. We've been joined by the distinguished gentleman 
from Texas, Mr. Gohmert, and since only Mr. Scott, Mr. Gohmert, 
and I are here, we can probably have a second round, but we're 
going to have to go vote first. I think I'm going to go ahead 
and ask my questions now. I think I can get my 5 minutes in 
before I go over there. I want to see how many votes there are 
going to be. I assume there's only one--one vote. So let me ask 
my questions, we'll come back, and I'll recognize Mr. Scott at 
that point.
    Mr. Ahern, what resources and capabilities have been added 
by Customs and Border in order to reduce the vulnerability of 
ports and port facilities?
    Mr. Ahern. What we continue to build upon is our layered 
strategy. As we look at increasing the security supply chain, 
we now have over 8,800 companies involved with C-TPAT and it's 
our determination that we need to get as deep as we possibly 
can in the supply chain, do verifications and validations in 
those environments. So that's part of the strengthening 
mechanism we're building upon our current program with Customs-
Trade Partnership Against Terrorism. So we're building upon the 
existing layers that we have.
    We're also looking at expanding beyond the current 34 ports 
that we have for the Container Security Initiative. As we take 
a look at--you know, we certainly rolled out initially to the 
top 20 megaports, making sure that we had over two-thirds of 
the Sea containers in those 20 ports. We then went to strategic 
locations and also locations where countries had the political 
will and the abilities to engage with us and support us in this 
binational program for container security.
    As we look beyond the 34 ports, we now are down to the 
point where every one of the ports that remain that we would be 
targeting to deploy our resources is 1 percent--less than 1 
percent of the universe of containers that come in from those 
locations. So we're now picking very specific and strategic 
locations based on threat and based on intelligence as we 
deploy there.
    The other thing we're looking at now tagging as a part of 
this is global standards. Commisssioner Bonner, through the 
World Customs Organization, is challenging 164 members of the 
WCO to globalize the standards. We believe very strongly there 
should be one set of data elements required from carriers and 
from individuals involved with transmitting information to the 
Government agencies that would then have the ability to analyze 
that through a national targeting-type centralized targeting 
center, use expert-type rules as we build through the automated 
targeting system, and then make good risk-based determinations. 
We also believe countries involved with this should also have a 
similar supply chain type of security program, as well, to 
complement that.
    Mr. Coble. Mr. Ahern, are crew members of cargo vessels 
vetted against terrorist watch lists?
    Mr. Ahern. We do have a program that we're actually working 
collaboratively with the Coast Guard where we're getting 
information in advance, electronically conveyed. I'm sure Rear 
Admiral Hereth would like to talk about the 96-hour rule and 
how we're getting it through the ENOA process.
    Mr. Coble. All right. Why don't you pick up on that, 
Admiral.
    Admiral Hereth. Yes, sir. All the crew members for every 
foreign vessel that comes to the United States are vetted 
through the system against the databases prior to entry. As you 
know, there's a 96-hour notice of arrival requirement now on 
the books for all vessels coming to the United States greater 
than 300 gross tons, all the large vessels. We vet all those 
crew members and take action. That information is passed to the 
local Coast Guard field unit for action as the vessel 
approaches the United States.
    Mr. Coble. I'll tell you, let's suspend right now. I've got 
a couple minutes left to go. We will return imminently, so you 
all rest easy in the meanwhile.
    [Recess.]
    Mr. Coble. Okay, Admiral, you pick up where you were. We'll 
resume now. Or do you remember where you were?
    Admiral Hereth. Yes, sir. I believe the question was on 
notice of arrival, and----
    Mr. Coble. Right.
    Admiral Hereth.--we do receive vessel, cargo, and crew 
information 96 hours in advance, and all that information is 
vetted through a variety of systems and databases to look for 
anomalies. We work in conjunction with CBP, looking for any 
potential problems and then act on those problems at the local 
field operations level.
    Mr. Coble. Okay. Mr. Scrobe, by adding cargo crime to the 
Uniform Crime Reporting, how will that address this issue?
    Mr. Scrobe. First of all, I think there would be much more 
accuracy and allow for better information and deployment of 
resources, there's no doubt about it. It would also give us a 
true number and be able to point out anomalies, like I said 
before, about where there may be terrorist activities involved.
    Mr. Coble. Mr. Keever, what areas do you see a need for 
improvement in strengthening the cooperative efforts among the 
Federal Government, local port authorities, and the private 
sector?
    Mr. Keever. Mr. Chairman, I think what would strengthen 
that would be a steady Federal funding stream to ensure 
adequate funding for our nation's security at seaports.
    Mr. Coble. Let's see. My two colleagues are not here, so 
let me add one. I still have a little time left.
    Admiral, let me come back to you. Since 2001, the Coast 
Guard has been a member of the intelligence community. 
Describe, if you will, how this membership has directly or 
indirectly supported the Coast Guard's port security efforts.
    Admiral Hereth. Yes, sir, I'll be glad to. Let me just add 
one thing to what Mr. Keever said, if you would, Mr. Chairman.
    Mr. Coble. Okay.
    Admiral Hereth. I'd like to just say that the relationships 
between the Federal agencies, State and local and private 
sector are key to preventing an incident on the waterfront and 
to ensure that there's good collaboration occurring on all the 
port authorities. We've established these Area Maritime 
Security Committees around the country. Presently, there's 43, 
one in each major port area around the country, and we think 
that's a powerful way in which to draw the stakeholders 
together to talk about security in their back yard and address 
vulnerabilities and address potential threats as they're 
changing.
    Now let me jump over to your question, sir. The 
intelligence community membership of the Coast Guard is an 
absolute key in our mind. It feeds direct operational, 
actionable information directly to our field operatives 
throughout the country so they can act on it and queue up 
resources in a way that allows us to deal with our limitations, 
but allows us to focus on the highest-risk targets, and those 
targets are constantly changing depending on the safety, 
environmental protection, and security challenges that face us.
    And so it's really important that we have a good intel arm 
of the Coast Guard constantly focused on gathering information, 
staying connected to the intel community and all the members, 
and leaning on that direct access to information that we can 
then pump immediately out to our field operational commanders.
    Mr. Coble. I thank you, Admiral. My time has expired.
    I recognize the gentleman from Virginia.
    Mr. Scott. Thank you, Mr. Chairman. I'd like to ask all of 
our witnesses----
    Mr. Coble. Mr. Scott, if you'll suspend just a moment, I'm 
told that there will be another vote in about 30 minutes, so I 
think, if Bobby and Louie and I are the only three here, we may 
do another round. Go ahead, Mr. Scott.
    Mr. Scott. Thank you. I'd ask all of our witnesses whether 
or not all of the ports--obviously, all of the ports don't have 
the same level of risk--whether or not the present formula 
allocates the funding for port security grants in an 
intelligent way.
    Mr. Ahern. If you'd like, I'd begin first. I would first 
state that within Customs and Border Protection, we don't have 
any grant authority that we actually deal with State and local 
governments or port authorities for granting money.
    But in answer to your question about the risk presented at 
different ports, I would tell you that certainly, we take a 
look at risk from a national perspective, and it's not 
necessarily the ports of arrival here in the United States, we 
believe, as far as--it's the origin of that supply chain and 
the beginning of that transit of cargo or seaborne containers 
coming into the United States. So we believe strongly that a 
lot of the emphasis should continue to be placed at the point 
of stuffing, at the point of lading in the overseas, and I 
believe it still needs to be complemented by a very strong port 
security structure here in the United States, as well, to make 
sure that we have good safe and secure environments when an 
offloading occurs of a container cargo vessel coming into this 
country.
    Mr. Scott. Does anybody else want to comment?
    Admiral Hereth. Yes, sir. I would just have to agree with 
you that we think that risk is the right dimension to focus on. 
Risk has a lot of variables, though, and all dimensions of risk 
need to be considered, not only the threat to a piece of 
infrastructure, but also the consequences of the loss of that 
infrastructure or the loss of that system, and so throughout 
the process, in our support to TSA that had original grant 
authority for port security grants and now our Office of 
Domestic Preparedness, we have supported that initiative, 
supported those initiatives, and supported the concept of risk-
based approach to grants. Let me just stop there.
    Mr. Scott. Mr. Scrobe?
    Mr. Scrobe. Quite honestly, Mr. Scott, we don't really deal 
with grants or issues on this, so----
    Mr. Keever. Congressman Scott, we have been the recipient 
of four grants and the process has served the Port of Virginia 
well. The concern we have is that the existing, or the next 
round of grants has been delayed, and, of course, that delays 
us being able to implement the next phase of security, or level 
of security that we'd like to implement in Virginia. So the 
grant process has served us well thus far.
    Mr. Scott. Mr. Keever, the seaports are pretty much left to 
their own device on security whereas airports and water patrol 
and borders get substantial underwriting from the Federal 
Government. Should ports have much more of the cost of security 
borne by the Federal Government?
    Mr. Keever. Congressman, as I indicated, we have spent 
$22.4 million on security in Virginia. Half of that has been of 
our own money, the other half from grants. It appears that this 
is being handled somewhat differently than aviation and border 
crossings, and to have a steady funding stream from the Federal 
Government to provide for the adequate security at seaports, we 
think would be essential to ensuring the security of our 
nations. The burden has been placed squarely on the shoulders 
of the maritime security.
    Mr. Scott. Well, and the port security grants can be used 
for procurement and installation purchases. Can you use it for 
personnel?
    Mr. Keever. Unfortunately, it's only for the procurement of 
capital expenditures, and in Virginia, our cost of security has 
risen from $4 million annually pre-9/11 to over $6 million 
post-9/11, and those costs will continue to rise. It's very 
manpower-intensive, labor-intensive to continue to monitor 
these security levels that have been put in place, and that 
would be helpful if the grants could be modified to provide for 
the O&M costs of security.
    Mr. Scott. So after you buy new equipment, you're pretty 
much on your own for the personnel, for the ongoing costs?
    Mr. Keever. Absolutely.
    Mr. Scott. Mr. Chairman, if we're going to have another 
round, I'd just defer now.
    Mr. Coble. We've been joined by the distinguished gentleman 
from California, Mr. Lungren. You are recognized for 5 minutes.
    Mr. Lungren. Thank you very much, Mr. Chairman. I'm sorry I 
was late. We were at a briefing on the Homeland Security 
Committee about homeland security, and so now I'm here.
    The panelists may not know it, but I used to represent two 
ports of Long Beach and Los Angeles, where I grew up. I've been 
gone for 16 years. I'm 400 miles away now, so I don't have 
those ports, but I still have an interest in those ports.
    What strikes me as we go to all these homeland security 
briefings and meetings and exercises is we can't--we don't have 
enough money to do everything that we would like to do. And 
I've said before, when you try and do everything, you end up 
not doing anything very well. The ports seem to be a major 
concern that we have, I think rightly so. But now we come down 
to the question of paying for it.
    Mr. Keever, what's wrong with the concept some have brought 
up that we sort of use a user fee, a per-container cost that 
would go directly into that security cost?
    Mr. Keever. A uniform user fee across the board that could 
be applied at all ports would certainly be a concept that could 
be helpful in a Federal funding stream. One concern that we 
have is that not all cargo moving in and out of this country 
moves in containers. There are break-bulk and bulk and tanker 
vessels that carry, a variety of cargo that would have to be 
considered where some sort of a user fee would have to be 
applied uniformly without economically disadvantaging that type 
of commodity moving through the U.S.
    Mr. Lungren. Mr. Ahern, are you allowed to venture an 
opinion on that?
    Mr. Ahern. I would say it's probably safer for me not to 
comment on user fees and the---- [Laughter.]
    Mr. Lungren. See, here's the problem. We've got a tough 
budget. We've got this. No one wants to give up what they 
already have. Everybody can point to the inadequacies we have 
in Border Patrol, what we are doing on the ports and so forth, 
and I'm trying to figure out, if we're really serious about 
this, how we go about paying for it because it's going to cost 
money.
    Admiral, if you might respond to this question, what do we 
say to the average citizen about port security? I mean, I can't 
honestly tell anybody that even if we spent the entire Federal 
budget, we could ensure absolutely that we would have total 
security in our ports. The only way we could have total 
security in our ports is to get rid of the commerce, which sort 
of defeats the purpose but allows the terrorists to win by 
indirection what they can't win by direction. We rely on the 
commerce that goes through our ports. We're proud of it. The 
whole idea about ``just in time'' in our economy is predicated 
on the assumption that our ports are going to be open, working, 
and available to people.
    So short of closing them down, I can't guarantee 100 
percent. But what can we say? What can we--what could you tell 
me to say to some folks at my next town hall meeting when they 
ask me about the threat that is, the threat that remains to the 
United States with respect to our ports and what we are capable 
of doing in terms of applying some modicum of security to our 
ports?
    Admiral Hereth. Yes, sir. I would pick up on your theme 
of--first of all, I think we deserve to be proud of a 
transportation system that provides such a huge benefit to the 
quality of life and our economic system of the United States, 
and then reflect on the fact that port security is something 
that we have to collaborate on. It's not one organization, one 
agency, one company that's going to solve all the problems and 
prevent an incident from occurring. And if we recognize the 
value of the system to the United States and emphasize that 
it's everybody's responsibility and that we have to collaborate 
on it, then I think we can explain the systems that are in 
place to do that.
    We have put--an immense change has been laid out there and 
industry has responded very well past this first year law, this 
big implementation period of MTSA throughout the country. And 
actually, the international code now is implemented throughout 
the world. To put those new standards into place at port 
facilities on our vessels throughout the United States and 
throughout the world is a significant state of progress.
    Couple that with the intense developments on the 
intelligence system looking for prevention of problems, looking 
at changing threat streams so that we can respond and hopefully 
deter an act of terrorism before it occurs.
    And then thirdly, I think part of the implementation of 
those systems, one of our threads of important must-haves was 
to develop a culture of security. So we now have security 
officers on vessels, in companies, and on facilities around the 
country. That's a whole network of eyes and ears out there of 
people that should be able to inform the intelligence system 
and the agencies about potential problems, and we get constant 
threat streams about pre-incident surveillance kinds of 
activities and other things that might be a concern that are 
brought into the system that we need to then be able to connect 
the dots and act and feed information out to those that own the 
infrastructure so we can better protect it.
    So I think the good news is that we've done--we've taken a 
number of steps forward. We have a lot of people now that are 
charged with security responsibilities around the country. And 
if we work together as system, companies, organizations, and 
agencies, I think we'll have a good chance of preventing an 
incident in the maritime mode of transportation, and then 
underscoring how important that is.
    Mr. Lungren. Thank you.
    Mr. Coble. I thank the gentleman.
    I think we have time for a second round. Gentlemen, 2 days 
after 9/11--I may have told Mr. Scott this--a reporter asked me 
what my greatest fear was regarding a subsequent attack, and 
I'm sort of extending Mr. Lungren's comment. I said my greatest 
fear is that I fear that the next attack will be by water, 
harbor or port, and you four gentlemen are in a position, and 
hopefully we in the Congress are in a position to make efforts 
to make that less likely, but they're vulnerable by their very 
nature.
    Mr. Scrobe, what voluntary steps has your industry 
undertaken to improve cargo security? I don't think we've 
touched on that yet.
    Mr. Scrobe. Well, I think, Mr. Chairman, is that most 
importers and exporters, from the insurance perspective, and 
when we look at our importers and exporters, the first thing we 
ask them, are you C-TPAT compliant, which means that they have 
a working knowledge of what their system supply chain is all 
about. And I think most of the members within the ICSC do have 
that, and I think that was a major step moving forward. It 
gives more eyes to see what was going on at the borders and 
outside our country, which I think is the first step, like 
these gentlemen have mentioned before.
    Mr. Coble. Admiral, you've touched on this, but I'm going 
to give you a chance to do it more fully if you want to. 
Understanding that the Coast Guard has law enforcement 
responsibilities, what is its law enforcement role in 
protecting United States ports?
    Admiral Hereth. Yes, sir. We see the Coast Guard as the 
nation's major maritime law enforcement agency, operating both 
all around the country and instituting protective measures on 
the waterfront throughout the maritime mode of transportation.
    We have significant statutory authority in title 14 of the 
U.S. Code that gives us law enforcement authority. That's also 
recognized in a number of statutes, the Magnussen Act, the 
Ports and Waterways Safety Act that has now a security element 
to it, and, of course, the Maritime Transportation and Security 
Act of 2002. So, yes, sir, we see ourselves as a law 
enforcement agency. We train people to those skills and we're 
out there every day.
    Mr. Coble. Thank you, sir.
    The gentleman from Virginia?
    Mr. Scott. Thank you. Admiral Hereth, you mentioned the 96-
hour rule where the crew has to--you get the list of the crew. 
How do you know the names on the list are actually the names of 
the people on the ship?
    Admiral Hereth. We check them out, sir. Part of our----
    Mr. Scott. What do you mean? You check what out?
    Admiral Hereth. When we receive the names, we--they're 
required to provide the name and passport number. All that 
information is vetted through against databases that we use in 
collaboration with a number of different agencies, law 
enforcement agencies and others, and then we have boarding 
teams that actually go on board those vessels as they approach 
the United States, and our control effort is centered around 
the implementation date around this first----
    Mr. Scott. Let's say you verify the person has a passport 
and then you check the passport----
    Admiral Hereth. Against that individual, and if it looks 
like the individual, that's what we're looking for. There is an 
initiative internationally to improve the biometrics and the 
documents that international seafarers use and we are fully 
supportive of adopting that as a new standard. We're trying to 
work out the biometric challenges, though.
    Mr. Scott. Okay. Mr. Keever, you do a radiological check on 
all cargo that goes through. Do you get many hits?
    Mr. Keever. Yes, sir, Congressman. This past year, in 2004, 
our radiological monitoring devices scored 1,000 hits, and 
while that seems fairly significant, we move approximately 
20,000 containers through our gates weekly. So it's a small 
percentage of what goes through there. A number of those are 
hits that are non-cargo hits and CBP is not involved in that. 
We quickly move the containers out of the way for not to impede 
the flow of commerce. But we did receive about 1,000 this past 
year, yes, sir.
    Mr. Scott. And was the cargo movement significantly 
impacted?
    Mr. Keever. No, sir. We've developed standards to quickly 
move the affected container out of the flow, the traffic flow 
pattern, so that the other cargo can continue to move through, 
and we have some standard operating procedures in place with 
CBP if we receive a positive hit.
    Mr. Scott. There's been a proposal to fold the Port 
Security Grant Program in the Targeted Infrastructure 
Protection Grant Program. Do you have any concerns about that?
    Mr. Keever. We do, Congressman. By folding the Port 
Security Grants into the TIP would force ports to then compete 
with local, State, and other Government agencies for grant 
money and, therefore, make the available funds for ports 
diminished. So it would give us a lesser of a playing field.
    Mr. Scott. Thank you. And I guess one final question, and 
whoever wants to answer it. With a port, you've got a lot of 
different agencies floating around. What are the various 
challenges in coordinating activities with all of the different 
law enforcement agencies on the port and what do we do to make 
your life easier?
    Mr. Keever. Well, I'll take a stab at that. We certainly 
have a good working relationship with CBP and Coast Guard. We 
have our own Virginia Port Authority police force that are 
sworn officers, as well as on the local level and the State 
level. The cooperation that exists through the Area Maritime 
Security Committee, as the Admiral referred to earlier, 
certainly has improved the communication among those agencies 
and we continue to do what we can to work together in a 
cooperative manner.
    Mr. Ahern. I would add to that, also, as far as I would 
certainly go back to March 1 of 2003 when the Department of 
Homeland Security was created and we actually then had Customs 
and Border Protection, where we took all the different agencies 
that were operating within a port of entry, put them under a 
single leadership with single procedures so that when we do 
have changes in alert levels, we have the ability to have one 
organization responsible for that.
    We also now have the other responsible agencies for port of 
entry--Coast Guard is one of our counterparts, certainly within 
the Department of Homeland Security. So we have better 
coordination just by our design and by our leadership. I think 
that's very critical.
    There's been many entities involved with coordination of 
Port Security Councils as well as initiatives at our port, as 
well, for domain awareness.
    Mr. Scott. Is there a satisfactory level of cooperation 
that we don't need--there's no problem for us to address?
    Mr. Ahern. I think, certainly, there's always room to 
continue to improve, and certainly, we're still in a maturing 
process 2 years into our relationship in the Department of 
Homeland Security. But I would say it's not problematic. I 
think we've laid an excellent foundation we continue to build 
upon as we move forward in the future.
    Admiral Hereth. Sir, let me just add that, again, 
underscoring the importance of the area committees to present a 
collaborative body in which all the stakeholders can meet and 
talk about security in their backyard is a very important theme 
to continue to foster and continue to focus our efforts around.
    We're now in the process of mining best practices out of 
those area committees and intend to share those around the 
country, so I think it has to be viewed as a continuing 
process. We can't rest on our laurels. We've made good progress 
to this point, but a continuing discussion within those kinds 
of bodies is very important to making sure that we prevent an 
incident in the future.
    Mr. Coble. I thank the gentleman. The gentleman's time has 
expired.
    Mr. Lungren earlier said that he'd been 16 years away from 
this place. The other day on the elevator, the operator looked 
at him and said, ``Well, you haven't been riding my elevator in 
the last few months.'' [Laughter.]
    Dan replied, ``Well, I've only been away for 16 years.'' 
[Laughter.]
    So I want to say to Dan, this Committee has missed you more 
obviously than the elevator operator has.
    Mr. Lungren. I appreciate that. [Laughter.]
    Mr. Coble. I recognize the gentleman now.
    Mr. Lungren. I thank the Chairman. I'm just glad she 
remembered who I was. [Laughter.]
    And maybe I don't look that much older. I appreciate that.
    Commissioner Ahern, can you tell me what the separation of 
ICE from CBP does to make you more effective with the ports?
    Mr. Ahern. I would tell you that certainly we have a very 
strong relationship with Immigration and Customs Enforcement 
today, and we have principally the investigators there to 
follow up on crime or interdiction that actually occurs at the 
port of entry from an investigative standpoint. When the 
Department was created, certainly, an investigative arm did go 
to Immigration and Customs Enforcement. So we still do have a 
very strong relationship and a liaison between our two agencies 
and we're under one Directorate within Border Transportation 
and Security, as well.
    Mr. Lungren. Isn't it kind of strange to have your 
investigators separated from your cops, to use an analogy to a 
police department?
    Mr. Ahern. Well, that certainly is one point of view that 
was led to. Unfortunately, the separation that occurred on 
March 1----
    Mr. Lungren. Well, I guess my question is, can you show me 
how that separation enhances the job that you do with respect 
to port security?
    Mr. Ahern. If I could actually suggest that I defer 
answering that question until July of this year, because the 
Inspector General's Office will actually be doing a review of 
the ICE-CBP separation----
    Mr. Lungren. I understand that, but I was just wondering if 
you could give me any idea that you have why it enhances our 
port security.
    Mr. Ahern. I think----
    Mr. Lungren. I mean, if you can't, that's fine, as well, 
but I'd just like----
    Mr. Ahern. I think it's appropriate to wait for the July 
review to be concluded, sir.
    Mr. Lungren. Okay. You started to answer this somewhat. Mr. 
Keever answered it. But Admiral, I'd like to ask this. One of 
my observations when I was Attorney General was the fact that 
there was at times a less than what I would consider to be a 
mutual respectful situation that existed between local law 
enforcement and the FBI, for instance. In some cases, it was 
good. In some cases, it was bad.
    What is the level of cooperation that you have with local 
law enforcement? I come from a perspective in California where 
our ports have a distinct legal status. The Port of Long Beach, 
for instance, while the Port Commissioners are appointed by the 
mayor and the city council, the entity then is an independent 
entity that has some allegiance to the State as well as some 
allegiance to the locality and so they have, as you know, some 
of their own security, but there's also the City of Long Beach 
and there's the City of Los Angeles and there's the County of 
Los Angeles. If we were to have a major detonation in the 
harbor, it wouldn't just affect the port. It would affect the 
cities involved.
    So what is the state of cooperation that you believe exists 
right now with your folks, the ports that you are directly 
working with, but the surrounding legal entities that you find 
yourselves involved with?
    Admiral Hereth. Yes, sir. I would respond by saying I was 
Captain of the Port out in San Francisco in the Bay area during 
9/11 and the relationship we had with local law enforcement and 
State law enforcement organizations was tremendous. I think 
it's only gotten better in the 2 years since I've left San 
Francisco, well, more than 2 years.
    Mr. Lungren. Not because you left San Francisco Harbor. We 
wouldn't want to suggest that.
    Admiral Hereth. The organizations that have been put 
together in terms of the Area Maritime Security Committee, the 
local exercise programs, the changes in some of the response 
protocols through the development of the National Response Plan 
and the National Incident Management System have all, I think, 
been favorable and fostered the development of a cohesive 
effort by State, local, and Federal law enforcement--State, 
local, and Federal law enforcement communities.
    I would add that that's only going to continue to get 
tighter as we try to work for more defined prevention plans, 
whether it's a buffer zone protection plan around key 
infrastructure, and there's a variety of initiatives under 
HSPD-7 to do that. But it all suggests that the law enforcement 
communities have got to work together and lean on one another 
as they try to prevent incidents in a port area complex. There 
are many different players, as you know, that need to be 
involved in making sure an incident is prevented, and if 
something does happen, then a proper response from the law 
enforcement standpoint.
    Most often, most of the port communities I've been at, and 
I've been stationed probably 10 years on each cost now, most of 
the port communities don't have all the resources they would 
like, and so the law enforcement communities have to band 
together to mount a proper response, in most cases, as you 
cascade on the resources and depending on the size of the 
incident.
    The good news is we feel--the Coast Guard as an 
organization feels very comfortable working with the port 
communities on a broad variety of issues, and we've done that 
with our Harbor Safety Committees, our Area Pollution Response 
Committees, and now our Area Maritime Security Committees, and 
so it's a natural thing for us to reach out and pull in other 
agencies because we're resource limited, as many other agencies 
and organizations are, and so it's natural for us to draw into 
the mix and discussion with port authorities and local law 
enforcement authorities a game plan to help prevent incidents, 
and then if someone does happen, to be able to respond 
efficiently to one.
    Mr. Lungren. Thank you, Admiral. I'm going to use that 
phrase that you used, ``resource limited,'' when some people 
come and ask for different grants and programs. [Laughter.]
    These last few weeks--that's a great phrase. I'm going to 
keep it.
    Mr. Coble. I thank the gentleman.
    I thank Mr. Scott and Mr. Lungren for your input today. 
Gentlemen, I thank you all for your testimony. The Subcommittee 
very much appreciates it.
    In order to ensure a full record and an adequate 
consideration of this very important issue, the record will 
remain open for additional submissions for 7 days. Also, any 
written questions that a Member wants to submit should be 
submitted within that same 7-day time frame.
    This concludes the oversight hearing on law enforcement 
efforts at our ports of entry. Thank you for your cooperation, 
and the Subcommittee stands adjourned.
    [Whereupon, at 4:26 p.m., the Subcommittee was adjourned.]

                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

        Prepared Statement Congressman Robert C. ``Bobby'' Scott

    Thank you, Mr. Chairman. I am pleased to join you for this hearing 
on law enforcement efforts at our ports. The development of the 
Department of Homeland Security in the wake of the 9/11/01 tragedies 
brought about a shift of several law enforcement agencies from one 
department to another with changes and reorganizations of their 
responsibilities in some cases. There has also been a significant 
change in the responsibilities of federal law enforcement entities to 
communicate, coordinate and cooperate with state and local law 
enforcement entities. As a result, some confusion exists in the public, 
in the Congress and among the various federal state and local agencies 
as to where the oversight responsibility for these operations resides.
    I am of the opinion that we should seek to clarify any such 
confusion by first asserting our jurisdiction over all federal law 
enforcement entities and then working with those entities to assist 
their coordination and cooperation with each other and with state and 
local law enforcement entities. So, I am pleased to join you in this 
first of a series of hearings we will be conduction in this regard, and 
commend your foresight and leadership in the matter.
    I am especially pleased that we have Jeff Keever, Deputy Director 
of our Virginia Port Authority as one of our witnesses here today. Our 
ports are a vital part of the nation's economy, handling some 2 billion 
tons of freight each year. The Port of Virginia is the seventh largest 
U.S. port, in terms of general tonnage handled annually, and the second 
largest on the East Coast.
    Operating alongside the nation's largest Naval base, and assisting 
the missions of the Defense Logistics Agency and the U.S. 
Transportation Command, security has always been job one for the Port 
of Virginia. Secure, smooth and efficient operations is not only 
critical to the deployment of our troops around the globe, but it is 
also why the port has maintained a robust annual growth rate of more 
than 9% over the past few years. As a part of its focus on security, 
the Port of Virginia checks 100% of the containers leaving the port 
with radiation detection and monitoring equipment before they leave the 
port on trucks. And as a result of its successful cooperative 
relationship with U.S. Customs, there has not been a theft at the port 
in about 8 years. That's quite a record of security when you consider 
that estimates of thefts from ports across the U.S. range as high as 
$30 billion annually.
    Yet, despite the fact that our ports have risen to the challenges, 
their ability to continue to meet them in a world of changing threats 
and circumstances will depend in large measure on our assistance and 
support. I am concerned, Mr. Chairman, that we have not been as 
generous and diligent in supporting our seaports as we have with our 
airports and our land border crossings. It appears that we have left a 
much larger share of that responsibility to the ports themselves, 
compared to what we have done to assist our airport and border crossing 
operations.
    I expect we will hear more about the details of what we can do from 
our witnesses. So, I look forward to their testimony and to working 
with you, Mr. Chairman, in clarifying the oversight responsibilities 
for the various federal law enforcement entities, and in strengthening 
our ports to do the vital job of securing and efficiently moving cargo 
and people. Again, I appreciate your leadership on these important 
matters. Thank you.

                              ----------                              

 Response to Questions for the Record Submitted by Commissioner Jayson 
                Ahern,U.S. Customs and Border Protection

    1.   Are the port facilities more secure since 9/11? What has CBP 
done since the 9/11 attacks to improve this security?

        Answer: After the 9/11 attacks, CBP developed and implemented a 
        defense-in-depth layered enforcement strategy. As part of this 
        strategy, CBP developed numerous anti-terrorism and security 
        programs and systems to identify and select high-risk cargo 
        shipments, travelers, and conveyances. CBP understands that any 
        single program or system can be defeated.

        While we cannot physically examine all containers, we do review 
        virtually 100 percent of all cargo shipments that arrive in the 
        United States. This is possible through the 24-Hour Rule 
        implemented by CBP in December 2002, which requires advance 
        information for inbound vessel containerized and break-bulk 
        shipments. The 24-Hour Rule, and later the implementation of 
        the Trade Act of 2002, requires carriers to provide advance, 
        electronic cargo declarations 24 hours before the cargo is 
        laden aboard the vessel at a foreign port. Implementation of 
        these regulations represented a significant change in the flow 
        of information. This change allowed the United States to 
        identify threats earlier in the maritime transportation process 
        by being able to prescreen containerized cargo prior to being 
        laden on board vessels destined to the United States.

        Cargo manifest information provided to CBP is then reviewed 
        electronically through the Automated Targeting System (ATS). 
        Through ATS, CBP implemented threshold targeting which uses 
        numerous rules that work in combination to vet shipment 
        information from manifest and entry data, prioritize 
        ``unusual'' shipments, and generate mandatory targets for 
        shipments that exceed a specified score threshold. While the 
        targeting rules primarily utilize historical shipment data to 
        identify anomalies, all entities declared in the shipment data 
        are also vetted against enforcement records.

        Access to this data and the ability to vet it prior to lading 
        supports another layer of CBP's strategy, the Container 
        Security Initiative (CSI). Announced in January 2002, CSI is 
        currently operational in 36 foreign ports--ports shipping the 
        greatest volume of containers to the United States. CSI 
        addresses the threat to border security and global trade posed 
        by the potential for terrorist use of a maritime container. CSI 
        proposes a security regime to ensure all containers that pose a 
        potential risk for terrorism are identified and inspected at 
        foreign ports before they are placed on vessels destined for 
        the United States. CBP Officers are stationed abroad to work 
        together with their host government counterparts. Their mission 
        is to target and pre-screen containers, utilizing the ATS and 
        other available data, and to develop additional investigative 
        leads related to the terrorist threat to cargo destined to the 
        United States. Through the CSI, CBP is pushing our Nation's 
        zone of security beyond our physical borders by working with 
        nations from around the world to target, screen, and inspect 
        high-risk containers that are bound for the United States.

        After the events of 9/11, CBP began to leverage and expand 
        existing industry partnerships. CBP developed the Customs-Trade 
        Partnership Against Terrorism program (C-TPAT). C-TPAT aims at 
        strengthening the international supply chain, from point of 
        stuffing, through the CBP clearance process. Working in 
        partnership with CBP, importers, brokers, carriers, port 
        operators, and other C-TPAT members (partners) who initiate 
        actions which further secure their supply chain receive 
        measurable benefits from CBP, such as reduced inspections and 
        expedited clearance times. C-TPAT members, now over 9,000, also 
        report benefiting from the increased supply chain security by 
        realizing more efficient supply chains, improved asset 
        utilization, reduced total costs, revenue growth, and reduced 
        pilferage.

        To enhance our strategy at our borders, we have leveraged 
        advanced non-intrusive inspection technology to examine a 
        larger portion of the stream of commercial traffic while 
        facilitating the flow of legitimate trade and travel. This 
        technology includes large-scale, non-intrusive inspection 
        imaging systems, radiation portal monitors, radiation isotope 
        identifier devices and personal radiation detection devices.

        With the help of these programs and systems, CBP officers can 
        concentrate on searching for anomalies. The anomalies could 
        range from discrepancies noted in the shipment information, 
        irregular importer activity, discrepancies in the density of a 
        commodity, radiation emanations not consistent with the 
        commodity, detection of irregularities within a container 
        shipment, etc. Once an anomalous shipment is detected, our CBP 
        officers can then physically search the shipment and determine 
        whether the shipment has implements of terror or not.

    2.   What steps have been taken to increase coordination and 
cooperation with other DHS agencies, specifically the Coast Guard, to 
increase security of cargo arriving at US ports?

        Answer: CBP has implemented several initiatives to increase 
        coordination and cooperation with other DHS agencies, 
        specifically the Coast Guard. These efforts include:

        <bullet>  Establishing agency liaisons at CBP's National 
        Targeting Center (NTC) to streamline targeting efforts in 
        homeland security. Agencies represented at the NTC include: 
        Coast Guard, Transportation Security Administration (TSA), 
        Federal Bureau of Investigation (FBI), Immigration and Customs 
        Enforcement, and the Food and Drug Administration.

        <bullet>  CBP and Coast Guard have coordinated efforts to 
        address industry in various forums to discuss port and cargo 
        security. These forums include the Departmental Advisory 
        Committee on the Commercial Operations of Customs and Border 
        Protection and Related Functions, National Maritime Security 
        Advisory Committee and various maritime conferences.

        <bullet>  CBP and Coast Guard have developed joint protocols 
        and integrated operations such as targeting and conducting 
        enforcement boardings in order to eliminate duplication of 
        effort and leverage each other's capabilities and expertise. 
        Critical U.S. Government work hours are now redirected and 
        delays to industry have been reduced.

        <bullet>  CBP and the Coast Guard have been actively engaged in 
        coordinating response protocols to address the threat of a 
        nuclear or radiological weapon of mass destruction that could 
        be smuggled into our country. CBP and the Coast Guard utilize a 
        common radiological technical reachback (i.e., CBP's 
        Laboratories and Scientific Services) to determine if a 
        shipment contains illicit nuclear or radiological materials. 
        This shared capability also provides for a thorough vetting of 
        suspected shipments through both CBP's and the Coast Guard's 
        information databases and watch lists.

        <bullet>  CBP and Coast Guard, with support from TSA, are 
        conducting joint assessments of foreign ports to evaluate the 
        port's level of compliance with International Ship and Port 
        Facility Security Code (ISPS) requirements. During these joint 
        site assessments, CBP addresses cargo security issues in CSI 
        port operations or conducts site surveys of designated future 
        CSI ports.

        <bullet>  CBP managers participate in the Coast Guard led Area 
        Maritime Security Committees addressing port and cargo security 
        measures and contingency planning.

        DHS Agencies are also working in concert with the Department of 
        Defense, in response to the National Security Presidential 
        Directive - 41/Homeland Security Presidential Directive -13 
        (NSPD-41/HSPD -13), to develop a coordinated approach to 
        securing the maritime domain which would assign specific 
        responsibilities to appropriate agencies to ensure uniformity 
        and avoid duplication.

        Also in response to the NSPD-41/HSPD -13, CBP and Coast Guard, 
        and other component DHS agencies, are working toward enhancing 
        maritime domain awareness (MDA) and developing a common 
        operating picture (COP) to better utilize information and 
        maximize efficiencies and resources. Through MDA and COP, 
        communication and coordination channels between CBP and Coast 
        Guard are strengthened.

    3.   How would you describe the level of cooperation from the 
private sector thus far in implementing C-TPAT? What hurdles or 
obstacles need to be overcome in order to more fully implement the 
program?

        Answer: Developed immediately after the 9/11 attacks, C-TPAT 
        has grown from seven initial members to over 9,000 partners 
        (members) as of April 2005, with an annual growth rate of 
        approximately 3,000 new partners each year. The tremendous 
        growth of the program is a clear indication of the significant 
        level of cooperation from the private sector, and their 
        commitment to partner with CBP to secure the international 
        supply chain.

        Moreover, C-TPAT members are conditioning contractual business 
        relationships with service providers and vendors on 
        participation and/or adherence to C-TPAT security guidelines, 
        which is another strong sign of the level of cooperation from 
        the private sector.

        Staffing for this program was significantly increased in FY 
        2005 (120 new positions provided for conducting validations), 
        which will allow CBP to conduct validations of all high-risk 
        supply chains. CBP believes that the staffing increases and 
        program adjustments made in FY05 (i.e., a modified validation 
        approach that places emphasis on the importer and carrier 
        sectors, maximizes resources and increases efficiencies) are 
        sufficient to address the level of validations necessary of all 
        high-risk supply chains.

    4.   How would you rate the success of the Container Security 
Initiative thus far? To what extent do you see it expanding to other 
overseas ports in the future?

        Answer: To date, the Container Security Initiative (CSI) has 
        been successfully implemented at 36 foreign seaports. The 
        program has effectively extended our borders in regards to 
        inspecting high-risk cargo destined for the United States. 
        Prior to September 11, 2001, there was no program in place that 
        applied the principals and security standards for maritime 
        cargo that CSI employs today. Through CSI, a risk assessment is 
        performed on every oceangoing container coming to the United 
        States from a CSI port before it is loaded on a vessel. 
        Additionally, CSI has been instrumental in enhancing port 
        security. Through CSI, many foreign ports that previously did 
        not utilize or possess non-intrusive inspection (NII) equipment 
        now have either purchased their own NII equipment, or have 
        access to such equipment. This has resulted in an increase in 
        the effectiveness and efficiency of our targeting and 
        examination process for inbound containers to the United 
        States. Because of CSI, the probability of a terrorist 
        organization exploiting the maritime environment to introduce 
        weapons of mass destruction or disrupt the international supply 
        chain is diminishing.

        In addition to the current 36 operational ports, future CSI 
        ports will be identified based on their strategic importance to 
        international trade and volume of container traffic to the 
        United States. Foreign ports with a large number of 
        transshipped containers destined to the United, or ports 
        located in countries with identified terrorists organizations, 
        may be candidates for CSI expansion. CSI plans to be 
        operational in 40 ports by the end of CY05 and 50 ports by the 
        end of CY06.

    5.   Do you feel that CBP has adequate law enforcement authorities 
to adequately address the security needs of our Nation's seaports?

        Answer: Congress has always empowered CBP Officers with broad 
        border search authority. Under CBP or customs border search 
        authority, searches of persons, conveyances, baggage, cargo, 
        and merchandise entering the United States are allowed without 
        a search warrant and without suspicion of criminality (see 19 
        USC 482, 1499, 1581, 1582). CBP Officers may routinely perform 
        border searches to ensure compliance with all applicable laws 
        bound of course by the reasonableness requirement of the 4th 
        Amendment to the U.S. Constitution.

        In addition to these authorities, CBP has been empowered by 
        certain legislation that has enhanced our abilities to secure 
        the seaports. For example, the Maritime Transportation Security 
        Act of 2002 (MTSA) provides authority, in coordination with 
        U.S. Coast Guard, to safeguard the public and protect vessels, 
        harbors, ports, facilities, and cargo. Also, the Trade Act of 
        2002 ((PL 107-210) as amended by the MTSA of 2002) requires the 
        electronic transmission of cargo information arriving and 
        departing the United States for vessels (also includes air, 
        rail and truck). The Enhanced Border Security and Visa Reform 
        Act of 2002 required that electronic manifests for all vessel 
        crewmembers and passengers be received by CBP up to 96 hours 
        prior to arrival. These manifests are run against law 
        enforcement databases, to include the terrorist watch lists.

    6.   Does CBP currently have adequate staffing and funding to 
ensure that 100% of hazardous cargo entering the United States is 
screened and intercepted when needed?

        Answer: CBP employs a layered enforcement strategy to ensure 
        that potentially dangerous merchandise does not enter the 
        United States. Part of this strategy includes a requirement for 
        key information on all cargo importations to be electronically 
        transmitted to CBP prior to arrival at U.S. ports of entry. The 
        information is then screened by automated targeting systems 
        and, if determined to be a potential threat to U.S. residents 
        or commerce, the importation is subject to further review by 
        CBP Officers. We are confident that our layered enforcement 
        strategy effectively intercepts hazardous cargo entering the 
        United States.

    7.   Please describe the level of cooperation that occurs between 
the federal government, local port authorities and commercial shippers 
to ensure the security of cargo entering U.S. seaports?

                A. Do you feel that it is adequate to address security 
                vulnerabilities?
                B. What improvements can be made to bolster these 
                cooperative efforts?

        Answer 7: The tremendous growth of C-TPAT over the last three 
        years is a strong indication of the private sector's commitment 
        to partnership with CBP to secure the international supply 
        chain.

        <bullet>  C-TPAT is not a regulatory program, but works through 
        partnership with the trade community which leverages corporate 
        strength and influence to push back security enhancements 
        throughout the international supply chain, beyond the 
        regulatory reach of the U.S. Government.

        <bullet>  Working in partnership with CBP, importers, brokers, 
        carriers, port operators, and other C-TPAT members (partners) 
        who initiate actions that further secure their supply chain 
        receive measurable benefits from CBP, such as reduced 
        inspections and expedited clearance times.

        <bullet>  As the program has grown and evolved, there has been 
        a demonstrated need for more clearly defined, baseline security 
        criteria as a condition of membership. After months of dialogue 
        with the trade community, revised security criteria for 
        importers were announced on March 25, 2005.

        <bullet>  The implementation plan is cognizant of concerns 
        raised by the trade, and provides for a gradual, phased in 
        approach to allow the trade additional time to enhance their 
        security measures.

        <bullet>  Phase one pertains to the physical supply chain. 
        Phase two relates to internal supply chain management 
        practices, while phase three addresses business partner 
        requirements.

        <bullet>  The Maritime Transportation and Security Act of 2002 
        (MTSA) required the establishment committees in our Nation's 
        seaports to facilitate communication and coordination efforts 
        of port stakeholders, including other federal, local and state 
        agencies, industry and the boating public. These groups, called 
        Area Maritime Security Committees, are tasked with 
        collaborating on plans to secure their ports so that the 
        resources of an area can be best used to deter, prevent and 
        respond to terror threats. The USCG Captain of the Ports, 
        acting as Federal Maritime Security Coordinators (FMSC), are 
        responsible for developing Area Maritime Security (AMS) plans 
        and establishing a local AMS committee.

        The USCG, CBP, fellow federal, state and local representatives, 
        and other maritime area partners participate on the USCG led 
        AMS Committees to address maritime security issues. This 
        coordination and cooperation is vital to our efforts to secure 
        cargo entering U.S. seaports.

        Answer 7 (A-B): While progress has been made, there is more 
        work to be done:

        <bullet>  CBP will utilize a risk management approach and 
        optimize all available resources.

        <bullet>  CBP will continue to work through international 
        forums such as the World Customs Organization to implement a 
        security framework that increases the security of the 
        international supply chain.

        <bullet>  CBP will continue to work with other countries to 
        internationalize the CSI principles and increase the amount of 
        cargo, bound for the United States, that is inspected by those 
        countries prior to departure.

        <bullet>  CBP will continue to work with the Department of 
        Energy on the Megaports Initiative to provide foreign ports 
        with radiation detection equipment.

        <bullet>  CBP will collaborate with the DHS Science and 
        Technology Directorate in the development of an Advance 
        Container Security Device and the Domestic Nuclear Detection 
        Office in their research and development of radiation detection 
        technologies.

        <bullet>  CBP will continue to strengthen its partnership with 
        the private sector through C-TPAT, by sharing information with 
        certified members more extensively, and developing more 
        effective approaches to raising security standards, as well as 
        facilitation benefits.

    8.   What nonintrusive technologies does CBP utilize to ensure that 
the stream of commerce is not unduly interrupted?

        Answer: Non-Intrusive Inspection (NII) technologies deployed to 
        our Nation's sea, air and land border ports of entry include 
        large-scale X-ray and gamma-imaging systems as well as a 
        variety of portable and hand-held technologies to include our 
        recent focus on radiation detection technology.

        NII technologies are viewed as force multipliers that enable us 
        to screen or examine a larger portion of the stream of 
        commercial traffic while facilitating the flow of legitimate 
        trade, cargo and passengers.

        As of mid-April 2005, CBP has 166 large-scale NII systems 
        deployed to our Nation's air, land and seaports of entry. The 
        systems include the Vehicle and Cargo Inspection System 
        (VACIS), Mobile VACIS, Truck X-ray, Mobile Truck X-ray, Rail 
        VACIS, Mobile Sea Container Examination Systems, and the Pallet 
        Gamma-ray system.

        CBP is also moving quickly to deploy nuclear and radiological 
        detection equipment, including Radiation Portal Monitors 
        (RPMs), Radiation Isotope Identifier Devices and Personal 
        Radiation Detectors to our ports of entry. RPMs are very 
        sensitive pieces of technology that allow us to seamlessly scan 
        conveyances for nuclear and radiological materials.

    9.   How are CBP officers trained? Please describe the level and 
extent of this training.

        Answer: Customs and Border Protection has established a 
        comprehensive training plan for our officers. Carrying out the 
        Nation's homeland security mission requires a workforce with 
        necessary skills and proficiency to fight terrorist threats 
        while effectively carrying out our traditional missions of 
        interdicting drugs, intercepting illegal immigrants, and 
        facilitating legitimate trade and travel. CBP was faced with 
        the need to bring three distinct mandates together under the 
        position description of one officer. The goal is to train the 
        new CBP Officer to not only be equally competent in all of the 
        former, individual areas of responsibility, but also to be 
        better able to meet the expanded mission priority of anti-
        terrorism.

        With the significant increase in the knowledge required for the 
        CBP Officer, it was recognized that in order to not overwhelm 
        the CBP Officers, it was necessary to develop a progressive 
        roll out of training that allows officers sufficient time to 
        assimilate the information into strong job task competencies, 
        while building in sufficient personnel deployment controls to 
        assure that the work was performed in a successful and timely 
        manner.

        The critical tasks required of the CBP Officer were identified 
        and an instructional systems design approach was applied to 
        build logic, simplicity, and progression into the training 
        required to meet the wide diversity of duties performed by a 
        CBP Officer. This diversity was further delineated as it 
        relates to new hires as opposed to the incumbent workforce who 
        were transferred from the legacy agencies.

        From this perspective, training for new hires was divided into 
        three major units: a 20 day pre-academy, a 73 day basic CBPI 
        Academy at Glynco, Georgia and INPORT training which includes 
        37 modules of specific training to be delivered upon the 
        students' return from the Academy, and prior to completion of 
        their probationary period.

        Training for all incumbent officers is ongoing. It incorporates 
        many training methodologies to assist legacy officers in 
        expanding their competencies within the new mission focus. The 
        incumbent training also provides for in-service training of all 
        officers on new or modified procedures or newly identified 
        terrorist threats.

        Currently, there are 37 different training modules being rolled 
        out to cross train the front line CBP Officer and the 
        Agriculture Specialists at air, land and seaports across the 
        country. Twenty of these training modules are complete and 
        available to the field in a variety of delivery methods. It is 
        our goal to have the remaining 17 built and delivered to the 
        field by December 2005.

        Training has been built and will be delivered in structured 
        stages so that training can be learned and absorbed before 
        moving on to the next module. Cross Training will be delivered 
        ``just in time'' based on operational needs of the agency. It 
        is not our intention to roll out all training modules to all 
        people, all at once.

        There is a legitimate need to be sensitive to timing and 
        delivery of training modules. Modules are staged based upon 
        Headquarters ability to build quality training material and 
        trainers, and the fields' ability to deliver the training as 
        well as maintain effective port operations.

        We are working towards creating an agency-wide law enforcement 
        and national security culture, establish unified primary 
        inspections at all United States ports of entry and conduct 
        secondary inspections focused primarily on combating terrorism 
        as well as the traditional missions inherited by Customs and 
        Border Protection. To do this well and effectively, we have a 
        built a comprehensive training plan to guide our efforts.

        A very stringent 20-day pre-academy and 73-day basic academy 
        training curriculum has been developed for the new CBP Officer. 
        This training gives them the foundation that they need to work 
        in the primary setting upon their return to the port, while 
        also giving them a basic understanding of what occurs in the 
        secondary environments. The ultimate goal is to train the new 
        CBP Officer to not only be equally competent in all of the 
        former, individual areas of responsibility, but also to be 
        better able to meet the expanded mission priority of anti-
        terrorism. Their Academy training is then followed by a 
        rigorous 2-year on-the-job training program with approximately 
        40-45 weeks (depending on environment - air, land or sea) of 
        structured training courses. They are given training in stages 
        in order to absorb it and be afforded time on the job to 
        perform the duties and become proficient.

        We do have several courses which we consider to be advanced 
        training and they would include those that involve analytical 
        capabilities and the counter-terrorism response units in our 
        secondary areas. CBP is currently exploring the possibility of 
        having additional areas and courses designated as specialized 
        training classes.

    10.   What steps does CBP undertake that passengers and crew are 
adequately screened at seaport entries? Does CBP coordinate with the 
Terrorist Screening Center?

        Answer: CBP rigorously screens watch list names from airlines 
        and ships (both crews and passengers), destined to the United 
        States transmitted in advance as mandated by law, through two 
        systems, the Interagency Border Inspection System (IBIS) and 
        Automated Targeting Systems (ATS). IBIS and ATS employ 
        different algorithms to produce potential matches which require 
        additional vetting either prior to or upon arrival.

        Likely or positive matches are first coordinated with the 
        Terrorist Screening Center (TSC), which serves as the 
        government repository for watch list information, under HSPD-6, 
        for the screening of names across all agencies of the United 
        States Government. The TSC affirms the hit as a match, not a 
        match or inconclusive. Both matches and inconclusive findings 
        result in notification to the Counterterrorism Watch (CT Watch) 
        at the National Counterterrorism Center (NCTC), which directs 
        the Joint Terrorism Task Force (JTTF) squads around the United 
        States. In a collaborative manner, decisions about both 
        identification and admissibility are made between CBP and JTTF 
        agents, though CBP alone exercises the authority to admit or 
        refuse non-citizens at a Port of Entry (POE). Identification in 
        advance, coordination with the TSC and CT Watch, and 
        admissibility of all terror watch list cases at POEs are 
        resolved through the CBP's National Targeting Center, which 
        channels all field-level hits and maintains close communication 
        with both TSC and CT Watch. In this way, there is a single CBP 
        entity with awareness of all such hits at the more than 300 
        POEs in the United States, Canada, the Caribbean and Ireland.

    11.   Is there much overlap of responsibilities and duties with 
regard to port/cargo security between agencies in DHS? If so, is this 
overlap necessary? If so, why is the overlap necessary? If not, what, 
if anything, can be done to prevent this overlap?

        Answer: Internally, CBP is addressing border unification and 
        has implemented harmonized policies such as vessel boarding and 
        the inspection of goods and travelers. This allows for more 
        efficient use of resources as the functionality of legacy 
        agencies, immigration, customs and agriculture, is now being 
        carried out through a single streamlined process.

        In regard to overlap between DHS agencies, DHS continues to 
        evaluate this issue. In the maritime environment, these roles 
        and responsibilities will be further defined under the NSPD-41/
        HSPD-13.

    12.   Does each agency within DHS (or just CBP) have clearly 
defined responsibilities and duties in regards to port/cargo security?

        Answer: Under the delegation of authority for MTSA of 2002, DHS 
        has defined agency responsibilities for port/cargo security. 
        The Coast Guard is the lead agency for waterborne/vessel and 
        port facility maritime security issues. CBP is the lead agency 
        for international cargo. TSA is the lead for Surface and 
        Intermodal cargo security issues.

    13.   Is it possible to delegate some of your responsibilities and 
duties to other government agencies, especially at the state and local 
level, or perhaps even private agencies? Does C-TPAT impact DHS's 
delegation of responsibilities and duties?

        Answer: CBP has unique border search authority and 
        responsibility for the admissibility of goods and people 
        arriving into the United States. This accountability is not 
        something CBP would look to divert to other agencies or the 
        private industry.

        A voluntary, incentives-based program, C-TPAT works through 
        partnership with the trade community, which leverages corporate 
        strength and influence to push back security enhancements 
        throughout the international supply chain, beyond the 
        regulatory reach of the U.S. Government. In light of CBP's 
        authority and responsibilities, this unique partnership is not 
        one that could or should be delegated.

    14.   With regard to the trade act, how do you know the manifest 
data that is being transmitted to you 24 hours before shipment is 
authentic? Does CBP know the manifest data's point of origin? Does CBP 
know who is responsible for the manifest? Does CBP attempt to track any 
documents accompanying the manifest data?

        Answer: The Trade Act requires that vessel carriers or 
        automated Non-Vessel Operating Common Carriers (NVOCCs) provide 
        CBP with an approved electronic equivalent of the vessel's 
        Cargo Declaration (Customs Form 1302), 24 hours before the 
        cargo is laden aboard the vessel at the foreign port. The 
        current approved system for presenting electronic cargo 
        declaration information to CBP is the Vessel Automated Manifest 
        System (AMS). CBP has a multi-layer approach that involves the 
        Automated Targeting System, Automated Commercial System and 
        randomly selected vessel audits to validate cargo information 
        with different enforcement processes. CBP electronically 
        captures and retains the party transmitting the information to 
        CBP by system identifiers and Standard Carrier Alpha Codes 
        (SCAC) that are required in the transmissions. Automated 
        parties are not required to have an office at each location of 
        load to transmit that cargo information. In fact, most 
        automated carriers have centralized office locations that are 
        responsible for the transmission. There are many documents 
        which make up a complete manifest in addition to the cargo 
        declaration, which include: vessel entrance and clearance 
        statements, ship's stores, crew effects, crew list, and customs 
        and immigration forms which are presented at time of arrival. 
        Vessel and cargo information is recorded in CBP systems.

    15.   Is there any warning system in place alerting the appropriate 
agency when any manifest or inventory data is altered?

        Answer: The CBP automated systems track modifications and 
        amendments to data that is transmitted. The automated system 
        used by CBP also allows officers to mark cargo declaration 
        information transmitted to CBP as reviewed. If the cargo 
        information is changed after the review has occurred, the 
        automated system will show the cargo information as not 
        reviewed.

    16.   Can you use the automated targeting system (ATS) to 
preemptively try and find ``high risk'' cargo or known terrorists on 
board vessels? Do you do any kind of ``date mining'' with other 
government and private databases to try and preemptively prioritize 
cargo, ports, and personnel on board vessels?

        Answer: The CBP Automated Targeting System (ATS) is designed to 
        and does pre-emptively target high-risk cargo and known 
        terrorists on board vessels. The CBP cargo system collects 
        electronic data from a variety of government and trade systems 
        on all manifested cargo shipments. This is completed prior to 
        the arrival of the vessel. Each shipment is risk-scored against 
        the Terrorist Screening Center data base, law enforcement and 
        violator data bases, as well as historical trade data. All 
        high-risk shipments are examined by CBP Officers.

        CBP continues to enhance its existing ATS program by leveraging 
        ATS to integrate data elements from CBP systems and other 
        commercial databases. CBP's cargo systems include commercial 
        entry declarations, manifest, export, and enforcement 
        databases. The CBP Passenger system includes all crew and 
        passenger manifests via vessel (or aircraft) crossing the 
        international border. Passenger and crew manifests are 
        transmitted to CBP in advance of vessel arrival, and CBP works 
        closely with the Coast Guard in assessing the risk posed by 
        cargo vessel crew.

        CBP uses this integrated data to risk assess and score existing 
        cargo, crew, and passenger data. These scored events are 
        evaluated against a pre-determined threshold to determine the 
        intensity of CBP's interdiction. CBP also utilizes the Trend 
        Analysis and Analytical Selectivity Program (TAP) to analyze 
        and identify anomalies in trends and profiles of entry summary 
        data. Based on operational risk assessment, comparison to 
        historical crossing data, and matching against the Terrorist 
        Screening Center data base and other law enforcement systems, 
        an appropriate operational plan is developed and implemented.

    17.   How many private port facility operators are certified in C-
TPAT? Approximately how many total private port facility operators are 
in the United States?

        Answer: C-TPAT maintains statistics on a variety of enrollment 
        sectors, but does not maintain the specific number of private 
        port facility operators certified in C-TPAT. However, the 
        following information is available: as of April 15, 2005, there 
        are 26 certified Marine Port Authorities and Terminal Operators 
        in the C-TPAT program.

        CBP contacted the Federal Maritime Administration to obtain 
        information on the total private port facility operators in the 
        United States, but has not yet received that information.

    18.   How are federal funds currently distributed to ports 
throughout the United States? Any comment on Mr. Keever's suggestion 
that port security would be enhanced at a lesser cost by adopting a 
``focused'' approach? According to page 23 of Mr. Keever's testimony, 
``under this approach, port facilities would be differentiated based on 
size, type, likelihood of being attacked and potential consequences of 
an attack, and the security standards they must meet would be tailored 
to their status based on these factors.''

        Answer: Federal funds are distributed through Port Security 
        Grants (PSG) which are administered by the Office of Domestic 
        Preparedness (ODP) branch of DHS. Seaports submit applications 
        to be granted funds to enhance seaport security and these 
        requests are reviewed by ODP. Seaports are presently 
        differentiated based upon size, type and relative risk factors.

    19.   What are some ways you can secure our ports and cargo without 
an increase in funding or personnel?

                1.  What about the creation of joint task forces to 
                prevent duplication of responsibilities and duties by 
                other agencies?
                2.  What about delegating responsibilities and duties 
                to other agencies; including local, state, and other 
                federal government agencies, or even private companies?

        Answer 19:
        <bullet>  CBP will utilize a risk management approach and 
        optimize all available resources.

        <bullet>  CBP can continue to work through international forums 
        such as the World Customs Organization to implement a security 
        framework that will increase supply chain security of cargo in 
        foreign countries.

        <bullet>  CBP can continue to work with other countries to 
        internationalize the CSI principles and increase the amount of 
        cargo, bound for the United States, that is inspected by those 
        countries prior to departure.

        <bullet>  CBP will continue to work with the Department of 
        Energy with the Megaports Initiative to provide foreign ports 
        with radiation detection equipment.

        <bullet>  CBP will collaborate with the DHS Science and 
        Technology Directorate in the development of an Advance 
        Container Security Device and the Domestic Nuclear Detection 
        Office in their research and development of radiation detection 
        technologies.

        <bullet>  CBP will continue to foster partnerships with the 
        industry and continue to strengthen voluntary, incentive-based 
        programs such as C-TPAT.

        Answer 19 (1):
        <bullet>  CBP has various liaisons represented at the National 
        Targeting Center (NTC) to streamline targeting efforts in 
        homeland security. Agencies represented at the NTC include: 
        U.S. Coast Guard, Transportation Security Administration, 
        Federal Bureau of Investigation (FBI), Immigration and Customs 
        Enforcement, and the Food and Drug Administration.

        <bullet>  CBP often integrates operations with the USCG to 
        target high-risk conveyances and crew and conduct joint 
        enforcement boardings in order to eliminate duplication of 
        effort and leverage each other's capabilities and expertise.

        <bullet>  In order to increase security at U.S. ports, CBP and 
        the Coast Guard have been actively engaged in coordinating 
        response protocols to address the threat of a nuclear or 
        radiological weapon of mass destruction that could be smuggled 
        into our country. CBP and the Coast Guard utilize a common 
        radiological technical reachback (i.e., CBP's Laboratories and 
        Scientific Services) to determine if a shipment contains 
        illicit nuclear or radiological materials. This shared 
        capability also provides for a thorough vetting of suspected 
        shipments through both CBP's and the Coast Guard's information 
        databases and watch lists.

        <bullet>  CBP and U.S. Coast Guard, with support from TSA, are 
        conducting joint assessments of foreign ports to evaluate 
        levels of compliance with International Ship and Port Facility 
        Security Code (ISPS) requirements. During these joint site 
        assessments, CBP addresses cargo security issues in Container 
        Security Initiative port operations, or conducts site surveys 
        of designated future CSI ports.

        <bullet>  At the field level, CBP has representation on the 
        Federal Bureau of Investigation's Joint Terrorism Task Force as 
        well as other multi-agency task forces addressing maritime 
        security issues at the state and local level.

        Answer 19 (2):
        CBP has unique border search authority and responsibility for 
        the admissibility of goods and people arriving into the United 
        States. This accountability is not something CBP would look to 
        divert to other agencies or the private industry.

    20.   Please list your top three priorities in securing our ports 
and cargo? Can you envision a way to accomplish these priorities 
without additional funding or personnel?

        Answer: CBP's top three priorities:

        1)  Increase CBP's ability to access and evaluate advanced 
        electronic information on cargo, travelers and conveyances in 
        order to accurately identify and interdict those that pose a 
        high risk to our Nation's security.

        2)  Partner with Foreign Governments and Trade Industry - Align 
        security practices and develop security frameworks with foreign 
        governments and continue to build partnerships with industry to 
        improve supply chain security.

        3)  Utilize and Explore New Technology - Utilize NII 
        technologies as a force multiplier to enable CBP to screen or 
        examine a larger portion of the stream of commercial traffic 
        while facilitating the flow of legitimate trade and cargo. 
        Also, continue to evaluate new technologies that will increase 
        the efficacy of examinations, the security of the end-to-end 
        supply chain, and to integrate information to enhance targeting 
        efforts.

        The following are ways in which CBP can support seaport 
        security:

        <bullet>  CBP will utilize a risk management approach and 
        optimize all available resources.

        <bullet>  CBP can continue to work through international forums 
        such as the World Customs Organization to implement a security 
        framework that will increase supply chain security of cargo in 
        foreign countries.

        <bullet>  CBP can continue to work with other countries to 
        internationalize the CSI principles and increase the amount of 
        cargo, bound for the United States that is inspected by those 
        countries prior to departure.

        <bullet>  CBP will continue to work with the Department of 
        Energy with the Megaports Initiative to provide foreign ports 
        with radiation detection equipment.

        <bullet>  CBP will collaborate with the DHS Science and 
        Technology Directorate in the development of an Advance 
        Container Security Device and the Domestic Nuclear Detection 
        Office in their research and development of radiation detection 
        technologies.

        <bullet>  CBP will continue to foster partnerships with the 
        industry and continue to strengthen voluntary, incentive-based 
        programs such as C-TPAT.

    21.   Does the type of container inhibit inspection in any way? If 
so, how? Would a uniform container requirement help ease the burden of 
inspection?

        Answer: CBP continues to strive to enhance our inspection 
        capabilities through the evaluation and adoption of emerging 
        technologies. CBP is currently able to scan a container 
        efficiently and is not inhibited by the type of container.

    22.   How often is a cargo vessel coming into the United States 
required to take a physical inventory of its cargo? After the cargo 
vessel takes a physical inventory of its cargo, is the cargo vessel 
required to report its findings to anyone?

        Answer: CBP requires that all cargo on board a vessel destined 
        for a U.S. port of call whether or not to be discharged in the 
        United States be transmitted in the Automated Manifest System 
        to CBP. CBP does perform random validations of cargo 
        transmitted to CBP compared to the cargo being discharged at 
        the port of call.

                              ----------                              

  Response to Question for the Record submitted by Rear Admiral Larry 
          Hereth, Director od Port Security, U.S. Coast Guard

                          SECURITY ASSESSMENTS

    QUESTION:
    Port facilities and vessels across the nation were required to 
submit a security assessment and a security plan to the Coast Guard to 
identify aspects of each port facility and vessel that were deemed 
vulnerabilities by July 1, 2004.
        (a) According to a report entitled Secure Seas, Open Ports some 
        9500 vessels have submitted assessments and plans earlier this 
        year. Has that number changed? What is the number as a 
        percentage of vessels doing business in our ports? 
        Additionally, the Report states that 2500 facilities submitted 
        both a security assessment and a security plan earlier this 
        Year. What is that number as a percentage of port facilities in 
        the United States?

        (b) How do these assessments and security plans help the Coast 
        Guard's law enforcement responsibilities?

    ANSWER:
    The Coast Guard has reviewed and approved security plans for 
approximately 10,900 vessels. This number includes all vessels required 
to operate under approved security plans in accordance with the 
Maritime Transportation Security Act (MTSA) including approximately 
1600 additional vessels required to comply under the new regulations 
designating ammonium nitrate as a Certain Dangerous Cargo. MTSA applies 
to almost all ships carrying packaged or bulk cargo. The rule excludes 
most of the U.S small passenger vessels because the rule applies to 
only those that have Safety of Life at Sea (SOLAS) certificates and 
those carrying more than 150 passengers.

    Over 3,000 facilities have submitted security assessments and plans 
and currently operate under approved Facility Security Plans. This 
number includes all facilities, including port facilities, required to 
operate under approved security plans in accordance with MTSA as 
defined in 33 CFR, part 105.

    These requirements support the Coast Guard's law enforcement 
responsibilities by requiring the use of facility and vessel security 
plans as a strategy to reduce maritime risk by establishing separate 
measures and protocols focused on preventing transportation security 
incidents and improving response if an incident occurs. Vessel and 
facility security plans must identify the qualified individual having 
full authority to implement security actions and also detail provisions 
for establishing and maintaining

        <bullet>  Physical security
        <bullet>  Passenger and cargo security
        <bullet>  Personnel security
        <bullet>  Additional security measures necessary to deter a 
        transportation security incident.

          WHAT HAS THE CG DONE TO IMPROVE SECURITY SINCE 9/11

    QUESTION:
    Are the port facilities and coastal areas more secure since 9/11? 
What has the Coast Guard done since the 9/11 attacks to improve this 
security?

    ANSWER:
    Our port facilities and coastal areas are significantly more secure 
now than they were prior to 9/11. Since 9/11, we've made great progress 
in securing America's waterways, while continuing to facilitate the 
flow of commerce. It is a complicated effort with broad strategic 
implications. To execute this strategy, we continue to focus on the 4 
pillars of our maritime security strategy:
        <bullet>  Enhance Maritime Domain Awareness (MDA),
        <bullet>  Creating and overseeing a domestic/international 
        maritime security regime,
        <bullet>  Increasing/enhancing operational presence, and
        <bullet>  Improving our response and recovery posture.

    These pillars guide our transformation of Coast Guard authorities, 
capabilities, and capacity, with an eye toward reducing risk and 
preserving an appropriate mission balance. There is no doubt that work 
remains, but there is also no doubt that we continue to improve 
maritime homeland security each and every day. Although certainly not 
all inclusive, a few examples follow:

    Enhance global MDA
    <bullet>  Before 9/11 there was no mandatory ship-tracking 
requirement; the Coast Guard has since forged an international 
agreement to accelerate the requirement for Automatic Identification 
System (AIS) capability that went into effect in December 2004. 
Simultaneously, we have initiated a major acquisition project to 
implement nationwide AIS capabilities allowing for deployment of 
immediate capability including AIS shore stations in VTS ports, 
outfitting NOAA buoys offshore, and testing AIS receiving capability 
from a low-flying satellite. The Coast Guard's fiscal year 2006 budget 
requests $29.1 million to further deploy AIS capability throughout the 
U.S.

    Create & oversee maritime security regime
    <bullet>  Before 9/11 we had no formal international or domestic 
maritime security regime for ports, port facilities, and ships - with 
the exception of cruise ships. Partnering with domestic and 
international stakeholders, including the International Maritime 
organization, a comprehensive domestic security regime (Maritime 
Transportation Security Act (MTSA)) and an international security 
convention (International Ship and Port facility Security (ISPS) Code) 
we established July 1, 2004. The Coast Guard's fiscal year 2006 budget 
fully supports continued enforcement of MTSA regulations and ISPS code.
    <bullet>  Deployed field intelligence support teams to better 
collect and disseminate maritime threat information.

    Increase/enhance operational presence
    <bullet>  Since 9/11, the Coast Guard has implemented several 
initiatives that have considerably increased operational presence, 
enhancing the Coast Guard's ability to protect the U.S. maritime 
domain, and prevent terrorists attacking. Initiatives include:
                <bullet>  Established 13 new Maritime Safety and 
                Security Teams,
                <bullet>  Deployed over 80 new small boats (RB-S) and 
                boat crews,
                <bullet>  Provided radiation detection capabilities to 
                our boarding teams,
                <bullet>  Acquired 15 Coastal Patrol boats ( the Coast 
                Guard's 110' and 87' Cutters) and 4 Patrol Coastals 
                (These are the Navy's PC-170s which were transferred to 
                the Coast Guard. Patrol Coastal is the Navy equivalent 
                to the Coast Guard's Coastal Patrol) to increase 
                operational presence in our ports.
    <bullet>  The Coast Guard's fiscal year 2006 budget continues to 
invest in initiatives focused on improving the quantity and quality of 
Coast Guard presence including:
                <bullet>  Continued implementation of Airborne Use of 
                Force for Coast Guard helicopters,
                <bullet>  Permanent establishment of an enhanced MSST,
                <bullet>  14 additional RB-S allowances, and
                <bullet>  Continued implementation of the Deepwater 
                program including production of the third national 
                Security Cutter, and design of the first offshore 
                Patrol Cutter.

    Improve response & recovery posture
    <bullet>  Since 9/11, the Coast Guard has begun establishing Sector 
commands. Sectors streamline command-and-control, provide unity of 
command, and one-stop shopping for port stakeholders and will have long 
term positive impacts on Coast Guard response and recovery posture.
    <bullet>  The Coast Guard is currently deploying Rescue 21 to 
replace the existing out-dated National Response System. Rescue 21 will 
serve as the Coast Guard's primary communications system and will 
greatly improve interoperability with other Federal, State, and local 
agencies for the Coast Guard's fiscal year 2006 budget request $101 
million to continue deployment of the Rescue 21 system.

                      CARGO SECURITY COORDINATION

    QUESTION:
    What steps have been taken to increase coordination and cooperation 
with other DHS agencies, specifically CBP, to increase security of 
cargo arriving at U.S. ports?

    ANSWER:
    DHS operating elements have exchanged liaison officers to 
facilitate information sharing for critical processes including among 
the Coast Guard's (CG) Intelligence Coordination Center Customs & 
Border Protection's (CBP) National Targeting Center, enabling timely 
and effective information sharing and analysis of cargo and vessel 
targeting data. As part of this effort, the CG and CBP have worked to 
harmonize their advance information requirements such that the advance 
notice of arrival information for vessels and cargo is not redundant 
and allows both agencies to coordinate the identification and tracking 
of high risk cargo and/or vessels. Similarly, efforts are underway to 
ensure that results from the Coast Guard's International Port Security 
(IPS) program are available and considered as part of cargo targeting 
practices. The IPS program visits foreign ports in order to assess port 
compliance with the International Ship and Port Facility Security 
(ISPS) code, share best practices and help raise global port security 
postures. The CG's IPS program is also leveraging partnerships with 
CBP's Container Security Initiative (CSI) in order to coordinate visits 
and assessment results and provide as comprehensive a picture as 
possible of foreign port security. At the local level, the Area 
Maritime Security Committees are the primary mechanisms for government 
agency cooperation and coordination on port security matters. The CG 
Captain of the Port and CBP Port Directors are prominent members of 
these committees. Each provides agency staffs to participate on 
subcommittees and workgroups that serve to coordinate cargo 
inspections, joint vessel boarding operations, information sharing, 
contingency planning, and security plan exercises.

    Though the Coast Guard coordinates with ICE on many issues, cargo 
security is primarily a CBP function but not one of ICE's. ICE is a 
member of Area Maritime Security Committees and as such is involved in 
the overall security discussions.

        BIGGEST CHALLENGES RELATED TO MARITIME HOMELAND SECURITY

    QUESTION:
    What are the biggest challenges you're facing related to maritime 
homeland security?

    ANSWER:
    The Coast Guard's overarching goal related to maritime homeland 
security is to prevent terrorist attacks within, or exploitation of, 
the U.S. maritime domain. Doing so requires a risk-based approach to 
identifying and intercepting threats well before they reach U.S. shores 
by conducting layered, multi-agency security operations while 
strengthening the security posture of strategic economic and military 
ports. Specific challenges to conducting these operations are:
    Coast Guard Recapitalization
        <bullet>  Readiness of Coast Guard surface and air fleet is a 
        continuing challenge. The Coast Guard lost 742 Cutter days (10% 
        of fleet availability) in 2004 due to major equipment 
        casualties; the 110-foot patrol boat fleet suffered 20 hull 
        breaches in the last three years; cutters and aircraft employ 
        technology from the 1960's.
        <bullet>  In 2004, the Coast Guard was forced to begin an 
        immediate re-engining of its HH-65 helicopter fleet because of 
        an increased rate of in-flight engine power losses (329/100,000 
        flight hours, while the FAA/Navy standard is 1/100,000 flight 
        hours).
        <bullet>  Despite spending over 50% more than budgeted amounts 
        on maintenance and repair of legacy assets, the major Coast 
        Guard Cutter fleet is forced to operate with degraded 
        operational capability nearly 60% of the time.
        <bullet>  Continued recapitalization of surface and air fleet 
        through the Deepwater acquisition is critical to current and 
        future readiness. Department of Homeland Security (DHS) 
        submitted the Revised Deepwater Implementation Plan to 
        Congress, on March 25, 2005, which updates the program to 
        include critical post-9/11 mission requirements and important 
        new capabilities: airborne use of force, Department of Defense 
        (DOD)/DHS interoperability, and enhanced cutter interdiction 
        capabilities.
        <bullet>  The Coast Guard's fiscal year 2006 budget proposes 
        significant investments in recapitalizing the Coast Guard to 
        ensure the Coast Guard is equipped to meet its mission demands. 
        Initiatives include:
                -  $966 million for the Deepwater program will fund 
                production of the third National Security Cutter, 
                design and long lead materials for the first Offshore 
                Patrol Cutter, six legacy cutter mission effectiveness 
                projects, continued acquisition of Vertical Unmanned 
                Aerial Vehicles, and complete re-engining of the Coast 
                Guard's fleet of operational HH-65 aircraft;
                -  $101 million for continued nationwide deployment of 
                Rescue 21 - recapitalization of the Coast Guard's 
                national distress and response communications system;
                -  $22 million to continue the replacement of the Coast 
                Guard's aging and obsolete 41-foot utility boat fleet 
                with the Response Boat-Medium; and
                -  $39.7 million to replace deteriorating shore 
                facility infrastructure necessary to support the Coast 
                Guard's operational assets.
    Coast Guard Operational Presence & Response Posture
        <bullet>  The Coast Guard continues to strive to increase 
        operational presence and response posture to reduce the risk of 
        a maritime terrorist attack and to improve the Coast Guard's 
        ability to minimize impacts on the maritime transportation 
        system in the event an attack occurs. The Coast Guard's fiscal 
        year 2006 budget provides resources for several initiatives 
        focused on enhancing Coast Guard operational presence and 
        response posture including:
                -  $19.9 million to arm Coast Guard helicopters at five 
                Coast Guard air stations, significantly improving the 
                Coast Guard's ability to stop maritime threats;
                -  $10.1 million to enhance cutter boat response by 
                replacing obsolete cutter boats and failing small boat 
                davit systems;
                -  $11 million for 14 additional response boat-small 
                allowances and Liquefied Natural Gas screening 
                personnel to improve presence in key U.S. ports; and
                -  Reallocation of $20.8 million of base resources to 
                permanently establish an Enhanced Maritime Safety and 
                Security Team to help fill gaps in U.S. maritime 
                counterterrorism capabilities.

    Maritime Domain Awareness
        <bullet>  Maritime Domain Awareness (MDA) is absolutely 
        essential to both maritime security and defense operations and 
        is the lynchpin to identifying threats as early and as far from 
        the homeland as possible.
        <bullet>  Absent actionable cueing intelligence information, we 
        hope to disrupt terrorists' planning and execution of 
        operations, thereby deterring attacks, stalling them, or 
        affecting their timing. Effective and integrated intelligence 
        information analysis and dissemination assists in focusing the 
        right effort against the right threat in the right location(s).
                <bullet>  Recognizing the impossibility of defending 
                against every vector of attack, external and internal, 
                to the 3.4 million square miles of U.S. Maritime 
                Exclusive Economic Zone, we must improve our level of 
                awareness and knowledge of all maritime activities. 
                Only then will we be able to facilitate decision making 
                and enable an early and effective response.
                <bullet>  In response to NSPD 41/HSPD 13, the Coast 
                Guard, on behalf of DHS, is leading the effort in 
                concert with DOD to develop a National Plan for MDA.
                <bullet>  The Coast Guard's fiscal year 2006 budget 
                continues the Coast Guard's aggressive implementation 
                of comprehensive MDA capabilities. Initiatives include:
                -  $29.1 million to continue nationwide implementation 
                of Automatic Identification System capability.
                -  $5.7 million to deploy the Common Operational 
                Picture throughout Coast Guard regional command 
                centers;
                -  $16.5 million to provide additional C130H maritime 
                patrol aircraft flight hours and establish a forward 
                operating location to increase aircraft time on-
                station; and
                -  $7 million to improve radiological/nuclear detection 
                capabilities in conjunction with the DHS Domestic 
                Nuclear Detection Office.

          RESOURCES & CAPABILITIES TO REDUCE PORT VULNERABLITY

    QUESTION: What new resources and capabilities have been added by 
the Coast Guard in order to reduce the vulnerability of ports and port 
facilities?

    ANSWER:
    Before the events of 11 September 2001, the Coast Guard had limited 
mandatory ship-tracking requirements. Since then, the Coast Guard has 
led the international maritime community in accelerating the 
requirements for vessels to carry Automatic Identification System (AIS) 
equipment. These international requirements, along with more extensive 
domestic requirements, went into effect in December 2004. 
Simultaneously, the Coast Guard initiated a major acquisition project 
to acquire shoreside AIS capability to improve Maritime Domain 
Awareness (MDA). Initial efforts under this project have allowed the 
Coast Guard to deploy AIS shore stations in various major ports and 
other coastal areas, outfit offshore National Oceanic and Atmospheric 
Administration weather buoys with AIS, and develop AIS receiving 
capability from a commercial low earth orbit satellite.

    Before 9/11, the Coast Guard had no formal international or 
domestic maritime security regime for ports, port facilities, and ships 
- with the exception of cruise ships. Through partnering with domestic 
and international stakeholders, both a comprehensive domestic security 
regime and an international security convention are now in place. Both 
have been in force since July 1, 2004.

    In addition, the Coast Guard has increased and enhanced its 
operational presence by:
        <bullet>  Establishing 13 new Maritime Safety and Security 
        Teams,
        <bullet>  Deploying over 80 new small boats (RB-S) and boat 
        crews,
        <bullet>  Providing radiation detection capabilities to 
        boarding teams,
        <bullet>  Deploying field intelligence support teams to better 
        collect and disseminate maritime threat information, and;
        <bullet>  Acquiring 15 Coastal Patrol boats and 4 Patrol 
        coastal vessels.
        <bullet>  Upgrading sensors for command and control in New 
        York, Boston, Miami, Charleston, Hampton Roads, and San Diego.
        <bullet>  Establishing a national maritime Common Operational 
        Picture.
        <bullet>  Developing maritime asset tracking technology for 
        federal, state, local vessels.
        <bullet>  Expanding information sharing between the Coast 
        Guard, other DHS components, Department of Defense, and other 
        federal, state, and local agencies.

    Before 9/11, Coast Guard prevention, protection, and response 
activities were coordinated by multiple commands in a single geographic 
location. Since 9/11, the Coast Guard has begun combining Group and 
Marine Safety Office commands into Sectors to streamline the Coast 
Guard's command-and-control structure, provide unity of command, and 
one-stop shopping for port stakeholders, and enhance the Coast Guard's 
response and recovery posture.

    To further reduce maritime risk, the Coast Guard:
        <bullet>  Established Area Maritime Security Committees
        <bullet>  Reviewed and approved security plans for 
        approximately 3,000 facilities and over 10,900 vessels, and;
        <bullet>  Completed port security assessments at the 55 U.S. 
        ports previously identified as militarily and economically 
        strategic.

    The Coast Guard's fiscal year 2006 budget proposes continued 
investment in reducing vulnerabilities within U.S. ports by focusing 
resources to further enhance MDA and increase operational presence and 
response posture; critical elements of the Department of Homeland 
Security's Maritime Security Strategy.

                              NOA ACCURACY

    QUESTION:
    Under 33 CFR 160; subpart C, all vessels entering a U.S. port or 
place must provide a notice of arrival (NOA) 96 or 24 hours, whichever 
is applicable, prior to entering the designated port or place. Any 
vessel that fails to provide an NOA within the timeframe specified in 
the NOA regulation will be denied entry into port. The NOA must include 
among other requirements: A list of crew including nationality and 
their primary position on board; the name of the owner and operator; 
and vessel cargo information (i.e. general description of cargo on 
board other than Certain Dangerous Cargo (CDC) and/or list and amount 
of CDC carried). What steps have been taken to ensure the accuracy of 
security information provided by vessels as it relates to Notice of 
Arrival data?

    ANSWER:
    To ensure vessels comply with the Notice of Arrival (NOA) 
regulation the Coast Guard (CG) developed a strict enforcement policy 
that directs that no vessel shall be permitted to enter the designated 
U.S. port or place until all required information has been submitted to 
the CG within the time frames stipulated by the regulation. Upon 
receipt of the NOA information, the CG's Intelligence Coordination 
Center (ICC) vets the information against various databases to 
determine any anomalies with regard to vessel, cargo and people. CG and 
U.S. Customs and Border Protection (CBP) officers at CBP's National 
Targeting Center also assist in the vetting process. Lastly, CG and CBP 
personnel verify the validity of people, cargo, and vessel information 
during at sea and dockside boardings. Since July 1, 2004, every vessel 
arriving from a foreign port has been boarded at least once to verify 
compliance with the International Ship and Port Facility Security Code 
and to check the accuracy of their notice of arrival.

             DOES THE CG HAVE ADEQUATE RESOURCES FOR MTSA?

    QUESTION:
    Does the Coast Guard have adequate resources (personnel and 
funding) to continue enforcement efforts under MTSA?

    ANSWER: The Coast Guard was appropriated approximately $101 million 
in fiscal year 2005 to implement the Maritime Transportation Security 
Act of 2002 (MTSA). The fiscal year 2006 budget includes an additional 
$31 million for annualization of MTSA work, providing the Coast Guard 
with the resources required to enforce MTSA on an annual, going-forward 
basis.

              MDA ENHANCEMENT OF PORT AND VESSEL SECURITY

    QUESTION:
    It is my understanding that the Maritime Domain Awareness (MDA) 
provides information regarding the maritime environment that could 
adversely affect America's security, safety, economy, or environment. 
Does MDA provide intelligence and information for law enforcement 
efforts to protect our ports? What are the Coast Guard's MDA efforts 
that demonstrate how the different initiatives under MDA enhance port 
and vessel security?

    ANSWER:
    MDA, an effective understanding of anything associated with global 
Maritime Domain that could impact the security, safety, economy, or 
environment of the United States, is a critical element of the Coast 
Guard's maritime security strategy. The Coast Guard has a number of 
efforts implemented and in progress designed to improve the effective 
understanding of the maritime environment to support operational 
commanders in targeting operational assets toward identified potential 
threats. These efforts involve:

    Improved partnering between federal state, local agencies and 
maritime industry - The Coast Guard leads and coordinates Area Maritime 
Security Committees in all major ports. In some ports, the Coast Guard 
already hosts or participates in interagency command centers; a concept 
of operations being considered for expansion. Additionally, the Coast 
Guard is designing technologies that will improve partnering efforts 
such as a web client that will share the Coast Guard's Common 
Operational Picture with other waterborne agencies as well as make 
other important information available to industry, and ``blue force'' 
asset tracking that will allow all enforcement vessels to be aware of 
each others location and to be tracked by the local command center.

    Long Range Vessel Tracking - The Coast Guard is pursing several 
initiatives to ensure we are able to track vessels that are more than 
24 miles from U.S. shores. These include developing a universal 
reporting requirement through the International Maritime Organization, 
agreements made directly with other seagoing nations regarding vessels 
registered within their states, obtaining intelligence and other 
information from the Department of Defense (DOD) and the national 
intelligence community, and working with DOD to explore and support new 
technologies that would provide improved capabilities. Additionally, we 
have contracted for a satellite to be launched in late 2006 that will 
carry an AIS (Automatic Identification System) receiver which will 
allow the Coast Guard to monitor the positions of cooperating major 
cargo vessels in both the Atlantic and Pacific oceans. The Coast Guard 
has also deployed AIS receivers on oil platforms in the Gulf of Mexico, 
contracted receipt of AIS data from vessel operations from the Aleutian 
Islands, and are deploying AIS receivers on offshore National Oceanic 
and Atmospheric Administration data buoys to enhance long range 
tracking capabilities.

    Short Range Vessel Tracking - The Hawkeye port sensors and 
operations test bed that the Coast Guard is operating in Miami in 
conjunction with the Department of Homeland Security's Science and 
Technology directorate is one example of the progress made with short 
range tracking. Information gained through this prototype effort is 
being applied to improve operations at the 11 ports where existing 
surveillance capabilities exist including Vessel Traffic Systems, and 
to develop standards and criteria for implementation of surveillance in 
other port and coastal areas. Additionally, the Coast Guard has 
deployed AIS capabilities enabling the monitoring 70% of compliant 
vessels on international voyages. To further leverage AIS technology, 
the Coast Guard has initiated a major systems acquisition, the 
Nationwide AIS project, to install capabilities to monitor 100% of the 
nation's navigable waterways, transform the supporting infrastructure 
from a patchwork of ad hoc connections to a reliable network, and to 
add historic and enforcement information to vessel tracks before 
displaying them in the Common Operational Picture. The Coast Guard's 
fiscal year 2006 budget requests $29.1 million to continue deployment 
of the Nationwide AIS system.

    Information Fusion - The Coast Guard has several efforts underway 
to improve our ability to correlate information from various dispersed 
data bases and across levels of security. These include improvements to 
automated features that are a part of our Common Operational Picture, a 
cooperative effort with the states to allow enforcement officials 
access to recreational vessel registration information, and a multi-
year effort with the Naval Research Lab to automate an number of 
laborious and time consuming analytical functions.

    Intelligence - The Coast Guard and Navy continue to build an 
effective joint intelligence partnership to enhance maritime domain 
awareness. The Coast Guard's Intelligence Coordination Center (ICC) is 
co-located with the Office of Naval Intelligence, which comprises the 
National Maritime Intelligence Center. The ICC's COASTWATCH gathers and 
analyzes information on ship notice of arrival reports on vessels, 
people, and certain dangerous cargoes approaching U.S. ports. 
Additionally, the Coast Guard operates Maritime Intelligence Fusion 
Centers under each Area Commander, providing actionable intelligence to 
operational commanders and agency partners. Field Intelligence Support 
Teams operate in 29 U.S. ports and have increased the collection and 
reporting of intelligence and information. Through its Coast Guard 
Investigative Service branch, the Coast Guard Intelligence Program 
participates in Joint Terrorism Task Forces, Organized Crime Drug 
Enforcement Task Forces, and joint agency operations to share 
intelligence information with other local and federal agencies.

    These Maritime Domain Awareness initiatives will allow the Coast 
Guard to better screen the people, cargo and vessels operating in the 
maritime domain and to discern the legitimate from the illegal owners/
operators of vessels. It will also give us the ability to detect, and 
interdict suspected targets further from our shores, reducing America's 
maritime risk.

              EFFICIENCIES GAINED RELATED TO CUSTOMS LAWS

    QUESTION:
    What efficiencies have been gained by the Coast Guard in the 
performance of your duties relating to Customs laws since the standup 
of the Department of Homeland Security? How does the Coast Guard work 
with law enforcement agencies outside of the Department of Homeland 
Security to protect the ports and vessels?

    ANSWER:
    The Coast Guard, U.S. Immigration and Customs Enforcement (ICE), 
and the U.S. Customs and Border Protection (CBP) are improving law 
enforcement in the port through a variety of coordination initiatives. 
Officers of the Coast Guard, ICE, and CBP are all ``customs officers'' 
pursuant to the Tariff Act of 1930 and, as such, share unique search, 
seizure, and arrest authorities that enhance cooperative efforts. CBP's 
border search authority, combined with the authority of customs 
officers to carry firearms and to make warrantless arrests for any 
federal violation occurring in their presence, vests customs officers 
with the broadest law enforcement authority in the United States. 
Moreover, customs officers are authorized to stop vehicles, and board 
vessels and aircraft without a warrant to perform customs inquiries and 
border searches. ICE special agents also have the authority to seek and 
obtain search warrants, court orders authorizing the interception of 
communications, administrative summonses, and are authorized to conduct 
undercover investigative operations in the enforcement of law. Any 
merchandise or conveyance involved in a customs violation is generally 
subject to civil forfeiture and may be seized by customs officers 
without a warrant. Cooperative vessel arrival screening, joint boarding 
and investigations, coordinated cargo screening, and aerial patrol 
scheduling are examples of activities that create efficiency and 
effectiveness.

    Since the stand up of the Department of Homeland Security, the 
Coast Guard has established 43 Area Maritime Security Committees, which 
serves as the primary mechanisms for government agency security 
cooperation and coordination in America's ports. Each committee is 
comprised of Federal, State, and local agencies, law enforcement and 
security agencies, and other key port stakeholders. The committees 
develop and maintain local area maritime security plans, which provide 
a framework for communication and coordination amongst all of the 
appropriate federal, state, and local law enforcement agencies to carry 
out port security missions.

    Coast Guard Operational Commanders also coordinate Ports, 
Waterways, and Coastal Security (PWCS) law enforcement operations 
afloat and ashore, to the greatest extent possible, with appropriate 
international, federal, state, and local authorities. If a potential 
PWCS threat or incident appears to exceed the capability of available 
Coast Guard resources, the Coast Guard seeks assistance from 
appropriate services and agencies. In 46 U.S.C. 70119, Congress 
explicitly authorized any State or local government law enforcement 
officer who has authority to enforce State criminal laws to make an 
arrest for violation of a security zone regulation under the Magnuson 
Act, or a security or safety zone regulation under section 7(b) of the 
Ports and Waterways Safety Act, or a safety zone regulation prescribed 
under section 10(d) of the Deepwater Port Act of 1974 by a Coast Guard 
official authorized by law to prescribe such regulations if: (1) such a 
violation is a felony; and (2) the officer has reasonable grounds to 
believe that the person to be arrested has committed or is committing 
such violation. This authority has helped the Coast Guard leverage the 
capabilities and willingness of State law enforcement partners in order 
to help augment our collective presence within and around security 
zones.

                       ADEQUATE LEGAL AUTHORITY?

    QUESTION:
    Does the Coast Guard have adequate legal authority to provide the 
necessary security in our ports?

    ANSWER:
    Yes. The Coast Guard has the necessary legal authorities to ensure 
the security of our nation's ports and waterways. We are constantly 
examining our authorities, and when it is determined that changes are 
necessary in order to meet our maritime security responsibilities they 
will be proposed as part of new legislation.

                 ADEQUATE NBC WEAPONS TESTING EQUIPMENT

    QUESTION:
    Does the Coast Guard have adequate equipment to inspect cargo for 
nuclear, biological, or chemical weapons at sea? Does such mobile 
inspection equipment even exist? If so, how much does the equipment 
cost? How difficult would it be to have the Coast Guard inspect vessels 
at sea?

    ANSWER:
    The Coast Guard (CG) has deployed varying levels of equipment to 
aid in the detection of nuclear, biological, and chemical weapons. Each 
of these threats is unique and the capabilities to detect them vary 
according to the threat. Below is a summary of CG capabilities:

    Rad/Nuc - The CG has some capability to detect, localize, 
characterize and identify radioactive/nuclear (Rad/Nuc) materials 
through the use of personnel portable search tools. The current CG 
program is summarized below:
        <bullet>  CG policy and procedures have been developed to 
        provide guidance for conducting operations involving the 
        detection of radiological and nuclear materials.
        <bullet>  Designed around the concept that during the course of 
        conducting traditional missions, Maritime Inspectors and 
        Boarding Team members wearing Personal Radiation Detectors 
        (PRDs) may discover the presence of a radiation source.
        <bullet>  Certain trained members may further investigate by 
        using hand-held isotope ``Identifinders'' to rapidly assess and 
        classify the source. Information gained is transmitted to the 
        U.S. Customs and Border Protection's Laboratory and Scientific 
        Services to ensure proper diagnosis. If doubt still exists, 
        Department of Energy Radiological Assistance Program teams are 
        called to assist.
        <bullet>  When intelligence indicates an elevated threat, the 
        Coast Guard has the ability to conduct wide area searches using 
        RadPacks - radiation sensors, larger than the PRD, with 
        increased sensitivity and range - carried in a backpack worn by 
        a boarding team member. RadPacks decrease the time needed to 
        search large ships.
        <bullet>  The Coast Guard's Radiation Detection Program 
        increases our organic capability and is specifically designed 
        for the maritime interdiction of radiological and nuclear 
        materials.
        <bullet>  1300 PRDs ($2,650 each), 250 Identifinders ($16,955 
        each), and 38 RadPacks ($30,100 each) have been distributed to 
        the field.

    Chemical - Current technology precludes detection of chemical or 
biological threats prior to release. CG capability to detect chemical 
threats is limited to post-release detection with portable equipment.
        <bullet>  Personnel Protective Equipment (PPE) provided to 
        Maritime Inspectors and Boarding Team members includes 
        GasAlertClips (detects oxygen deficient environments), 
        GasAlertMicro (gas monitor tests for oxygen, carbon monoxide, 
        hydrogen sulfide and lower explosion limit), and Hazmat Strips 
        (alerts crews to potential presence of weapons of mass 
        destruction agents).
        <bullet>  National Strike Force units possess various portable 
        chemical detection instruments for air, liquids, and solids and 
        the ability to respond to most chemical incidents (with 
        appropriate PPE).

    Biological - Available technology precludes detecting Biological 
threats prior to release. CG Strike Teams are equipped with the 
necessary PPE to operate in a contaminated environment.

    Future Plans:
        <bullet>  The CG will continue to develop long-range, standoff 
        radiation detection capabilities through research and 
        development efforts coordinated with interagency partners.
        <bullet>  Fielding additional radiation detection equipment 
        (identifinders and backpacks) in Fiscal Year 2005, with funds 
        appropriated in prior years..
        <bullet>  Implement a maintenance and logistics support plan to 
        support field personnel.
        <bullet>  As part of the DHS Domestic Nuclear Detection Office 
        proposal, the CG's 2006 budget request includes an additional 
        $7 million for improved Rad/Nuc detection capabilities, 
        including:
                <bullet>  Enhanced Rad/Nuc detection & response 
                capability for Coast Guard Strike Teams, E-MSST 
                (Chesapeake), and MSSTs (San Diego and New Orleans).
                <bullet>  Equipping our 378-foot and 270-foot cutters 
                with Specific Emitter Identification (SEI) equipment - 
                improving vessel detection and identification 
                capability.
        <bullet>  The Department of Homeland Security recently approved 
        the revised the mission needs statement of CG Deepwater 
        recapitalization project to provide for Chemical, Biological, 
        Radiological, and Nuclear Equipment (CBRNE) capabilities among 
        all our aircraft and major cutters. The reality of this change 
        will begin in 2007 with the delivery of the first National 
        Security Cutter equipped with stand-off detection capability 
        and capable of operating for extended periods of time in 
        contaminated environments.

                 DELEGATING AUTHORITY TO OTHER AGENCIES

    QUESTION:
    Is it possible to delegate some of your responsibilities and duties 
to other government agencies, especially at the state and local level, 
or perhaps even private agencies? Does C-TPAT effect the Coast Guard's 
delegation of responsibilities and duties?

    ANSWER:
    No. The Coast Guard has a mandatory duty, pursuant to 14 U.S.C. 
Sec.  2, to carry out law enforcement and assistance duties and, among 
other things, to promulgate and enforce regulations for the promotion 
of safety of life and property at sea. Thus, the transfer of Coast 
Guard ``responsibilities and duties'' to other federal agencies (or 
private entities), as a general proposition, is not consistent with 
federal law.

    Pursuant to 14 U.S.C. Sec.  141(b), the Coast Guard has authority 
to request and receive law enforcement assistance from other government 
agencies under certain circumstances. However, the Coast Guard's law 
enforcement authority cannot be transferred to, or used by, an 
assisting entity. Accordingly, each entity providing assistance must do 
so within the bounds imposed by relevant federal law, and the entity's 
own legal authority and policy, which in certain circumstances may 
permit the assisting agency to enforce federal law. For example, in 
implementation of merchant mariner credentialing program, the Coast 
Guard is working with the Transportation Security Administration for 
interoperability between the Transportation Worker Identification 
Credential program and the merchant mariner credentialing.

    The President, pursuant to the Magnuson Act and 33 C.F.R. Sec.  
6.04-11, authorized Coast Guard Captains of the Port (COTP) to enlist 
the aid and cooperation of federal, state, county, municipal, and 
private entities to assist in the enforcement of regulations issued 
pursuant to 33 C.F.R. Part 6. A request for assistance under 14 U.S.C. 
Sec.  141(b) or 33 C.F.R. Sec.  6.04-11, and the acceptance of it, have 
no effect on the assisting entity's existing law enforcement powers. In 
other words, the assisting entity's organic legal authority and policy 
will dictate the scope of assistance it may provide. No law enforcement 
power is implied with, or derived from, the request for assistance from 
the Coast Guard.

    The Customs-Trade Partnership Against Terrorism (C-TPAT) is an 
initiative focused on self-security (by private firms) of the 
commercial supply chain. This initiative does not afford a legal basis 
for the Coast Guard to delegate any authority, function or 
responsibility to any other federal agency or non-federal entity.

               CROSS TRAINING WITH INTERNATIONAL AGENCIES

    QUESTION:
    Are you currently involved in any cross-agency training or training 
of international agencies with similar missions? Do you think it would 
be beneficial to send Coast Guard personnel overseas (and to other 
agencies within the United States) to assist in training?

    ANSWER:
    The Coast Guard's International Port Security Program (IPSP) 
participates with the Maritime Administration in providing IPSP 
Training to Latin American nations through the auspices of the 
Organization of American States. In addition, the program participates 
with the Transportation Security Administration in the Asia Pacific 
Economic Cooperation Forum in a similar fashion. IPSP Program personnel 
have also acted as instructors at International Maritime Organization 
(IMO) regional training sessions, and are investigating whether or not 
participation in the Secretariat of Pacific Countries (a regional body 
involving the small independent Pacific Islands) is feasible. The 
program is working with the U.S. Trade Development Agency to identify 
potential training for countries in Africa. This training is beneficial 
to maritime security worldwide and should be continued.

    Furthermore, while not strictly training per se, the Coast Guard 
provides technical expertise in port security to U.S. Customs and 
Border Protection (CBP) in the Container Security Initiative port 
assessments, the Department of Energy in their Proliferation Security 
Initiative port assessments, and the Department of State in their 
Maritime Needs Assessments.

                       AUTHORITY TO BOARD VESSELS

    QUESTION:
    Can the Coast Guard board a vessel and do an inspection or do you 
first need some kind of indication of an illegal activity? What kind of 
factors indicating illegal activity are necessary before you may board 
a vessel at sea and do an inspection? In light of 9/11 and increased 
terrorist threat, do you feel at all burdened by this standard?

    ANSWER:
    No indications of illegal activity are necessary for a Coast Guard 
boarding because 14 U.S.C. Sec.  89 \1\ permits, inter alia, Coast 
Guard ``commissioned, warrant, and petty officers . . . at any time 
[to] go on board . . . any vessel subject to the jurisdiction or to the 
operation of any law, of the United States.''
---------------------------------------------------------------------------
    \1\ 14 USC Sec. 89 is the principal source of Coast Guard maritime 
law enforcement authority

---------------------------------------------------------------------------
It provides:

      A. The Coast Guard may make inquiries, examinations, 
      inspections, searches, seizures, and arrests upon the high 
      seas and waters over which the United States has 
      jurisdiction, for the prevention, detection, and 
      suppression of violations of laws of the United States. For 
      such purposes, commissioned, warrant, and petty officers 
      may at any time go on board of any vessel subject to the 
      jurisdiction or to the operation of any law of the United 
      States, address inquiries to those on board, examine the 
      ship's documents and papers, and examine, inspect, and 
      search the vessel, and use all necessary force to compel 
      compliance. When from such inquiries, examination, 
      inspection, or search it appears that a breach of the laws 
      of the United States rendering a person liable to arrest is 
      being, or has been committed, by any person, such person 
      shall be arrested or, if escaping to shore, shall be 
      immediately pursued and arrested on shore, or other lawful 
      and appropriate action shall be taken; or, if it shall 
      appear that a breach of the laws of the United States has 
      been committed so as to render such vessel, or the 
      merchandise, or any part thereof, on board of, or brought 
      into the United States by, such vessel, liable to 
      forfeiture, or so as to render such vessel liable to a fine 
      or penalty, and if necessary to secure such fine or 
      penalty, such vessel or such merchandise, or both, shall be 
      seized.

      B. The officers of the Coast Guard insofar as they are 
      engaged, pursuant to the authority contained in this 
      section, in enforcing any law of the United States shall:

      (1) Be deemed to be acting as agents of the particular 
      executive department or independent establishment charged 
      with the administration of the particular law; and

      (2) Be subject to all the rules and regulations promulgated 
      by such department or independent establishment with 
      respect to the enforcement of that law

      C. The provisions of this section are in addition to any 
      powers conferred by law.

             SECURING OUR PORTS WITHOUT INCREASING FUNDING

    QUESTION:
    What are some ways you can secure our ports and cargo without an 
increase in funding or personnel?
        (a) What about the creation of joint task forces to prevent 
        duplication of responsibilities and duties by other agencies?
        (b) What about delegating responsibilities and duties to other 
        agencies, including local, state, and other federal agencies, 
        or even private companies?

    ANSWER:
    (a) The Coast Guard maximizes the effectiveness of its operational 
efforts through a risk-based approach to identify and intercept threats 
before they reach U.S. shores; through layered, multi-agency security 
operations nationwide, and through partnership with port officials and 
the private sector. The Coast Guard is employing this risk-based 
approach, including the emphasis on close coordination with other 
agencies and stakeholders, at the international, national, regional, 
and local level. These partnerships include maritime industry 
organizations, such as the International Council of Cruise Lines, the 
Passenger Vessel Association, and the American Waterways Operators. The 
Coast Guard also has a maritime community watch program called Americas 
Waterway Watch (AWW) designed to help citizens report suspicious 
activities. While personnel and other costs are incurred in 
establishing and maintaining AWW and the various other agency and 
industry partnerships, the resource demands are small relative to the 
benefits gained.
    The Coast Guard also coordinates public and private maritime 
security efforts through Coast Guard led port-level Area Maritime 
Security (AMS) Committees. These Committees provide a forum for 
bringing the perspectives and capabilities of member organizations 
together to ensure that risks are identified, prioritized, and 
addressed while continuing to facilitate the safe and efficient flow of 
commerce. The primary purpose of AMS Committees is to develop an AMS 
Plan that will serve as a framework for communication and coordination 
among port stakeholders. These committees support formal coordination 
arrangements, such as the Joint Terrorism Task Forces developed and led 
by the Federal Bureau of Investigation. The committees also provide an 
avenue to organize task forces to conduct security related missions 
such as joint vessel boardings and other operations.
    (b) The Coast Guard, as the lead Department of Homeland Security 
agency for maritime security, shares many port security 
responsibilities and duties with other federal, state and local law 
enforcement agencies as well as public and private stakeholders. This 
is consistent with the Maritime Transportation Security Act of 2002 
(P.L. 107-295) which places primary responsibility for protection of 
privately owned port infrastructure on the owner/operator and requires 
owners of regulated vessels and facilities to conduct vulnerability 
assessments and produce individual security plans. Some private 
companies are hiring professional security services to assist with plan 
development, access control, security patrols and physical protection 
services. These responsibilities and duties are outlined in the AMS 
plan and coordinated through specific sub-committees of the AMS 
Committee. Further, the Coast Guard has agreements with a number of 
states detailing how each party will support the other's maritime law 
enforcement missions, including state and local enforcement of Coast 
Guard established safety and security zones. While the Coast Guard 
cooperates on port security with others as appropriate, the Coast Guard 
is not authorized to delegate its responsibilities, duties, or law 
enforcement authority to any other individual or organization, whether 
governmental or private.

                    TOP 3 CARGO SECURITY PRIORITIES

    QUESTION:
    Please list your top three priorities in securing our ports and 
cargo? Can you envision a way to accomplish these priorities in 
securing our ports and cargo? Can you envision a way to accomplish 
these priorities without additional funding or personnel?

    ANSWER:
    The top three priorities in securing America's ports and cargo are 
improving threat identification, reducing the vulnerability to 
terrorist acts, and mitigating the potential consequences of an actual 
terrorist incident.
    The Coast Guard has taken, and continues to take action to address 
these priorities and further our collective national security 
interests. Through the provisions of the Maritime Transportation 
Security Act, the commencement of critical security programs such as 
Maritime Domain Awareness and the Integrated Deepwater System, and 
implementation of the Coast Guard's maritime security strategy, 
America's ports and cargo are becoming less vulnerable to acts of 
terrorism. Continued investment in these programs through full support 
of the Coast Guard's fiscal year 2006 budget, and strong interagency 
cooperation to further these efforts is critical for their success.
    The Coast Guard maximizes the effectiveness of its operational 
efforts and existing resources through a risk-based approach to 
identify and intercept threats before they reach U.S. shores; through 
layered, multi-agency security operations nationwide, and through 
partnership with port officials and the private sector. These 
partnerships include maritime industry organizations, such as the 
International Council of Cruise Lines, the Passenger Vessel 
Association, and the American Waterways Operators. The Coast Guard also 
has a maritime community watch program called America's Waterway Watch 
(AWW) designed to help citizens report suspicious activities.
    The Coast Guard also coordinates public and private maritime 
security efforts through Coast Guard led port-level Area Maritime 
Security (AMS) Committees. These Committees provide a forum for 
bringing the perspectives and capabilities of these organizations 
together to ensure that risks are identified, prioritized, and 
addressed while continuing to facilitate the safe and efficient flow of 
commerce.
    While personnel and other costs are incurred in establishing and 
maintaining AWW, AMS Committees, and the various other agency and 
industry partnerships, the resource demands are small relative to the 
benefits gained.
    The Coast Guard continues to guide its efforts by implementing 
policies, seeking resources, and deploying capabilities through the 
lens of our maritime security strategy. However, continued risk 
reduction to America's ports and cargo is contingent upon Coast Guard 
readiness and capacity. Without these building blocks, implementation 
of maritime security strategies will not be sustainable.

                              ----------                              

Response to Questions for the Record submitted by Peter Scrobe, Member 
                of International Cargo Security Council
    1.)   Yes, through education and training programs, specifically 
with the US Merchant Marine Academy (USMMA) - Global Maritime 
Transportation School (GMATS) and various seminars.

    2.)   The ICSC through seminars, conferences, and training w/USMMA 
GMATS.

    3.)   It varies based on industry groups and requirements 
associated therewith. Many believe we are headed in the proper 
direction, but much more needs to be accomplished.

    4.)   Enhancing the CSI program and continuing to push our borders 
overseas. Also, there is need to utilize existing technology (such as 
VACIS type) and other similar type equipment. Better allocation of 
resources and funding thereof. Incorporate risk management approach 
with minimum standards included.

    5.)   It is believed that among ``friendly'' nations, there is a 
mutual cooperation to provide necessary security, but still requires 
our (US) presence. On the private sector side, the ICSC has recently 
opened a European Chapter which appears to be growing steadily.

    6.)   Again, there is a need for the US to continue pushing out our 
borders. Continue to work on processes and phase in technology for 
support (more than one form of technology may provide the necessary 
requirements).

    7.)   The potential of a WME. There is, in my opinion, the need for 
constant vigilance and all parties pertaining to the Supply Chain 
continuing to focus on and upgrade security. This question should also 
be addressed, in more detail, by members of the Carriers and Port/
Terminal personnel.

    8.)   We believe it has brought a greater awareness to all parties 
in the ``Supply Chain''. The C-TPAT document should continue to be 
strengthened to further enhance the process.

    9.)   Original figures in the early '90's, ranged from $3-10 
billion in losses domestically and has steadily increased to the 
numbers indicated today. There have been studies completed by the FBI, 
Rand Group (for the hi-tech industry - o/o/a 1995) and the FIA Study 
(2000 - funded by NCSC and Brown & Williamson) which assisted in, in 
part, to qualify the numbers. There must be a data base to record cargo 
crime to better get a true handle on the severity, where the losses are 
occurring, the type product(s) being stolen and the ability to properly 
allocate resources (funding as well as manpower).

    10.)   Clearance by being C-TPAT certified, unfortunately, doesn't 
control port and terminal congestion. Although it may allow for 
document clearance, it doesn't get the shipment ``out the door'' any 
quicker.

    11.)   A Multi Jurisdictional Task Force (MJTF) is one that is made 
up of various law enforcement personnel, such as the TOMCATS of Miami, 
FL. The TOMCATS, MJTF consists of: Miami Dade, FBI, C&BP, FDLE, DEA, 
etc. and is headed by Lt. Edward Petow of the Miami-Dade Police Dept. 
It provides for greater cooperation, sharing of information, and the 
ability to respond to any situations that might arise. In addition, 
this group offers educational programs within the state of FL., as well 
as to other law enforcement agencies throughout the country and has 
been attended by overseas law agencies, too. The TOMCATS are thought 
of, by numerous individuals, including this writer, the template for 
establishing a MJTF.

    12.)   The Tallahassee Summit was held for the second year, by 
Sheriff Ed Dean, and attended by Gov. J. Bush, local and state 
officials and, as well, by the private sector, government and law 
enforcement sectors from around the country. At that Summit, there was 
a ``National Security White Paper'' drafted and approved by all that 
attended. Please advise if you need a copy of this document.

    13.)   It is, in my opinion, that an increase in spending for 
enhanced security is unavoidable.

        1.   a Multi Jurisdictional Task Force will supplement those 
        agencies already working.
        2.   it is possible, in my opinion, provided the 
        responsibilities are spelled out. There will, most likely, be 
        costs associated therewith.

    14.)   A.

        1.   continue expanding our borders.
        2.   better allocation of existing resources (including 
        funding) and technology, such as (x-ray type equipment), etc.
        3.   better communication and sharing of data amongst law 
        enforcement, government and the private sector.
        B.   No, in my opinion, there is always a cost associated with 
        any measures/equipment to be implemented, however, with better 
        sharing of data and resources, the allocation of necessary 
        resources would save time, cost overruns and duplication.

    15.)   To my basic knowledge and understanding of VACIS type 
equipment - no.

    16.)   To my understanding, through CSI, shipments are recorded and 
the container information and units are checked as they go on board. If 
there are any additional inventories performed on board, I would 
recommend contacting port/terminal and/or carrier personnel for 
additional details.

                              ----------                              

 Response to Questions for the Record submitted by Jeff Keever, Deputy 
              Executive Director, Virginia Port Authority
    1)   In your testimony you mention that ``in 2003, the Bureau of 
Economic Statistics reported that The Port of Virginia plays a part in 
over 180,000 jobs, with salary and wages in excess of $5 billion.'' 
Understanding the importance our Ports play in our economy, what do you 
believe would be the effect on our economy if one of our ports suffered 
a terrorist attack? Would it be a local effect or national effect?

    A:   The effect on our economy of a terrorist attack on one of our 
ports would depend on five factors: the specific port that was 
attacked, the nature of the attack, the government response to the 
attack, the shipping industry response to the attack, and the public 
reaction to the attack.

        <bullet>   The specific port that was attacked. Obviously an 
        attack on a major port will have greater impact on the nation's 
        economy than an attack on a minor port. If the port that was 
        attacked primarily serves a regional market, the direct 
        economic impact will be largely limited to that region.

        <bullet>   The direct consequences of the attack. This could 
        vary widely, in both scope and duration of the consequences. 
        The worst case would be an attack with a nuclear weapon, which 
        could result in the loss of a port for years. But even an 
        attack that did not use any type of weapon of mass destruction 
        could close a port entirely for weeks to months, such as by 
        sinking a large vessel or dropping a bridge span to block a 
        shipping channel. An attack on a large oil terminal or other 
        large petrochemical facility could cause significant damage and 
        economic loss. Terrorists might also attack a port facility in 
        order to cause mass casualties in the surrounding community 
        through release of a large quantity of hazardous chemicals. But 
        terrorist attacks on many other types of port facilities would 
        not cause catastrophic consequences.

        <bullet>   The government response to the attack. If the 
        Federal government were to react to an attack on a port in the 
        same way it reacted to the 9/11 attacks - that is, by shutting 
        down all U.S. ports until the government could verify that no 
        other ports were threatened - the loss to the American economy 
        would be devastating. The economic loss resulting from the 
        Federal government closing all ports in response to an attack 
        would be orders of magnitude greater than the direct economic 
        loss resulting from the attack itself. Clearly, Federal policy 
        should be to minimize the impact of a single attack on the rest 
        of the maritime transportation system and thus minimize the 
        economic damage resulting from Federal policy.

        The same phenomenon could happen on a smaller scale within a 
        port if an attack on a single facility were to result in the 
        Coast Guard shutting down the entire port. In a large port the 
        overall economic loss from closing the entire port would be 
        much greater than the direct economic impact of the attack on a 
        single facility.

        The manner in which state and local agencies respond to an 
        attack on a port can also impact the resulting economic loss if 
        they impede rapid recovery from the incident. Minimizing the 
        impact of an attack on a port - thus denying terrorists the 
        satisfaction of causing widespread, lasting economic loss - 
        requires a concerted effort by government agencies at all 
        levels, working in close partnership with the maritime 
        industry, to rapidly restore normal operations in the affected 
        port.

        <bullet>   The shipping industry response to the attack. The 
        shipping industry's goal is to keep cargo moving as 
        expeditiously as possible. In an era of just in time delivery, 
        their customers demand no less. If a port suffers an attack, 
        they will divert cargo to other ports. At a minimum, this will 
        cause loss to the economy of the effected port. But it could 
        cause wider loss if the diversion of cargo causes delivery 
        delays and backlogs at other ports. The worst case would be if 
        an attack on a single facility in a port causes a loss of 
        confidence in the security of all the other facilities in that 
        port, causing shipping to be needlessly diverted to other 
        ports.

        <bullet>   The public reaction to the attack. If a terrorist 
        attack on a port were to result in significant loss of life in 
        the surrounding community, the public and their elected 
        officials could well demand assurances of protection against 
        further attacks that would be difficult to meet. This could 
        delay recovery from the attack and cause broad disruption of 
        maritime transportation should such public concerns become a 
        national issue.

    2)   Your written testimony states that ``the Port Authority 
Police, sworn law enforcement officers of the Commonwealth of Virginia, 
have been highly effective at preventing crime on VPA's three marine 
terminals.'' What is the law enforcement function in securing ports?

    A:   The law enforcement function in securing ports is similar to 
the role of law enforcement in homeland security in general: to deter, 
detect, prevent and respond to terrorist attacks. They ensure that only 
authorized individuals enter the terminals, and prevent theft or 
pilferage of shipping containers and other criminal acts on the 
terminals. They provide security procedure and threat awareness 
training to all persons working on the terminals. They maintain 
compliance with the Coast Guard Maritime Security Condition (MARSEC) 
currently in force. Although many of the functions could be performed 
by security personnel who are not sworn law enforcement officers, there 
is an inherent advantage to having a dedicated police force serving the 
port authority. Sworn law enforcement officers have much greater 
authority to control movement and behavior of persons on the terminals, 
including as a last resort use of force (in compliance with 
Commonwealth of Virginia policies on use of force by state law 
enforcement agencies).

    3)   According to your testimony, ``Although CBP is responsible for 
implementing US-VISIT, CBP will require support from Port Authority 
Police . . .'' Could you explain the type of support the police will 
provide?

    A:   First and most importantly, the Port Authority Police deny 
terrorists opportunities to circumvent U.S. Customs and Border 
Protection (CBP) immigration control procedures. That is, they prevent 
individuals from departing vessels via the terminals unless they have 
been properly cleared by CBP. This is a critically important function 
that every port facility must carry out because CBP does not have 
sufficient agents to post a 24-hour guard around all of the ships that 
call in U.S. ports every day. This is an excellent example of the 
manner in which the port industry has been compelled by the Maritime 
Transportation Security Act (MTSA) to perform a wide range of functions 
to protect the nation as a whole from terrorist attacks.

    The Port Authority Police also provide logistical and 
administrative support to CBP, including office space and parking on 
the terminals. CBP has not yet informed the port industry of the 
details on how US-VISIT will be implemented at the thousands of port 
facilities that receive vessels from overseas, but it undoubtedly will 
impact port facilities in some way and certainly will not relieve them 
of their responsibility for preventing individuals on ships arriving 
from overseas from CBP immigration control procedures.

    4)   Where is the Port of Virginia in its implementation of its 
upgrades to comply with Federal SAFECOM interoperability standards? 
Please explain the importance of interoperability to port security.

    A:   The Port of Virginia is still in the early planning stages of 
upgrading its communications system. It is our intent to request a 
Round Five Port Security Grant to fund this upgrade, which will be 
costly and thus beyond out means to accomplish in a timely manner.

    VPA priorities for enhancing its security program have been driven 
by the overriding requirement to achieve and maintain compliance with 
MTSA and the Coast Guard Maritime Facility Security Regulations (33 
CFR, Chapter 1, Subchapter H, Part 105). Neither MTSA nor the Coast 
Guard Maritime Facility Security Regulations require compliance with 
SAFECOM, which was launched more recently and had not produced 
authoritative, comprehensive standards that could be acted upon prior 
to 2005.

    VPA has identified a need to upgrade its aging communications 
system, which is hard pressed to meet the greatly increased Port 
Authority Police communications requirements resulting from MTSA and 
the Coast Guard Maritime Facility Security Regulations. One of the 
priority requirements in planning for the communications system upgrade 
is to enhance interoperability with the Federal, state and local 
agencies with whom the Port Authority Police work on a daily basis and 
in emergencies. To achieve that, we are closely following the strategic 
plan and interoperability standards being developed by the Virginia's 
Commonwealth Interoperability Coordinator and the opportunities to 
integrate Port Authority Police communications into the Statewide 
Agencies Radio System (STARS), led by the Virginia State Police. Both 
of these Commonwealth of Virginia programs are guided by SAFECOM, which 
will ensure that the Port Authority Police attain the required level of 
interoperability with Federal and local agencies as well.

    5)   Please describe the cooperative security efforts the VPA uses 
to ensure that the stream of commerce is not unduly interrupted.

    A: There are many cooperative efforts that contribute to enhancing 
security without unduly impeding the flow of commerce:

        <bullet>   Providing office space on the terminals for CBP 
        agents.
        <bullet>   Operating radiation portals that in other ports are 
        operated by CBP and sharing specialized radiation detection 
        equipment with CBP.
        <bullet>   Briefing arriving vessels on VPA security 
        procedures.
        <bullet>   Providing training on VPA security procedures to 
        persons requiring access to VPA terminals.
        <bullet>   Designing entry and exit control procedures to avoid 
        traffic backups at terminal gates.

    Many of these examples may appear to be small matters, but 
collectively they make a big difference in the flow of commerce.

    As I stated in my testimony, some of the most serious impediments 
to the flow of commerce are caused by the inadequate resources provided 
to CBP and the Coast Guard to accomplish their missions. This results 
in vessels being delayed entering port while they await Coast Guard 
boarding and inspection, and containers piling up on the terminals 
while they await CBP inspection. Such delays are costly for shippers 
and their customers, and ultimately represent a drain on the American 
economy. No one questions the need for such security measures, but the 
agencies that execute them must have the resources they need to carry 
them out without impeding commerce.

    6)   Does your office regularly interact and share information 
about shippers and cargo with other port authorities?

    A:   The Port Authority Police does not have jurisdiction over 
cargo other than its responsibility to prevent theft and pilferage 
while it is on the terminals. CBP is responsible for preventing 
contraband from being smuggled into the country and would be the agency 
responsible for sharing law enforcement information related to shippers 
and cargo with other agencies.

    If the Port Authority Police have suspicions about a shipment, or 
are informed of anything suspicious about a shipment by an individual 
working on a terminal, after securing the area, they notify CBP. This 
has actually happened and in at least one case that we know of resulted 
in CBP intercepting a shipment of illegal drugs. It would be CBP's 
responsibility to share information related to that incident with other 
port authorities. The Port Authority Police would not do this because 
they do not have the comprehensive information gathered by CBP and U.S. 
Immigration and Customs Enforcement in their investigation of the 
suspect shipment.

    7)   You said in your testimony on page 5, ``VPA's guiding 
principle for security is that a state port authority has a higher 
level of responsibility than a private port facility operator,'' how 
so? What kind of effect would increasing a private port facility 
operator's responsibilities have on the private port in terms of cost? 
Is it possible to increase the private port facility operator's 
responsibilities without increasing funding to that private port 
facility?

    A:   A state port authority has a higher level of responsibility 
than a private port facility operator because a state port authority is 
accountable to the citizens of the state and their elected officials 
for protecting their investment in the port and meeting their 
expectations for the port's performance. That means ensuring that the 
port contributes to the state's economy through robust growth in its 
port business and striving for maximum efficiency and productivity. It 
also means having an effective security program, both to protect the 
lives of the state's citizens and to prevent a terrorist incident from 
interfering with commerce through the port. Very importantly, it means 
striking a careful balance between growth and productivity on the one 
hand and security on the other. Neither can be pursued at the expense 
of the other - the citizens for whom the port authority is a public 
servant deserve no less.

    Increasing a private port facility operator's responsibilities 
would, at a minimum, increase the cost of that facility's security 
program. The amount of that increase would depend on the nature of the 
increased responsibilities. It could also impede the flow of cargo 
through a terminal, thus reducing that terminal's productivity and 
competitiveness. It could cause problems with labor relations if a 
private company is tasked to perform quasi-governmental or quasi-law 
enforcement functions with questionable statutory authority. Similarly, 
it could incur significant liability risks that would not be incurred 
by a government agency. All of these problems illustrate the need to 
draw a clear distinction between security measures that a private port 
facility operator should have in place as prudent business practices, 
and the much more extensive security measures required by MTSA intended 
to protect the nation from terrorist attacks. Effective homeland 
security is a daunting task even for the Federal agencies that exist 
for that specific mission; attempting to shift their responsibilities 
to private port facility operators that are not capable of carrying out 
those tasks would only result in serious deterioration of port 
security.

    The manner in which MTSA has been implemented over the last two 
years shows that it is possible to increase a private port facility 
operator's responsibilities without increasing funding to that private 
port facility. But the port industry's experience with MTSA clearly 
shows that doing so is highly undesirable, even counterproductive. 
Imposing statutorily mandated security requirements - requirements that 
must be complied with under threat of severe sanctions for non-
compliance - without providing the funding needed to effectively 
implement MTSA does not produce effective port security. Overall, the 
port industry is struggling to do the best it can to bear the burden of 
the unfunded mandate imposed on it by MTSA, but this can hardly be 
described as wise national policy. MTSA was passed to protect the 
entire nation from the potentially widespread consequences that could 
result from a terrorist attack on the maritime transportation system. 
In the realm of national defense, the financial burden of protecting 
our nation from foreign aggression is placed on the nation as a whole. 
In the realm of homeland security, the financial burden of protecting 
commercial aviation from terrorist attacks and preventing terrorists 
from exploiting land transportation to enter the United States is 
placed on the nation as a whole. Only the maritime industry has been 
forced, under threat of sanctions, to bear the cost of protecting the 
nation from terrorist attacks.

    8)   Please list and describe the type of responsibilities and 
duties entrusted to your port authority police? Do these 
responsibilities and duties overlap with any other agency - public or 
private - at VPA?

    A:   MTSA assigned the Port Authority Police responsibilities and 
duties similar to those of law enforcement in homeland security in 
general: to deter, detect, prevent and respond to terrorist attacks. 
But those responsibilities and duties are on top of a broad range of 
responsibilities similar to those of corporate security organizations 
that protect their businesses against criminal acts. Port Authority 
Police responsibilities and duties include, but are not limited to:

        <bullet>   Ensuring that only authorized individuals enter the 
        terminals. This consists of perimeter security, access control 
        at gates, and a credentialing and badge system.

        <bullet>   Preventing theft or pilferage of shipping containers 
        and other criminal acts on the terminals. This consists of 
        verifying that containers departing the terminals have been 
        properly cleared for release and monitoring the terminals for 
        indications of criminal activity.

        <bullet>   Preventing all types of criminal acts on the VPA 
        terminals, such as robberies, burglaries vandalism and other 
        such crimes - similar to the responsibilities of local law 
        enforcement agencies.

        <bullet>   Providing security procedure and threat awareness 
        training to all persons working on the terminals. This is 
        required by MTSA and the Coast Guard Maritime Facility Security 
        Regulations.

        <bullet>   Maintaining compliance with the Coast Guard Maritime 
        Security Condition (MARSEC) currently in force.

        <bullet>   Conducting drills and exercises as required by MTSA 
        and the Coast Guard Maritime Facility Security Regulations.

        <bullet>   Supporting CBP cargo and immigration operations on 
        the terminals.

        <bullet>   Maintaining compliance with supply chain security 
        requirements of the Customs-Trade Partnership Against Terrorism 
        (C-TPAT).

        <bullet>   Maintaining compliance with Commonwealth of Virginia 
        emergency preparedness and continuity of operations 
        requirements for state agencies.

        <bullet>   Conducting routine public safety functions similar 
        to those of local law enforcement agencies, such as traffic 
        control and responding to accidents. The Port Authority Police 
        also have mutual aid agreements with the police departments of 
        the cities in which VPA terminals are located, which enables 
        them to assist with emergencies near the terminals (such as 
        traffic accidents on the busy roads outside the terminals).

    These Port Authority Police responsibilities and duties overlap 
with those of a number of public agencies and private companies, but 
only because such overlap is dictated by MTSA and other Federal and 
state policies. For example, the Coast Guard, the Virginia State 
Police, the Port authority Police and the respective local Police 
Department all have law enforcement jurisdiction on VPA terminals. In 
practice, though, these agencies are not conducting redundant 
operations on a day-to-day basis. And in a major terrorist incident 
such overlapping jurisdiction could well be an advantage in responding 
to an emergency with sufficient resources. There is also overlap with 
private companies that have facilities on the VPA terminals. Like VPA, 
those private facility operators must comply with MTSA and the Coast 
Guard Maritime Facility Security Regulations. The VPA Director of 
Security has worked closely with the facility security officers of 
those private facilities to coordinate and align their plans and 
procedures with VPA's in order to achieve an effective overall security 
posture and minimize redundancy.

    One of the potentially most serious areas of overlap is in the 
responsibilities of federal agencies in the event of a major terrorist 
incident on a marine terminal. VPA has had to address this in the 
course of developing response procedures for detection of radiation in 
a shipping container by the VPA radiation monitoring system. The 
question is who is in charge, or who takes the lead among Federal 
agencies? At least eight Federal agencies can point to statutes or 
policy documents that give them responsibility for all or part of a 
terrorist-related radiological emergency on a port facility: CBP, the 
Department of Energy, the Coast Guard, the Department of Homeland 
Security (DOE response teams are supposed to be placed under DHS 
control), the FBI, the Maritime Administration (MARAD), the 
Environmental Protection Agency (EPA), and the Federal Emergency 
Response Agency (FEMA). At the working level, local representatives of 
these agencies make it clear that they will focus on their specific 
responsibilities and not engage arguments over who has overall control 
of the situation. That is reassuring, but does not resolve the issue. 
The response to a radiological emergency can be complex, causing the 
response procedures of these various agencies to conflict with each 
other and requiring an authority that understands these diverse 
response plans to resolve procedural issues. Additionally, all of these 
agencies have headquarters that could well take a different view of who 
is in charge and override the collegial approach of their on-scene 
representatives. The solution is a Federal policy document that 
resolves this issue; but neither the National Response Plan (Including 
its radiological emergency annex) nor the National Incident Management 
System provides definitive guidance.

    9)   What are some ways you can secure our ports and cargo without 
an increase in personnel?

    A:   I can only speak to VPA's experience. We have attempted to 
achieve MTSA compliance without an increase in Port Authority Police 
personnel. This is driven by funding: we simply cannot afford large 
increases in personnel and the Federal government is not willing to 
fund them, even though it was Federal law that mandated the 
requirements we are trying to meet. Some of the security requirements 
imposed by MTSA and the Coast Guard Maritime Facility Security 
Regulations are extremely manpower intensive, such as the requirement 
for random vehicle and bag checks at entrance gates. VPA has attempted 
to leverage technology wherever possible to reduce manpower 
requirements so that Port Authority Police personnel can be reassigned 
to MTSA tasks for which there is not a readily available technological 
solution. For example, installation of a closed circuit television 
system for perimeter surveillance reduces the requirement for police 
officers on perimeter patrols, making them available for other duties. 
Another example is to achieve as much automation in access control as 
possible, thus reducing manpower requirements at the terminal gates. 
Our goal would be fully automated, unmanned gates, but the Coast Guard 
Maritime Facility Security Regulations currently do not permit this. We 
will be working with the Coast Guard to achieve minimum manning on our 
gates consistent with MTSA security requirements.

        1)   What about the creation of joint task forces to prevent 
        the duplication of responsibilities by other agencies?

        A:   VPA is a member of the FBI's Tidewater Joint Anti-
        Terrorism Task Force and the Coast Guard's Area Maritime 
        Security Committee. Duplication of responsibilities has not 
        been a serious issue for VPA because Port Authority Police 
        jurisdiction is limited to the VPA terminals. For example, the 
        Port Authority Police does not have boats patrolling the 
        harbor, which is the responsibility of the Coast Guard, the 
        Virginia Marine Police and city police departments. Wherever 
        overlapping responsibilities across Federal, state and local 
        agencies exist, joint task forces or other cooperative 
        approaches to coordinating their efforts toward the common goal 
        of effective port security would certainly be called for.

        2)   What about delegating responsibilities and duties to other 
        agencies; including local, state and other federal government 
        agencies, or even private companies?

        A:   VPA itself does not have authority to delegate its port 
        security responsibilities and duties to other Federal, state 
        and local agencies. Our goal is to have effective working 
        relationships with those agencies and to ensure that all of our 
        security and emergency response plans are synchronized and 
        mutually supporting. Please see my answer to question 7 above 
        concerning delegation of responsibilities to private companies. 
        Although VPA has contractors that assist it with various 
        aspects of its security program, it has not delegated any of 
        its port security responsibilities to them. VPA is accountable 
        to the Coast Guard for compliance with MTSA and the Coast Guard 
        Maritime Facility Security Regulations, and would face drastic 
        sanctions for non-compliance. This strict regulatory 
        environment precludes delegation of responsibilities.

    10)   Please list your top three priorities in securing our ports 
and cargo? Can you envision a way to accomplish these priorities 
without additional funding or personnel?

    A:   My top three priorities for securing America's ports and the 
cargo passing through them would be as follows:

        <bullet>   Fund all port security requirements imposed on the 
        port industry by MTSA and the Coast Guard Maritime Facility 
        Security Regulations that are designed to protect the nation 
        from terrorist attacks; in other words, all requirements beyond 
        those that a prudent business would take to protect itself from 
        normal criminal activity. The port industry does not have the 
        resources required to protect the nation. We are willing to 
        carry out our responsibilities to the best of our abilities, 
        but the Federal government must live up to its responsibilities 
        for homeland security as well.

        <bullet>   Provide the Federal agencies responsible for port 
        and cargo security, especially CBP and the Coast Guard, with 
        the resources they need to carry out their missions. I have the 
        utmost respect for the hard working men and women of these two 
        agencies. They are doing the best they can with the resources 
        they have, but they are stretched thin and face a significant 
        challenge carrying out their responsibilities without impeding 
        the flow of commerce.

        <bullet>   Enhance the management of the Port Security Grant 
        Program. Develop a more rigorous allocation system that ensures 
        funds are provided for purposes that provide the greatest 
        enhancement to port security, rather than the current practice 
        of spreading grants as widely as possible. Preserve the 
        positive aspects of the current Port Security Grant Program, 
        such as the evaluation of grant proposals by experts in the 
        Coast Guard, CBP and MARAD, and continue to provide the grants 
        directly to port authorities, port facility operators, and 
        other state and local agencies directly responsible for port 
        security. Because the Port Security Grant Program supports 
        implementation of a unique statutory requirement imposed on a 
        single industry, do not merge port security grants with other 
        grant programs that are not tied to implementation of statutory 
        mandates, which would greatly increase the competition for 
        scarce grant funds and thus exacerbate the financial burden 
        that has been placed on the shoulders of the port industry. 
        Similarly, the Port Security Grant Program should not be 
        treated in the same manner as grant programs supporting state 
        and local first responders. The allocation procedures used for 
        those programs are not appropriate for an industry governed by 
        a statutory mandate, and would result in loss of the expert 
        review process now in place. Amend the Port Security Grant 
        Program to permit a portion of those funds to be applied to 
        annual operating expenses for security. Compliance with MTSA 
        has significantly increased annual operating expenses, 
        including maintenance of the high technology security systems 
        required for effective compliance with MTSA, training and 
        exercise expenses, and all the personnel and other operating 
        expenses incurred by ports for security.

    The only possible way to reduce, or avoid future, costs is to 
update the CFR 105 requirements to a more ``tailored'' made 
requirements - a risk based approach. For instance, a predominately 
container facility, such as VPA, compliance should be against 
regulations based on the threat and vulnerability to a container 
facility. E.g., Significantly reduce the requirement for vehicles 
inspection entering the facility. [A container facility sees a high 
number of ``tractor-trailers'' are required within the regulations to 
inspect the cab, yet leave the 40 feet of cargo ``un-inspected'' due to 
a practical way to accomplish.] Where a petro-chemical facility might 
be prudent to have a higher standard, as one might argue the threat or 
vulnerability to the petro-chemical facility is entering vehicles.

    11)   Does the type of container inhibit inspection in any way? If 
so, how? Would a uniform container requirement help ease the burden of 
inspection?

    A:   This question should be directed to CBP for a complete answer. 
VPA does not inspect containers and would only open one in an 
emergency, such as suspected or actual release of hazardous material or 
some other emergency in which opening a container would be necessary to 
protect human life. Containers are already standardized in terms of 
dimensions and construction for maximum efficiency of intermodal 
transportation. There is one type of container that presents unique 
challenges: marine portable tanks (tanks build to the same dimensions 
as regular shipping containers). I recommend that you ask CBP about the 
challenges of inspecting for contraband hidden in a marine portable 
tank full of the various liquid cargoes carried in them.

    12)   How often is a cargo vessel coming into the U.S. required to 
take a physical inventory of its cargo? After the vessel takes a 
physical inventory of its cargo, is the cargo vessel required to report 
is findings to anyone?

    A:   This question should be directed to the US Coast Guard and CBP 
for a complete answer. VPA does not have the authority to direct such a 
physical inventory and has no knowledge of a vessel destined for a VPA 
terminal ever having been directed to conduct such an inventory by the 
Coast Guard or CBP. I also recommend that you refer this question to 
the International Cargo Security Council, the Chamber of Shipping of 
America, the Intermodal Association of North America, the Maritime 
Security Council and The Waterfront Coalition. I am sure they would 
tell you that conducting a physical inventory of the cargo in hundreds 
of containers on a vessel would be impossible and that the master of a 
vessel has no responsibility for verifying that the contents of the 
containers matches the shipping documents for those containers.

                              ----------                              

     Statement submitted by The Retail Industry Leaders Association
    On behalf of the Retail Industry Leaders Association (RILA), we 
welcome the opportunity to submit written comment for the record for 
this important oversight hearing on port security. Safe and secure 
seaports are an important element in building efficient and 
technologically advanced supply chains that can move cargo quickly to 
distribution centers, stores, and factories across the nation. Any 
delays can seriously disrupt the supply chain and harm the U.S. 
economy.
    The Retail Industry Leaders Association (RILA) represents the 
nation's most successful and innovative retailer and supplier 
companies--the leaders of the retail industry. Retail is the second 
largest industry in the U.S., employing 12 percent of the nation's 
total workforce and conducting $3.8 trillion in annual sales. RILA's 
retail and product supplier companies operate 100,000 stores, 
manufacturing facilities and distribution centers in every 
congressional district in every state, as well as internationally. They 
pay billions in federal, state and local taxes and collect and remit 
billions more in sales taxes. They are also leading corporate citizens 
with some of the nation's most far-reaching corporate social 
responsibility initiatives.
    RILA and its members have played a critical leadership role in 
shaping supply chain security efforts. From partnering with U.S. 
Customs & Border Protection and the Department of Homeland Security to 
testing different pilot projects, RILA and its members are committed to 
ensuring the safety and security of their supply chains not only to 
protect their cargo, but also their customers and the individuals 
associated with the movement of their cargo.
    Since the tragic events of September 11th, a great deal of work has 
gone into improving the security of the supply chain. What we ask 
members of Congress and the Administration to understand is that the 
supply chain is a very complex system and that variations exist among 
companies and between industries. While there have been a number of 
initiatives and regulations put in place since September 11th, there is 
still a lot that needs to be done.
    Members of Congress and the Administration must realize that there 
is no ``silver bullet'' solution when it comes to supply chain 
security. There is no one technological or procedural solution that 
will magically make every supply chain safe and secure from 
infiltration. RILA strongly believes that the layered approach that the 
government is currently using is the best way to prevent a terrorist 
attack within the supply chain - and we urge Congress to continue on 
this wise course. There is of course a role for technology but it needs 
to be integrated carefully into the system and must be consistent with 
international standards. If a particular technology cannot work 
worldwide, then it cannot work effectively in our international supply 
chain. Technology should be reliable and result in virtually no false 
positives or false alarms. Even a 1% failure rate could be disastrous.

                        Security Actions to Date

    As members of the subcommittee are aware, there have been a number 
of regulations and programs that have been put into place to increase 
supply chain security. U.S. Customs and Border Protection (CBP) along 
with the U.S. Coast Guard have taken the lead on a number of these 
efforts.
    CBP is now enforcing both the ``24 Hour Rule'' and the ``Trade 
Act'' which require the submission of manifest information in advance 
of cargo arriving in the U.S. For ocean bound cargo, the information 
must be submitted before the container is even loaded onto the vessel 
at the foreign port. These new regulations have enabled CBP to better 
utilize information and better identify ``suspect'' cargo through its 
Automated Targeting Center.
    In addition, CBP has also developed a number of new programs 
through partnerships with the trade community as well as foreign 
Customs agencies. The Customs-Trade Partnership Against Terrorism (C-
TPAT) was the first true private-public partnership to enhance supply 
chain security. Many of RILA's members were the first to join the C-
TPAT program and helped to develop the program. Many of these same 
companies continue to work with CBP to further enhance the C-TPAT 
program. CBP has also been partnering with RILA members and other C-
TPAT members to test ``smart box'' technology, container security 
devices and the collection of advanced trade data.
    CBP has also worked with foreign Customs agencies through the 
Container Security Initiative as well as working to develop an 
international framework for supply chain security through the World 
Customs Organization.
    CBP has many other tools at its disposal including the use of non-
intrusive inspection technology such as the Vehicle and Cargo 
Inspection Systems (VACIS) and Radiation Portal Monitors which are 
being deployed at ports nationwide.
    The U.S. Coast Guard is now responsible for enforcing the Maritime 
Transportation Security Act (MTSA) as well as the International 
Maritime Organization's International Ship and Port Facility Security 
(ISPS) Code. In fact, the U.S. Coast Guard was instrumental in the 
development of the ISPS Code, which closely resembles the MTSA. These 
new regulations call for increased security at port facilities as well 
as ocean vessels.
    While CBP and the Coast Guard have taken the lead on supply chain 
security and port security efforts, there are other agencies that are 
involved as well. The Food and Drug Administration is now enforcing the 
Bioterrorism Act (BTA), which protects the nation's food supply from a 
terrorist attack.

                             Future Action

    There is still a great deal of work that needs to be done on supply 
chain security. However, this cannot be done overnight. As stated 
earlier, the supply chain is a very complex system that companies 
continuously seek to refine and improve. Cargo security legislation and 
regulations should include a thorough analysis and recognition of 
commercial implications including the potential impact of delays and 
congestion on the national economy. RILA believes that there are 
several issues that Congress should consider as it moves forward with 
initiatives to secure the global supply chain.

Container Inspections

    Many in Congress have talked about the physical inspection of 100% 
of cargo containers. RILA strongly believes that 100% physical 
inspections are not necessary or economically viable. Physically 
inspecting every box is simply impossible. Members need to consider 
infrastructure issues such as marine terminal congestion, warehouse 
space shortages, trucking demands and highway congestion.
    Such an approach would result in an enormous increase in congestion 
at U.S. seaports and have a tremendously negative impact on the U.S. 
economy. Rather, a more effective approach would be for CBP to continue 
to focus on inspecting 100% of the cargo that is deemed suspicious by 
the National Targeting Center.

Balanced Policy

    Policy developed by the Department of Homeland Security, Congress 
or other agencies should balance the need for security and the need to 
allow the free flow of legitimate commerce. Security requirements 
should not become a barrier to trade.

Technology

    There is no single technological solution for supply chain 
security. The government should not rush to require the use of ``smart 
containers'' or ``electronic seals''. These technologies are still 
extremely expensive and are not yet 100% accurate. Technology should 
not be considered as the only solution. It should be considered as a 
part of the overall strategy. Successful security includes a 
multilayered approach. We know of few if any technologies that have 
been independently tested by entities that do not have a conflict of 
interest in selling such technology. No only does the technology need 
to be reliable but because of the expense we need to ensure that the 
technology considered will improve the probability of detecting a 
security risk (i.e. WME or WMD). By way of example, if you could design 
a foolproof container door intrusion device, all the terrorist would 
have to do is cut a hole in the side of the container for purposes of 
placing a bomb inside. An operation such as this might only take 20 
minutes or less depending on the expertise of the bad guy. We need to 
ensure that the money we spend provides more than simply ``feel good'' 
measures.

Government Coordination

    There needs to be a better-coordinated approach not only between 
federal government agencies, but also those at the state and local 
level. If an incident occurs, everyone needs to be on the same page as 
to how to respond. In addition, Congress and the Administration need to 
ensure that the various agencies involved in homeland security do not 
duplicate ongoing efforts.
    Likewise, each country has an interest in ensuring that the global 
supply chain is kept safe. A major terrorist incident in the U.S. will 
not impact just one port or one city or even one country. The impact 
will be felt around the globe.
    Therefore cooperation among governments is important. But 
government's active collaboration with the private sector is extremely 
critical. Supply chain security is simply too complicated for the 
public sector to tackle the problem without partnering with private 
industry. This is a good example of the whole being greater than the 
sum of its parts.

Business Continuity/Contingency Planning

    There is a need for the Administration to focus on business 
continuity/restoration plans in the event of a terrorist attack. To 
date, most of the attention has been on prevention. Now there needs to 
be an equal focus on the steps that will be taken to keep the global 
supply chain operational in the event of an attack. The trade needs to 
know who is in charge, how they will make decisions, whether and which 
segments of the supply chain will be closed and how those decisions 
will be communicated to the trade. One of the terrorist's main goals is 
to disrupt the world economy. Therefore, it is imperative to have plans 
in place, which will reduce the disruptive effects of any terrorist 
incident.

                               Conclusion

    A great deal of work has been done over the past two years to 
ensure the safety and security of cargo entering and leaving U.S. 
ports. There are still many areas for future work. However, through 
partnerships with U.S. government agencies such as CBP and through 
increased partnerships with their suppliers, both merchandise and 
transportation providers, RILA's members have accomplished a great deal 
to ensure the security of their supply chains. They are continuing to 
learn what works and what doesn't around the world. These lessons must 
be taken into consideration as new regulations and policies are 
discussed.
    We thank the subcommittee for the opportunity to submit written 
testimony for the record and stand ready to continue to work with both 
Congress and the Administration on improving the security of U.S. ports 
and the global supply chain. If you have any questions, please contact 
Jonathan Gold, Vice President Global Supply Chain, or Paul T. Kelly, 
Senior Vice President, Federal and State Government Affairs.

                                 <all>

</pre></body></html>
